<html>
<title> - CHALLENGES FACING THE CHILD WELFARE SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                           CHALLENGES FACING

                        THE CHILD WELFARE SYSTEM
=======================================================================



                                HEARING

                               before the

                            SUBCOMMITTEE ON
                   INCOME SECURITY AND FAMILY SUPPORT

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2007

                               __________

                           Serial No. 110-40

                               __________

         Printed for the use of the Committee on Ways and Means



                     U.S. GOVERNMENT PRINTING OFFICE

43-094 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California       JIM MCCRERY, Louisiana
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM MCDERMOTT, Washington            DAVE CAMP, Michigan
JOHN LEWIS, Georgia                  JIM RAMSTAD, Minnesota
RICHARD E. NEAL, Massachusetts       SAM JOHNSON, Texas
MICHAEL R. MCNULTY, New York         PHIL ENGLISH, Pennsylvania
JOHN S. TANNER, Tennessee            JERRY WELLER, Illinois
XAVIER BECERRA, California           KENNY C. HULSHOF, Missouri
LLOYD DOGGETT, Texas                 RON LEWIS, Kentucky
EARL POMEROY, North Dakota           KEVIN BRADY, Texas
STEPHANIE TUBBS JONES, Ohio          THOMAS M. REYNOLDS, New York
MIKE THOMPSON, California            PAUL RYAN, Wisconsin
JOHN B. LARSON, Connecticut          ERIC CANTOR, Virginia
RAHM EMANUEL, Illinois               JOHN LINDER, Georgia
EARL BLUMENAUER, Oregon              DEVIN NUNES, California
RON KIND, Wisconsin                  PAT TIBERI, Ohio
BILL PASCRELL JR., New Jersey        JON PORTER, Nevada
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama

             Janice Mays, Chief Counsel and Staff Director

                  Brett Loper, Minority Staff Director

                                 ______

           SUBCOMMITTEE ON INCOME SECURITY AND FAMILY SUPPORT

                  JIM MCDERMOTT, Washington, Chairman

FORTNEY PETE STARK, California       JERRY WELLER, Illinois
ARTUR DAVIS, Alabama                 WALLY HERGER, California
JOHN LEWIS, Georgia                  DAVE CAMP, Michigan
MICHAEL R. MCNULTY, New York         JON PORTER, Nevada
SHELLEY BERKLEY, Nevada              PHIL ENGLISH, Pennsylvania
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of May 8, 2007, announcing the hearing..................     2

                               WITNESSES

The Honorable Anne Holton, First Lady of The Commonwealth of 
  Virginia.......................................................     6
Cornelia M. Ashby, Director of Education, Workforce and Income 
  Security, U.S. Government Accountability Office................    17
William Bell, President and Chief Executive Officer, Casey Family 
  Programs.......................................................    34
Mary Nelson, Administrator, Division of Child and Family 
  Services, Iowa Department of Human Services....................    38
Ed Cotton, Independent Consultant, Tallahassee, Florida..........     9

                       SUBMISSIONS FOR THE RECORD

Child Welfare League of America, statement.......................    72
North American Council on Adoptable Children, Joe Kroll, St. 
  Paul, MN, statement............................................    87
Children's Law Center of Los Angeles, Monterey Park, CA, 
  statement......................................................    97
County Welfare Directors Association of California, Sacramento, 
  CA, statement..................................................    98
First Star, statement............................................   102
Generations United, statement....................................   103
GrandParents United, letter......................................   107
Kimberly L. Blue, statement......................................   113
Madeleine Green Wojciechowski, statement.........................   114
National Indian Child Welfare Association, statement.............   114
Public Justice Center, statement.................................   119
Robert Littlejohn, statement.....................................   126
Roma O. Amor, statement..........................................   128
Voice for Adoption, statement....................................   134


                           CHALLENGES FACING



                        THE CHILD WELFARE SYSTEM

                              ----------                              


                         TUESDAY, MAY 15, 2007

             U.S. House of Representatives,
                       Committee on Ways and Means,
        Subcommittee on Income Security and Family Support,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room B-318, Rayburn House Office Building, Hon. Jim McDermott 
(Chairman of the Subcommittee), presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                            SUBCOMMITTEE ON

                   INCOME SECURITY AND FAMILY SUPPORT

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
May 08, 2007
ISFS-7

                     McDermott Announces Hearing on

               Challenges Facing the Child Welfare System

    Congressman Jim McDermott (D-WA), Chairman of the Subcommittee on 
Income Security, today announced a hearing on the challenges that State 
child welfare agencies face in serving children under their 
supervision. The hearing will take place on Tuesday, May 15, 2007, at 
10:00 a.m. in room B-318 Rayburn House Office Building.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Subcommittee and 
for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    Approximately 3.6 million children were the subject of child abuse 
and neglect investigations in 2005 (the most recent year for which data 
is available), of which nearly 900,000 children were found to be the 
victims of substantiated cases of maltreatment. An estimated 317,000 
children were not able to live safely in their homes and were placed in 
foster care. On any given day during that year, over a half million 
children were in the foster care system.
      
    The primary goal of the child welfare system is to ensure the 
safety and well-being of children who are victims of abuse or neglect, 
or at-risk for such maltreatment. Child welfare caseworkers investigate 
allegations of abuse or neglect and determine what services can be 
offered to stabilize and strengthen a child's own home. If remaining in 
the home is not in the best interest of a child, he or she may be 
placed in foster care while efforts are made to either improve the 
home, or find a safe and permanent home for the child.
      
    According to the Government Accountability Office (GAO), State 
child welfare agencies identified three primary challenges as most 
important to resolve to improve the outcomes for children under their 
supervision: providing an adequate level of services for children and 
families; recruiting and retaining caseworkers; and, finding 
appropriate homes for certain children. Notably, most States were 
dissatisfied with the level of mental health and substance abuse 
services for both parents and children, large caseload sizes for their 
child welfare workforce, and their ability to find permanent homes for 
children with special needs. Others have identified additional 
challenges, such as providing an adequate level of services to children 
aging out of the foster care system, the over-representation of 
children of color in the child welfare system, and limited access to 
post-adoption services.
      
    In announcing the hearing, Chairman McDermott stated, ``There are a 
number of obstacles that undermine the ability of the child welfare 
system to ensure safe, nurturing and permanent homes for children in 
the foster care system. Overcoming these obstacles is critical to 
achieving positive outcomes for our most vulnerable children. This 
hearing will be the first step toward reviewing our Nation's child 
welfare system, and its capacity to ensure the safety of children and 
to provide necessary resources to families in crisis.''

FOCUS OF THE HEARING:

      
    The hearing will focus on factors that most negatively impact 
States efforts to ensure the safety, well-being and permanency of 
children under their supervision.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``110th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=18). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business May 29, 
2007. Finally, please note that due to the change in House mail policy, 
the U.S. Capitol Police will refuse sealed-package deliveries to all 
House Office Buildings. For questions, or if you encounter technical 
problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman MCDERMOTT. Today we are very pleased to have this 
panel of witnesses. The door in the nation's child welfare 
system is usually opened when a parent fails to uphold their 
most solemn responsibility: ensuring their child's safety and 
well-being.
    Once inside the system, a child becomes the responsibility 
of the State. As their de facto parent, we cannot afford to 
fail these children again. The consequence of such failure is 
simply too high for these children, and for the Nation.
    Now, this is a creed that dedicated caseworkers, juvenile 
court judges, and foster parents live by, but too often, they 
are stymied by a host of challenges: too few available 
services; too few caseworkers; and too little attention by 
government, really, at every level.
    Today's hearing focuses on the obstacles that states 
encounter in their efforts to achieve positive outcomes for our 
Nation's most vulnerable children and families. The hearing 
will seek to evaluate the factors that most negatively impact 
the safety, well-being, and permanency of children under the 
supervision of the child welfare system.
    There should really be no political divide between the 
Republicans and the Democrats, when it comes to providing for 
vulnerable kids. In fact, this Subcommittee has demonstrated 
success in this area in the past, by working together in a 
bipartisan fashion.
    Most recently, I worked with Mr. Herger, who is not yet 
here, but who is the former Chairman of the Subcommittee, to 
reauthorize the Promoting Safe and Stable Families program.
    In addition to reauthorizing funding for 5 years to support 
activities designed to prevent child abuse and support family 
preservation services, we also: required states to ensure 
monthly casework visits for children in foster care, or make 
progress toward that goal; provide new resources to improve the 
recruitment, retention, and training of caseworkers; provided 
funding for grants to combat the impact of substance abuse, 
such as methamphetamine, in the child welfare system; and, 
finally, required states to create disaster plans within their 
child welfare programs, to ensure that the safety and well-
being of children during a natural disaster are met.
    This legislation was a step in the right direction. It was 
just one small step, but we really need to make a giant leap. 
We need a system that focuses on preventing abuse, not just 
responding to it. We need qualified and experienced caseworkers 
who are not forced to oversee twice as many kids as are 
recommended, and we need a Federal funding structure that 
adequately supports children and families in crisis.
    Now, these goals will not be fulfilled by the passage of a 
single bill. They demand a full, long-term commitment to 
careful and vigilant oversight, followed up with appropriate 
action.
    The problems of the child welfare system did not arise 
overnight, and will not be addressed in that timeframe. 
Nevertheless, progress is not only possible, but it's within 
our reach if we work together. I hope this marks the beginning 
of that journey. I now yield to Mr. Weller, the Ranking Member. 
Mr. Weller?
    Mr. WELLER. Thank you, Mr. Chairman, and thank you for 
conducting this hearing this morning.
    Today, we will consider the challenges facing child welfare 
systems around this Nation. As a dozen hearings in this 
Subcommittee have established in recent years, those challenges 
are many, and great, and often have multiple causes, 
complicating efforts at reform.
    Despite that complexity and need for reform, some argue 
that key challenges facing child welfare systems all have to do 
with underfunding. That ignores the fact that taxpayers spend 
more than $23 billion per year for child protection and foster 
care and adoption programs, according to the Child Welfare 
League of America.
    So, instead of asking whether we are spending enough, we 
should consider whether we are spending taxpayer funds as well 
as we can. In a number of ways, we can certainly do better.
    For example, I have a longstanding interest in training the 
child welfare workers. Today I will reintroduce legislation I 
have authored in prior congresses, designed to address a 
glaring flaw in current rules, by ensuring all child welfare 
workers, whether they work for public or private agencies, have 
access to the same training needed to protect children.
    Take Will County Catholic Charities, in the district I 
represent, which helps protect over 300 children in foster 
care. There is simply no reason why a caseworker with Will 
County Catholic Charities should have less access to training 
than an equally dedicated caseworker who happens to be a public 
employee, yet that is what current Federal rules promote.
    We should fix this, and we should also address longstanding 
concerns about Federal funding for Native American children, 
and the services and supports designed to better protect them. 
Our first Americans should be treated as full Americans, 
including in child welfare programs.
    Some of the witnesses before us today think we also could 
do better when it comes to targeting efforts to better prevent 
abuse and neglect from occurring in the first place. That would 
result in fewer children needing foster care, freeing more 
resources to ensure the safety, permanency, and well-being of 
those who do.
    Both goals are critical: better prevention and better 
oversight. Some areas have shown progress, but they are all too 
rare. Recent positive examples include Illinois and New York 
City, which have dramatically reduced the number of children 
who need foster care.
    In the 2006 congress, led by members of this Subcommittee, 
we took some modest steps in the right direction, by targeting 
more funds for child abuse prevention, and holding states more 
accountable for results.
    Still, we will also hear today too many other areas, like 
Clark County, Nevada, have continued to prove the risks for 
children, when child welfare systems fail to protect them.
    Joining us today is Ed Cotton, who has broad experience in 
child welfare programs in my home State of Illinois, as well as 
New Jersey and Nevada. Most recently, Mr. Cotton conducted a 
top-to-bottom review of Clark County, Nevada's child welfare 
program in the wake of recent tragedies there. As this review 
and Mr. Cotton's testimony relates, in Clark County and too 
many other places, this system has a very long way to go to 
ensure that children are adequately protected.
    Thank you, Mr. Chairman. I look forward to the testimony.
    Chairman MCDERMOTT. Thank you. Any other members who have 
statements certainly can put them in the record, without 
objection.
    We are lucky today to have a very distinguished panel of 
witnesses. You have all submitted testimony, which will be 
entered into the record. We would like you to summarize those 
things you think are most important, and perhaps you can add 
more to it, beyond what you have actually written.
    So, I will begin with Ms. Anne Holton, who is the First 
Lady of Virginia. That's not what brings her here. What brings 
her here is that she was, in 1998, appointed a judge of the 
Juvenile Domestic Relations District Court of Richmond, and we 
welcome you, Judge Holton.

  STATEMENT OF ANNE HOLTON, FIRST LADY OF THE COMMONWEALTH OF 
                            VIRGINIA

    Ms. HOLTON. Thank you, Chairman McDermott, Congressman 
Weller, other members, Committee members, and staff. Good 
morning, and thank you for the opportunity to talk with you 
today.
    Before my husband became Virginia's Governor, as 
Congressman McDermott said, I served as a J&DR judge in 
Richmond, Virginia, a mid-sized urban jurisdiction with a large 
foster care population. In that role, I got to know some 
remarkable foster kids, who were striving mightily to become 
independent, successful adults, but were finding out just how 
hard that is to do without family support.
    In my years on the bench, I watched ASFA, the Adoption Safe 
Families Act 1997, take hold in our community. I'm proud to say 
the results were impressive. We worked together across agency 
lines to ensure that no child remained in care longer than 
necessary. Our foster care population and our lengths of stay 
in care, declined by 30 percent. Our adoptions increased, 
literally, tenfold, without risking child safety and well-
being.
    One of the lessons I took from this is that change can 
happen, and that you, at the Federal level, can be important 
instruments of change.
    In my time on the bench, however, I saw that, while we were 
making progress, primarily with the younger children, we were 
less successful with older kids. They have often had some 
horrific experiences in their short lives, and not 
surprisingly, some of them have behavioral challenges. As a 
parent, I am aware that teenagers are almost, by definition, 
challenging. They are still children, and they still need, and 
deserve, families.
    Studies show that young people who age out of care at 18 or 
older without a family, as almost 25,000 kids do every year, 
will likely become homeless, incarcerated, or on welfare rolls 
within a few short years. They are less educated, less able to 
support themselves, and have no family safety net.
    The good news is that we can help these young people make 
permanent family connections. In my role as first lady, I have 
launched an initiative called, ``For Keeps,'' to improve 
Virginia's systems for finding and strengthening permanent 
families for older kids in care, or at risk of coming into 
care. As part of that effort, I have been traveling around our 
commonwealth, meeting and listening to hundreds of young 
people, families, and professionals involved in child welfare.
    I met, for instance, a social worker who was recruiting 
adoptive families for difficult-to-place children, such as a 
16-year-old girl with severe cerebral palsy and initially, 
severe behavioral problems, as well. Her new mom, whom I met, 
is a nurse, adopting her with the support of an extraordinary 
extended family.
    I learned about families who have successfully adopted 14-
year-old and 15-year-old boys, direct from residential 
treatment facilities. These young people now have much better 
prospects. Incidentally, are no longer costing the State 
$100,000 annually for their care.
    Another lesson I have learned is that we can and must do 
better in providing support for young adults in or formerly in 
foster care. One couple told me of their struggles to pay for 
college for the two older boys they recently adopted, not 
having had a lifetime to save for that college expense.
    I heard from older students, who had lost their Medicaid 
when they got part-time jobs, or who needed more help with 
employment and other independent living skills. On average, 
young people in intact families do not move finally out of the 
family home--a slightly frightening fact, again, as a parent--
until age 26, long past when we effectively cut loose our 
foster kids.
    Before I close, I would like briefly to touch on some 
Federal policy issues in child welfare--and you all know this. 
First, Title IV-E resources have dwindled over the past decade. 
More foster children are excluded each year, due to the look-
back provisions that tie eligibility to their family's 
qualifications under 1996 AFDC income limits. Such Byzantine 
requirements serve no useful purpose, and take social worker 
time away from real services to children.
    Second, Federal support for preserving families, and 
preventing a child's entry into foster care is limited, leaving 
agencies sometimes to place children into care who might have 
safely remained with their families with more support. This is 
a worse option for the child and taxpayers.
    Finally, the Federal Government has an opportunity to 
encourage more effective research to guide the states in 
improving child welfare. Good research is scarce, and much 
needed in this area.
    My written testimony mentioned some other Federal policy 
concerns. I have also attached a national Governors Association 
policy statement on child welfare, which summarizes the 
Governors' collective experience, and recommendations in this 
area.
    I thank you for your work on behalf of our nation's foster 
youth, and stand ready to assist in any way I can, as we all 
work together to best serve our neediest young people.
    [The prepared statement of Ms. Holton follows:]
            Prepared Statement of The Honorable Anne Holton,
               First Lady of The Commonwealth of Virginia
    Chairman McDermott, Congressman Weller, other Members of the 
Committee, good morning and thank you for the opportunity to 
participate in this important hearing. I'm honored to be here and 
grateful for the opportunity to talk with you today about something 
close to my heart, America's foster care children.
    Before my husband became Virginia's governor, I served as a 
Juvenile and Domestic Relations Court judge in Richmond, Virginia, a 
mid-size urban jurisdiction with a large foster care population. In 
that role I got to know some remarkable young people in foster care. 
They were striving mightily to become independent successful adults, 
but were finding out just how hard that is to do without strong family 
support.
    In my years on the bench, I watched the Adoption and Safe Families 
Act of 1997 take hold in our community, and the results were 
impressive. We worked together across agency lines to ensure that no 
child should be in foster care longer than necessary. From 1998-2005, 
our foster care population declined by 30%, our lengths of stay in care 
shortened also by 30%, and our adoptions from foster care increased 
literally tenfold--all without risking child safety and well-being.
    One of the lessons I took from this is that change can happen, and 
that you at the federal level can be important instruments of change.
    In my time on the bench, however, I saw that while we were making 
progress primarily with younger children, we were less successful in 
helping older kids in foster care. The older kids often have had some 
horrific experiences in their short lives and have behavioral 
challenges as a result. As a mother of teenagers, I can say with 
authority that teenagers are almost by definition challenging. People 
who are willing to open their hearts and homes to other children often 
are wary of taking on an older child.
    But they are still children, and they still need and deserve 
families. Studies show that young people who age out of care at 18 or 
older without family--almost 25,000 kids do every year in America--will 
likely become homeless, incarcerated, or on welfare rolls within a few 
short years. They are less educated and less able to support themselves 
than their peers. And they have no family safety net to support them 
when--inevitably--they need it.
    The good news is that these young people can be successful in 
families, and that government can be successful in finding and 
supporting permanent families for them. In my role as First Lady, I 
have recently launched an initiative called ``For Keeps,'' to work 
collaboratively to improve Virginia's systems for finding and 
strengthening permanent families for older children in care or at risk 
of entering care.
    As part of that effort, I have traveled around our Commonwealth 
meeting and listening to hundreds of young people, families and 
professionals involved in the child welfare system. I celebrated 
Adoption Day last fall in Danville, one of our rural communities, where 
a social worker supported by a state grant is successfully recruiting 
adoptive families for difficult-to-place children. I met there the new 
family of a 16 year old girl who had cerebral palsy and, when she first 
came to them, severe behavioral problems. The adoptive mother is a 
nurse, but in reality her whole extended family is adopting this girl. 
I learned about families who have adopted 14 and 15 year old boys who 
had previously been confined to residential treatment facilities--it 
took a lot of support and patience, but it is working. These young 
people now have much better prospects of successful adulthoods, and 
incidentally are no longer costing the state $100,000 plus annually for 
their care.
    Another lesson I have learned traveling across Virginia is that we 
can and must do better in providing supports for young people aging out 
of foster care. One consistent theme was the inadequacy of the support 
we give to 18-plus year olds in or formerly in foster care. One couple 
who had adopted two older boys told me of their concern that they 
wouldn't be able to pay for college for them--they had saved for many 
years to provide for their biological children, but they now have an 
extra teenager aspiring to higher education for whom they had not 
planned. I heard of other young people who had lost their Medicaid when 
they got part-time jobs while they completed their schooling. Others 
talked of the need for more help with employment, transportation, and 
independent living skills. We know from sociological studies that young 
people in intact families do not magically become fully independent at 
age 18--in fact, the average age at which a young person typically last 
moves out of the family home in the United States is 26--8 years beyond 
when we effectively declare our foster kids able to care for 
themselves.
    Before I close, I'd like briefly to suggest a few federal 
implications from my observations of our state child welfare systems.

    <bullet>  First, Title IV-E foster care resources have dwindled 
over the last decade because each year more foster children are 
excluded due to the look-back provisions that tie eligibility to 
whether their family would have qualified for AFDC under 1996 criteria! 
Verifying such Byzantine requirements also takes significant social 
worker time away from providing real services to children and families.
    <bullet>  Second, federal support for older children who can live 
permanently with relatives is currently prohibited, in spite of 
evidence of the cost effectiveness of subsidized guardianships.
    <bullet>  Third, federal support for the full range of services 
that could be provided to preserve families and prevent a child's entry 
into foster care is severely limited. Because of this, agencies 
sometimes are forced to place children into care who might safely 
remain with their families with better support.
    <bullet>  Fourth, when children age out of foster care, they lose 
their health insurance coverage through Medicaid. Few are yet in a 
position to be employed in jobs with health insurance, and unlike some 
of their peers, they have no opportunity for coverage through their 
families. Until the health insurance crisis is addressed more 
generally, Medicaid coverage for youth aging out of foster care should 
be extended to age 21 or higher.
    <bullet>  Finally, the federal government has an opportunity to 
encourage more effective research to guide the states in improving 
child welfare. As a JDR judge I often benefited from some of the great 
information on best practices programs generated as a result of 
federally-sponsored research in delinquency prevention. Good research 
in the foster care field is much scarcer--it can be hard to do well, 
but it is not impossible, and the federal government can and should 
play a more effective role in encouraging it.

    Many of these and related federal policy concerns are effectively 
addressed in a National Governor's Association policy position on child 
welfare, which draws on the governors' considerable collective wisdom 
and experience in this field and contains their recommendations on how 
federal policies could better promote effective outcomes. I am 
attaching a copy and commend it for your consideration.
    I thank you most humbly for your work on behalf of our nation's 
foster youth and for the opportunity to be with you here today.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much. We encourage you 
to go out there and experiment, and bring us back the results.
    Ms. HOLTON. Thank you.
    Chairman MCDERMOTT. We will next move to Mr. Cotton, who 
has spent 31 years on the ground, doing various things in the 
system. I think Mr. Porter would like to introduce him.
    Mr. PORTER. Thank you, Mr. Chairman. I want to thank the 
whole panel for being here today, and especially my friend, Mr. 
Cotton.
    As the Chairman mentioned, Mr. Cotton has been in the 
protection and advising and hands-on in the child protection 
system for 31 years. He has seen every aspect, from caseworker 
to child abuse investigator, hotline worker, child welfare 
supervisor, child protection manager, deputy director and 
director for State agencies in Illinois, Nevada, and New 
Jersey.
    Most recently, Mr. Cotton headed the administrative case 
review project, investigating child welfare deaths in the State 
of Nevada, in Clark County.
    Having worked with the child welfare system myself for many 
years, we had a challenge in Nevada, and that is we had a 
bifurcated system, where the State and the counties had 
separate systems. We combined those services a few years ago, 
and I think there is probably no one with better expertise in 
this field, and knowledge of what we can do to help our most 
precious resource, our children.
    Probably most importantly, he has been a foster parent for 
27 children himself. So, welcome, Mr. Cotton. We appreciate you 
being here.

 STATEMENT OF ED COTTON, CONSULTANT, HORNBY ZELLER ASSOCIATES, 
                      TALLAHASSEE, FLORIDA

    Mr. COTTON. Thank you, and Mr. Chairman, I appreciate the 
opportunity to address you. I will talk quickly.
    I believe that, based on my reviews, plus my years of 
experience, that the child welfare systems designed to protect 
children from abuse and neglect, and assure that they attain 
permanency, simply are not accomplishing that at an acceptable 
rate right now.
    This is despite some fairly stable funding over the past 
few years, and years of significant improvements between 1995 
and 2003, I think, have leveled out, and in some situations, 
gone backward.
    I do think that State agencies have a good core of workers, 
who need good leadership, and need good support from the 
legislature to move forward. I don't think it's just a funding 
issue, as you will see from reading my document.
    I do want to talk about four different areas very quickly. 
There is much more detail in my document, but I want to talk 
about each part of the system, starting with hotlines.
    Calls come into the hotline, they need to be staffed. When 
we called Nevada's hotline several times, or Clark County's, we 
found waits as long as 50 minutes. At no time did we wait less 
than 7 minutes. Many neighbors and others concerned about 
reporting child abuse are not going to sit in line 7 minutes. 
They're going to hang up, and may never report, and the kids 
could be hurt. So, hotlines need to be adequately staffed.
    Caseworkers. Caseworkers and investigators go into homes 
that police consider to be the highest level of risk, domestic 
violence, family situations, police go in there armed. Our 
workers go in there, armed with their expertise and their 
social work skills, that's all. Hotlines can help, because if 
they know about criminal background activities in that home, it 
can make them decide to take a policeman along, or take other 
precautions.
    Florida recently became the first State to require both 
State and national criminal background checks on every family 
that is being investigated--on the adults--before somebody goes 
out. Those are difficult negotiations, because that information 
is very confidential. I think the Federal Government could help 
make those negotiations easier for child welfare, by providing 
some strength, and knowing that information is necessary.
    When we move beyond the hotline, initiation, going out to 
see families. When an investigation starts, kids need to be 
seen right away. What we found in Clark County, when we looked 
at are these kids being seen soon enough to make sure that 
they're safe, 31 percent of the cases we decided yes; 69 
percent, nobody was out soon enough to even know if they were 
safe. We found death cases where a child was killed in a home, 
and nobody saw the siblings for lengthy periods of time, if 
ever, to make sure that they were safe.
    Ten percent of the kids that were reported for abuse, a 
finding was made, the investigation was completed, and the kid 
is not ever being seen at all, which is very difficult to 
understand how that happened.
    Over 60 percent of the kids were never interviewed 
privately, meaning they were asked if they were abused by mom, 
while they were sitting on the couch, next to mom, which is, of 
course, absolutely unacceptable.
    Other issues around investigations, collateral contacts. 
Well, this means talking to a child's teacher, talking to other 
people involved, whether it be a day care person, neighbors or 
others. Again, even the person who made the report, what we 
found in our investigative review was 57 percent of the people 
who took the time to call the hotline to report a child were 
never interviewed, were never asked what happened.
    Given that there were delays in seeing the kids, when the 
investigator got there, bruises that were there were often gone 
and faded. They didn't bother to talk to the reporter to find 
out what it looked like when they saw them, and I think that's 
absolutely critical.
    In only 17 percent of the cases we looked at, did we 
determine that they actually talk to enough people to even know 
whether the child had been abused or not, 17 percent. In 42 
percent of the cases, no collateral was talked to at all; they 
simply made the finding, talking to the parent, and sometimes 
the child.
    Other issues around the investigative process, it is also 
very difficult to find alternatives to removing children when 
we go out on cases because of the focus on funds for foster 
care, and some focus on investigations, there are few 
alternatives. We found workers taking kids into custody who 
could have been placed--or left home, with other services.
    As mentioned earlier, Illinois went from over 50,000 
children in care to about 23,000 in a matter of a couple of 
years, primarily because we gave investigators at the start of 
the investigation, access to immediate services to put in the 
home, to keep the children safe while they were at home.
    The government demands reasonable efforts to prevent kids 
from placement, to access IV-E funds, but there aren't really 
any funds to do that. States and child welfare agencies are 
just told, ``Do these placement prevention efforts,'' but there 
is not a lot of funds available to do that, and when there are, 
they're generally State funds.
    I want to talk very quickly about substitute care, kids 
going into foster care. That was mentioned earlier. I think--
and we're getting to the ``Me Too'' society, where there are 
fewer and fewer people willing to take care of other people's 
kids. I do think targeted recruiting is talked about a lot, 
particularly around the needs of kids, which I think is 
important, but I think there are large groups that could also 
be focused on. This includes empty nesters, who did a good job 
raising their own kids. Those haven't been adequately 
recruited.
    Given that I'm out of time, I will mention one other thing. 
Workers--I let the workers speak. You will see--and we can 
provide information--I asked workers, ``If you had $1 million, 
what services would you buy that would help your caseload,'' 
and I have 85 of those. So, thank you.
    [The prepared statement of Mr. Cotton follows:]
                    Prepared Statement of Ed Cotton,
              Independent Consultant, Tallahassee, Florida
    Good morning Chairman McDermott and members of the Committee on 
Ways and Means, Subcommittee on Income Security and Family Support. I 
appreciate the opportunity to address this committee regarding the 
challenges facing the child welfare system.
    My name is Edward E. Cotton. I have worked in the child welfare/
child protection system for 31 years. I have been a caseworker, a child 
abuse investigator, a hotline worker, a child welfare supervisor, a 
child protection manager, a Deputy Director, and a Director for state 
agencies in Illinois, Nevada, and New Jersey. I have also worked as a 
caseworker and program manager for a private child welfare agency. 
Additionally, I have served as a foster parent for 27 children, 
learning first hand how maltreatment devastates children and how 
inadequate system responses add to that devastation. I am currently 
doing consulting work for Hornby Zeller Associates.
    The child welfare systems designed to protect children from child 
abuse and neglect, and to ensure that they attain a safe, permanent 
living situation are not accomplishing that task at an acceptable rate. 
After years of significant improvements between 1995 and 2003, progress 
has, for the most part, slowed. In some areas the situation for victims 
of child maltreatment has gone the other direction, despite several 
years of stable funding and much additional research identifying 
practices and policies that work. I believe that the systems need fixed 
in all areas, from the first call to an intake hotline through 
adoption. I base this opinion upon my experiences of being actively 
involved in directing child protection agencies in three states and 
providing consultation in three others. I also worked with the State 
Liaison Officers on child protection for several years. Additionally, I 
recently managed a case review of 1352 child welfare cases and 148 
child protection investigations in Clark County, Nevada.
    My remarks are organized around the major functions of a child 
welfare system--hotline/intake, investigations, in-home services, out-
of-home care and services. I have not addressed adoption in this 
document. Improvements are needed in each of these areas. Too often 
reforms occur only as the result of a lawsuit. Since the lawsuits 
generally request changes that everyone would agree are essential to a 
well-functioning system, state child welfare agencies should be making 
these changes before going through costly and time-consuming lawsuits. 
Most state and county agencies have a strong core of dedicated 
caseworkers and child protection service workers, as well as a group of 
nurturing foster parents. The leadership of these agencies must build 
on that to accomplish the worthy goals of safety, permanency, and well-
being.
HOTLINE / INTAKE
    Most states have a centralized point of intake, usually through a 
child abuse hotline. These hotlines must be adequately staffed in order 
to ensure that every caller concerned about the abuse of a child is 
able to relate those concerns to an intake worker immediately. This is 
not occurring. Typically hotlines have an abandoned rate of 5-10%, but 
in some systems it is much higher. When a national panel of experts was 
brought together to study child deaths in Nevada, we heard many 
complaints about not being able to get through to the Hotline. This 
panel attempted to call the Hotline several times during the week, and 
the results were frightening. The quickest any call got answered was 7 
minutes. Most calls took about 25 minutes to get answered, while the 
longest wait was about 50 minutes. My fear is that most neighbors, 
friends, and concerned citizens will not wait seven minutes on the 
phone (and certainly not 50 minutes); therefore, children remain at 
risk. Teachers cannot leave the classroom for 50 minutes to call in a 
report. In an attempt to address this issue, some states have 
implemented a message taking system. This means a staff person answers 
the call, but informs the caller that a message will be taken and the 
call will be returned later. This is not an acceptable response for a 
``Hotline''.
    An additional issue with the hotlines is that there are no national 
standards as to who should be served by the CPS systems. Every state 
and, in some cases, individual counties, can decide what to 
investigate. Given the transience of families today, it can be very 
confusing when expectations are different from state-to-state. Callers 
providing information that does not meet the criteria for an 
investigation also leads to inconsistency around the country. These 
situations are often related to families in crisis, but maltreatment 
has not yet occurred. Some states screen these out and take no action 
at all, while others send a caseworker out to assess the situation and 
offer voluntary services. The latter is an excellent outlet for 
preventing child abuse before it happens, but there are no consistent 
funding streams for this activity.
    Finally, the Hotline can help in keeping the child protection 
service workers safe. These workers go into highly volatile situations 
with nothing more than their professional skills. These are the same 
domestic/family violence situations that armed police officers find the 
most dangerous to intervene. Knowing whether the family members have a 
history of violent criminal behavior is essential in determining how to 
respond. Few states can access that information at the Hotline. The 
Florida Abuse Hotline recently became the first entity in the nation 
that conducts both state and national criminal background checks on 
every alleged perpetrator of child abuse before the report is sent to a 
local office for investigation. When a child protection services worker 
receives a new report, that worker is aware of the complete criminal 
history of the adults in the family.
Recommendations
    1.  Establish national standards for abandonment rates at hotlines 
so that states are required to adequately staff them.
    2.  Provide guidelines to states regarding what situations should 
be investigated and which should be screened out.
    3.  Identify situations that don't meet the criteria for an 
investigation, but contain elements that usually result in future 
maltreatment. Design interventions and programs to address these 
situations, then fund them.
    4.  Mandate criminal background checks for all adult subjects of 
new reports. This will make it easier for state child welfare agencies 
to negotiate agreements with law enforcement agencies.
INVESTIGATIONS / IN-HOME SERVICES
    Once the Hotline accepts a report for investigation, what happens 
next varies greatly from state-to-state. In some states, including 
Nevada, the local office has the authority to decide that no 
investigation is warranted, so none is conducted. In others states the 
local office must complete an investigation on every report received 
from the Hotline; Illinois and New Jersey are in this category. This is 
an issue, as other factors may influence these determinations, such as 
current workload or the availability of an intake worker. The decision 
as to whether the state should intervene should be solely based on 
established criteria.
    There are three primary areas of concern regarding investigations:

    Initiation: This term refers to the time frame for a Child 
Protection Services (CPS) team to first make contact with the alleged 
victim of child abuse/neglect in order to make an assessment of the 
level of risk and to determine whether immediate protective actions are 
necessary. Around the country this can vary from ``immediate'' to 
``within 24 hours'' to ``within 3-10 days''. Clearly if a child has 
been alleged to have suffered abuse to the extent that government 
intervention is necessary, delays of more than 24 hours are 
unacceptable. But there are no federal repercussions for states that 
have policies that do not require a first contact within 24 hours or 
less. I propose that DHHS establish a national standard that CPS teams 
must attempt an initial contact with all alleged victims of child 
abuse/neglect within 24 hours of the call to the Hotline. Certain 
situations demand a more immediate response. A national workgroup 
should be formed to delineate which types of reports must require an 
immediate contact from CPS. Additionally, there must be mandates to 
interview the alleged victims privately (infants can be privately 
observed and checked for injuries). In Clark County, only 31.8% of the 
child abuse/neglect reports reviewed were appropriately initiated--this 
means that a CPS investigator saw the victim quickly enough to 
accurately assess safety. Nearly 10% of the alleged victims were never 
seen by CPS during the investigation and over 60% were never 
interviewed privately before the investigation was closed. Frequently 
the victim was interviewed while sitting next to the parent/alleged 
perpetrator.

    Investigative Process: There is no mandated standard for collateral 
contacts that must occur before an investigation can be concluded. 
Collaterals include the reporter, the child's teacher or day care 
provider, the pediatrician, hospital staff, neighbors, and other family 
members. In the Clark County review, 57% of the people making the call 
to the Hotline were never contacted during the investigation. Teachers 
who saw bruises on children were never given the opportunity to 
describe them or recount the child's statements to a CPS worker. This 
is tragic because, as noted above, in many cases the late responses by 
CPS meant that the marks had faded or were gone altogether. In only 17% 
of the investigations reviewed did the CPS worker contact a sufficient 
number of collaterals to make accurate risk and safety assessments of 
the situations. Even more alarming is the finding that 42% of the 
investigations contained no collateral contacts at all--no one was 
interviewed to support or contradict the statements of the alleged 
perpetrator. When the lack of private interviews with the child victims 
(noted above) is paired with this information, it is clear that many 
investigations consisted of asking the alleged perpetrator what 
happened and accepting that as fact. Interestingly, 40% of the reports 
that were ``Substantiated'' had sufficient collateral contacts, while 
only 10% of the ``Unsubstantiated'' reports did. This leads one to 
believe that more reports would have been ``Substantiated'' if more 
collateral interviews had occurred, and more children would have been 
kept safe from subsequent abuse.
    Safety Assessments and Risk Assessments are research-validated 
protocols that have been useful in assessing the immediate safety and 
long term risk to children. For these instruments to be effective, 
however, the CPS worker must gather enough information to accurately 
complete them. In the Clark County study, the vast majority of CPS 
workers completed the safety assessment, and most completed a risk 
assessment. However, these forms were not of much value since the 
review determined that over 67% of the investigations did not contain 
sufficient information to make an accurate risk assessment; 54% of 
these investigations did not document enough information to complete 
valid safety assessments.

    In-home Protective Services: When a CPS worker has determined that 
a child has been abused or neglected and is at risk of further 
maltreatment, there must be immediate access to in-home services to 
prevent removal. In Clark County, CPS workers saw few alternatives to 
moving children from their parents when abuse or neglect had occurred. 
This is common throughout the country, as most services are related to 
children who have been placed in substitute care situations, such as 
foster care. However, in the late 1990's, the Illinois Department of 
Children and Family Services managed to reduce the number of children 
placed outside their parents' home from over 50,000 to about 23,000 
without an increase in subsequent maltreatment to these children. A 
major factor in this success was that CPS workers were given access to 
a variety of placement prevention services--homemakers, intense family 
preservation, in-home parent training, family support workers, early 
childhood education, in-home substance abuse counseling and monitoring, 
and protective day care. There must be many ``eyes watching'' if abused 
children are left with their parents, but it can be done. Federal 
requirements mandate that reasonable efforts to prevent placement must 
occur in order for states to access IV-E funds, but funding for 
placement prevention programs has not been forthcoming.
    In non-emergency situations, the CPS worker often passes the family 
to child welfare worker to provide in-home services. What happens at 
that point varies greatly. States have various standards for requiring 
visitation, service provision, and comprehensive assessments. Many 
times these are arbitrary--a 12 year old with minor neglect issues must 
be seen as frequently as an infant at high-risk. Even when standards 
exist, there is often a lack of monitoring. In Clark County, we found 
that 51% of the children who were victims of abuse but had not been 
removed from their home had not been seen within the past 30 days, and 
more than 17% had not been seen for more than 2 months. Frequency of 
contacts by the caseworker was also a major concern. Nearly 30% of 
these children had been seen fewer than 6 times in the preceding year, 
and only 42% had been seen at least 9 times during that year, despite 
the fact that a requirement for monthly contacts existed. There are 
many studies that document that the frequency of caseworker contact is 
the most important factor in preventing re-abuse of children.
Recommendations
    1.  Establish a national mandate that, whenever a child abuse/
neglect report is received, the CPS investigative team must attempt to 
contact the alleged victim and assess for safety within 24 hours of the 
call.
    2.  Form a national workgroup to better identify which situations 
require an immediate CPS response.
    3.  Mandate collateral contacts on every investigation. The number 
and type of contacts should be dependent upon the maltreatment type.
    4.  Provide specific funding for in-home services that can lead to 
placement prevention.
CHILDREN PLACED IN SUBSTITUTE CARE (OUT OF PARENT HOME)
    Once children are removed from their parents, there are three 
primary options: kinship care, foster care, or shelter placements. Too 
often children are first taken to a shelter where they remain for 
anywhere from a few days to a year or more. In Clark County, children 
are taken to the shelter even when foster homes have openings. This is 
not uncommon throughout the country, as after hours workers often do 
not have immediate access to foster home availability or information 
regarding the type of children each home is appropriate for. Even well-
staffed, comfortable and safe shelters are not family settings, leading 
to additional trauma for children already faced with separation from 
their parents.
    As more and more children need to be placed into state custody due 
to parental abuse and neglect, it seems that fewer and fewer people are 
willing to care for the children of others. Self actualization and 
``me-first'' attitudes have greatly impacted the number of qualified 
foster parent applicants. At the same time, the children are entering 
the system with many more complex issues and problems than in past 
years. Foster parents are often not trained to address severe 
attachment disorder, post-traumatic stress syndrome, and many other 
ailments that result from critical abuse and neglect and a lack of 
parental nourishment at a young age. In a sense, it's a ``buyer's 
market''--foster parents can give up on problem children and have them 
removed because they know there are many more available. Although 
raising foster care rates can have a positive effect, it also has 
resulted in inappropriate people deciding to become foster parents for 
the money. This negatively impacts the public's view of the good foster 
parents and adds to the problem.
    Many states have attempted to address this issue by making 
extensive use of relative placements. This practice has met some 
success in that the children often are placed with someone they already 
know, so the separation from their parents is less traumatic. It also 
makes visitation and continuity of relationships easier, thereby 
increasing the likelihood that the children will be reunified with 
their parents.
    However, the use of relatives has resulted in several problems. 
Similar to foster parents, most relatives are not equipped to handle 
children with severe behavioral, physical, or emotional problems. Many 
of these relatives are very resistant to training, feeling that they 
already know how to parent. It is a great concern that many children 
are placed with grandparents who receive no training at all. The issue 
must be raised that often these grandparents, who avoid training 
because they ``raised their own children'', have many times raised 
children who are dysfunctional--substance abusers, perpetrators of 
domestic violence, violent criminals, child abusers, or those who 
abandon their babies. Child welfare agencies must ask this question--
why are we expecting a different outcome with the grandchildren? What 
are the grandparents going to do differently with the grandchildren so 
that they don't end up with the same problems as their parents? While 
we can acknowledge that ``blood is thicker than water'', we must also 
address the fact that often ``the apple doesn't fall far from the 
tree''.
    I am not saying that relative placements should be eliminated, but 
rather that states should carefully assess each relative placement and 
demand that the caregiver receive appropriate training and oversight. 
We must ensure that these kids are not coming back into the child 
welfare system at a later date, with many more problems related to 
rejection and lack or nurturing. A great deal of state and federal 
money is spent on relative placements, but the regulation of such 
placements needs strengthening in order to make sure that every child 
removed from his parents is given a healthy, stable living environment.
    Foster parenting can be improved in two significant ways. 
Extensive, targeted recruiting that identifies specific groups of 
people for specific children. Older adults who have successfully raised 
their children (empty nesters, for example) are not actively recruited 
and could make a big difference in providing good role models and safe 
homes. Competency-based training for foster parents that certifies each 
home for the types of children that are appropriate is essential. 
Substance exposed infants should not be placed with foster parents who 
have not been trained on apnea monitors, the effects of withdrawal from 
drugs or alcohol, and the appropriate techniques for calming and 
assisting these children.
    Tracking foster home competencies and availability is another issue 
that needs addressing. In nearly every jurisdiction, there are foster 
parents who have had available beds for months (or years) and no one 
has contacted them even though they read media stories that the state 
is desperate for foster homes. Although sometimes the available homes 
don't fit the needs of the children needing placement, that explanation 
can account for only a small portion of these situations. As a foster 
parent, I was often called about children needing placement despite the 
fact that I was at my maximum licensed capacity. At other times, I had 
``vacancies'' for months and received no calls, despite children being 
maintained in shelters and emergency placements. Foster parents across 
the country repeat this same
    The service provisions delivered through child welfare services are 
often not conducive to obtaining permanency for children. Visitation 
with their parents and siblings is sporadic. Services that do exist 
often have long waiting lists or are inaccessible to parents without 
transportation. Caseworkers with huge caseloads are forced to 
prioritize and handle only the most high-risk cases. As low- and mid-
level risk cases deteriorate, the caseworker doesn't notice because 
there has been inadequate contacts with the children and their 
families.
    In Clark County, more than a quarter of the children in substitute 
care (who are the county's legal responsibility) had not been seen for 
more than 60 days. Only 44% has been seen within the past 30 days as 
required. The situation was even worse when the worker's contact with 
the parents is analyzed. More than half of the parents had not been 
seen for over 60 days. These are the people that the caseworker is 
allegedly working with to attain reunification. Frequency of visits 
with children was also a problem--nearly 40% of the children in care 
had been seen fewer than 6 times during the preceding year, and only 
33% had been seen 9 or more times. Private interviews between the 
caseworker and the children had occurred in only 23% of the cases 
reviewed. Many caseworkers expressed an attitude that the children in 
foster homes or the shelter are safe and don't need to be seen 
regularly. This conclusion is widespread, despite several recent high 
profile foster parent abuse cases (including a death) and a situation 
where a 3 year old foster child has been missing for 11 months.
    Case plans are critical for outlining goals and tasks necessary to 
safely return children home. There is no universally accepted format 
for these. In Clark County, only 50% of the children in substitute care 
had a current case plan. Many plans included children who had died (but 
were still identified as ``safe''), parents who disappeared long ago, 
and siblings who were already adopted and no longer part of the family.

Recommendations

    1.  Increase foster parent recruiting, including targeting people 
who are skilled at working with children who have the types of issues 
we see everyday. Also focus on categories of people noted above, who 
have not been actively recruited in the past.
    2.  Ensure that the annual reviews of foster homes include analyses 
of children who were ``kicked out'' by the foster parents so that 
children with similar problems are not placed there in the future.
    3.  Require states to establish standards for kinship care 
placements that include training and monitoring.
    4.  Reward good foster parents; increase rates based upon 
successfully completing goals.
    5.  Reduce case loads to standards of 15 families per worker.
    6.  Require annual reviews to identify cases that should be closed.

CONCLUSIONS

    Five big issues must be continually addressed if child welfare 
systems are to live up to the expectations that led to their creation.

    Accountability. Self-policing has not been particularly productive, 
as the Child and Family Service Reviews (CFSR) and several lawsuits 
have identified problems that states either weren't aware of and took 
no actions to resolve. Consistent external reviews, designed not to 
harass states, but instead to help create improvements, are a must. The 
CFSRs are a start, but we must move beyond them to focus more on 
quality issues. The fact that child protection workers see a child 
within 24 hours is important, but it is equally important to ensure 
that these workers are gathering sufficient information to complete 
safety and risk assessments. Supervisors must know whether there are 
children in the system who have not been seen for months. In the Clark 
County review, we asked 10 caseworkers that, if they had children on 
their caseload who hadn't been seen for three months, would their 
supervisor know. Everyone said ``no''.

    Caseloads. Standards established by various child welfare groups 
should be analyzed and a national standard created. However, these must 
be monitored to ensure that cases are not being kept open without any 
service or protective need. In Illinois, all in-home family cases were 
reviewed and nearly 40% were determined to be no longer in need of 
services. This is a tremendous waste of resources, as caseworkers were 
still required to visit them regularly.

    Quality Work. There must be minimum standards regarding all facets 
of child welfare/protection work, and they must be enforced. This 
includes collateral contacts for investigations, interviewing with the 
reporters, visitations with children on open cases, private interviews 
with children, and criminal background checks. DHHS should take the 
lead in providing models for comprehensive assessments, safety 
assessment protocols, and family risk assessments.

    Performance Based Contracts. Private agencies providing services to 
children in state custody must be paid based upon successful 
performance. Those agencies that take many children, but rarely help 
them attain permanency through adoption or reunification, must be 
improved or their contracts must be revised or cancelled. Agencies that 
perform well should be rewarded with better rates. These same standards 
should be applied to state and county CPS teams to ensure that they are 
providing quality care.

    In-Home Services. As noted earlier, the best way to achieve 
permanency for children is to never remove them from their parent's 
home. In order to safely do this, in-home services must be greatly 
increased. Federal funds for services must be flexible so that the 
focus is not primarily on children already removed from their home.

    We cannot let our state child welfare agencies become stagnant. 
There has been a great deal of research and hard work to improve the 
systems, but I believe the enthusiasm is starting to wane. Both the 
state and federal government entities must ensure that child welfare 
agencies don't lose their sense of urgency.
    Thank you for your time.

                                 <F-dash>

    Chairman MCDERMOTT. What was that?
    Mr. COTTON. I asked caseworkers in Clark County, during our 
review, every one of them, ``If you had $1 million to spend for 
services for the families on your caseload, to make you better 
able to serve them, what would you spend it on?'' I got 85 
different responses. Things that, normally, managers sitting 
around a room would think of some of them, not others.
    Chairman MCDERMOTT. Thank you. We will now turn to Ms. 
Ashby, who is a director of the education and workforce issues 
at the General Accounting Office. We asked you to do a study 
last year, and we would love to have you talk about it today.

    STATEMENT OF CORNELIA M. ASHBY, DIRECTOR OF EDUCATION, 
 WORKFORCE AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. ASHBY. Good morning. Mr. Chairman, and members of the 
Subcommittee, I am pleased to be here today to present 
information from our recent reports on the challenges facing 
State child welfare agencies. My testimony this morning will 
focus on the challenges that states reported as most important 
to resolve to improve outcomes for children, State initiatives 
addressing these challenges, and Federal efforts to assist 
State child welfare disaster planning.
    State child welfare agencies reported that inadequate 
levels of mental health and substance abuse services for 
children and families, high child welfare caseloads, and 
difficulty finding homes for children were among the most 
important challenges to resolve to improve outcomes for 
children.
    These agencies reported the underlying reasons for 
inadequate services: funding constraints; and some caseworkers 
and families' lack of awareness of existing services offered by 
public and private providers.
    In prioritizing funding needs, child welfare officials in 
40 states reported the family support services, such as those 
that could prevent removal of a child, or help with 
reunification of a family, were the services most in need of 
greater resources. State child welfare officials also cited the 
need for additional information to help link children and 
families with needed services.
    High caseloads were most frequently reported by child 
welfare officials in 34 states as an underlying source of 
dissatisfaction that affects their ability to recruit and 
retain caseworkers. Some states did not have caseload standards 
to ensure that caseworkers had enough time to adequately serve 
each child and family. Caseworkers, in some areas of most 
states, often carried more than double the recommended maximum 
caseload.
    More than two-thirds of the State child welfare agencies 
identified serving children with special needs, and recruiting 
and retaining foster and adoptive parents as factors underlying 
the challenge to find appropriate homes for children. Due to 
the absence of high-quality, therapeutic settings, State child 
welfare officials said that it has become increasingly 
difficult to place children with special needs in homes that 
can appropriately address their individual needs.
    They also told us that recruiting and retaining foster and 
adoptive parents has become increasingly difficult, in part, 
because of a lack of a racially and ethnically diverse pool of 
potential foster and adoptive parents, and inadequate financial 
support.
    In addition to these longstanding and continuing 
challenges, State child welfare officials also identified three 
emerging challenges that are likely to affect the well-being of 
children in the child welfare system over the next 5 years: 
changes in the type and location of drug abuse underlying 
maltreatment cases; increasing demand to provide care for 
special needs children; and changing demographic trends that 
will require greater multi-cultural sensitivity in providing 
services to some groups of children and their families.
    While states reported implementing various initiatives to 
improve child outcomes, these initiatives did not always 
address those factors states reported as most challenging. For 
example, states frequently reported that they were challenged 
by the lack of mental health and substance abuse services for 
children and families. Yet, only four states reported having 
initiatives to improve the level of these services.
    This may be because these services are typically provided 
outside the child welfare system by other agencies. Similarly, 
while almost all states reported implementing initiatives to 
improve their ability to find homes for children, only four 
states reported initiatives to find appropriate homes for 
children with special needs.
    With respect to State child welfare disaster planning, HHS 
and the congress have taken several steps to ensure that states 
develop plans to serve children and families displaced by 
disaster. HHS has addressed states' reported need for Federal 
planning assistance, as well as recommendations we made in our 
July 2006 report, by updating disaster planning guidance, 
providing technical assistance, and asking states to 
voluntarily submit copies of their disaster plans for review.
    Further, the Child and Family Services Improvement Act of 
2006 established a legislative requirement for states to submit 
child welfare disaster plans to HHS that prepare for 
displacement of children.
    In conclusion, resolving states' child welfare challenges 
has been difficult, in part, due to the child welfare system's 
heavy reliance on various non-dedicated funding streams at the 
Federal and State levels that require an inter-agency approach 
to establish appropriate priority and funding for child welfare 
families across different programs and populations.
    As funding fluctuates or declines, full awareness of 
resources outside the child welfare system become increasingly 
important. Accordingly, we recommended in our October 2006 
report that the Secretary of HHS improve awareness of and 
access to various social services funded by the Federal 
Government.
    Although HHS disagreed with our recommendation, we continue 
to believe that its implementation would allow caseworkers and 
others to more easily identify services and service providers 
funded by Federal agencies in closest proximity to the families 
they serve.
    This completes my prepared statement. I would be happy to 
answer any questions.
    [The prepared statement of Ms. Ashby follows:]
    Prepared Statement of Cornelia M. Ashby, Director of Education, 
  Workforce and Income Security, U.S. Government Accountability Office
Mr. Chairman and Members of the Committee:

    I am pleased to be here today to present information from our 
recent reports on the challenges that state foster care systems face in 
serving the more than half a million children under their care.\1\ For 
fiscal year 2006, Congress appropriated about $8 billion to support the 
ability of state child welfare systems to provide services that protect 
children from abuse and neglect, promote their physical and mental 
well-being, find them permanent homes, and enable families to 
successfully care for their children. State and local governments 
contributed more than $12 billion for these purposes, according to 
information available from 2004.\2\ Despite this substantial 
investment, federal evaluations of state child welfare programs showed 
that states continue to struggle to meet federal outcome goals 
established by the Department of Health and Human Services (HHS) to 
ensure the safety, well-being, and permanency of children in foster 
care. Ensuring these outcomes becomes even more difficult in the event 
of disasters such as Hurricanes Katrina and Rita for states that do not 
have plans in place to continue child welfare services for children and 
families who may become displaced within or across state lines.
---------------------------------------------------------------------------
    \1\ GAO, Child Welfare: Improving Social Service Program, Training, 
and Technical Assistance Would Help Address Longstanding Service-Level 
and Workforce Challenges, GAO-07-75 (Washington, D.C.: Oct. 6, 2006), 
and GAO, Child Welfare: Federal Action Needed to Ensure States Have 
Plans to Safeguard Children in the Child Welfare System Displaced by 
Disasters, GAO-06-944 (Washington, D.C.: July 28, 2006).
    \2\ The Urban Institute, The Cost of Protecting Vulnerable Children 
V: Understanding State Variation in Child Welfare Financing (Washington 
D.C.: May 2006).
---------------------------------------------------------------------------
    State child welfare agencies are responsible for administering 
their programs within federal policies established by the Children's 
Bureau under the Administration for Children and Families within the 
Department of Health and Human Services. This federal agency oversees 
states' child welfare programs in part through its child and family 
services reviews (CFSR), which measure states' performance in meeting 
federal outcome goals. During its first round of CFSRs, completed in 
the 3 year period ending March 2004, HHS reported that no state had 
substantially conformed with all federal performance goals, and half or 
more states did not meet performance indicators such as providing 
adequate services for children and families, providing child welfare 
staff with the ongoing training needed to fulfill their duties, and 
ensuring the diligent recruitment of foster and adoptive homes. 
Further, while HHS requested states to submit plans that address the 
challenges of serving child welfare families in times of disaster, we 
reported that as of July 2006, few states had comprehensive plans in 
place. Since our reports, HHS and the Congress have taken action to 
help states address some of these long-standing challenges and HHS has 
begun its next round of CFSRs. My testimony today will focus on (1) the 
issues that states reported as most important to resolve now and in the 
future to improve outcomes for children under their supervision, (2) 
initiatives states reported taking to address these issues and how 
recent law provides support for additional state efforts, and (3) 
federal action taken to assist states' efforts in developing child 
welfare disaster plans. My testimony is based primarily on findings 
from our July and October 2006 reports. Those findings were based on 
multiple methodologies including a survey of child welfare directors on 
challenges they face in improving outcomes for children and the extent 
that they had developed child welfare disaster plans. We supplemented 
these surveys by conducting multiple site visits to states and counties 
and by interviewing child welfare experts and HHS child welfare 
officials. We conducted our work in accordance with generally accepted 
government auditing standards.
    In summary, states reported that inadequate levels of mental health 
and substance abuse services, the high average number of child welfare 
cases per worker, and the difficulty of finding homes for children with 
special needs were the most important challenges to resolve in order to 
improve outcomes for children under states' care. Child welfare 
officials cited various reasons these challenges existed in their 
states. One reason maintaining an adequate level of services is 
difficult, for example, is that the funding for family support services 
has not kept up with the need, which in turn may result in children 
entering foster care and staying there longer. Some states did not have 
caseload standards to ensure that caseworkers had enough time to 
adequately serve each child and family, and caseworkers in some areas 
of most states often carried more than double the caseload standard 
established by the Child Welfare League of America (CWLA).\3\ State 
child welfare officials predict that these caseloads will continue to 
become increasingly complex and culturally diverse. Growing challenges 
for state child welfare systems in the next 5 years were cited as 
serving the population of children with special needs or who have been 
exposed to illegal drugs, and changing demographic trends that will 
require greater multicultural sensitivity in providing services to some 
groups of children and their families. States have some initiatives in 
place to address challenges, but the frequency of initiatives states 
reported did not always mirror the levels of dissatisfaction with the 
major challenges. For example, 4 of 39 states dissatisfied with the 
level of service in finding homes for children with developmental 
disabilities or other needs reported initiatives in this area. Recently 
enacted legislation, the Child and Family Services Improvement Act of 
2006, \4\ assists states in addressing some important challenges by 
targeting funds to children affected by substance abuse and to 
activities designed to recruit and retain caseworkers. Our October 
report had recommended that HHS also take action to improve awareness 
of and access to federal social services by such means as modifying the 
Catalog of Federal Domestic Assistance. In its comments, however, HHS 
disagreed with this recommendation, stating that it was insufficient to 
address the problem and incorrectly implied that caseworkers were not 
already aware of existing resources. We continue to support the 
recommendation based on the results of our work. HHS has taken action 
along with the Congress to better ensure that states are planning for 
the challenges they will face in safeguarding children and families 
displaced by disaster, per our July report recommendations. HHS has 
updated its guidance and provided technical assistance. In addition, 
the law now requires all states to submit child welfare disaster plans 
to HHS. The deadline set by HHS for submission of these plans is June 
30, 2007.
---------------------------------------------------------------------------
    \3\ CWLA is an association of nearly 800 public and private 
nonprofit agencies with a mission to ensure the safety and well-being 
of children and families. CWLA sets and promotes standards for best 
practice and advocates for the advancement of public policy.
    \4\ Pub. L. No. 109-288.
---------------------------------------------------------------------------
Background
    The well-being of children and families has traditionally been 
understood as a primary duty of state governments, and state and local 
governments are the primary administrators of child welfare programs 
designed to protect children from abuse or neglect. Child welfare 
caseworkers investigate allegations of child maltreatment and determine 
what services can be offered to stabilize and strengthen a child's own 
home. If remaining in the home is not a safe option for the child, he 
or she may be placed in foster care while efforts to improve the home 
are made. In these circumstances, foster care may be provided by a 
family member (this is known as kinship care), caregivers previously 
unknown to the child, or a group home or institution. In those 
instances in which reuniting the child with his or her parents is found 
not to be in the best interest of the child, caseworkers must seek a 
new permanent home for the child, such as an adoptive home or 
guardianship. Some children remain in foster care until they ``age 
out'' of the child welfare system. Such children are transitioned to 
independent living, generally at the age of 18 years.
    States use both dedicated and nondedicated federal funds for 
operating their child welfare programs and providing services to 
children and families. In fiscal year 2006, the federal government 
provided states with about $8 billion in dedicated child welfare funds, 
primarily authorized under Title IV-B and Title IV-E of the Social 
Security Act. Nearly all of this funding is provided under Title IV-E, 
which provides matching funds to states for maintaining eligible 
children in foster care, \5\ providing subsidies to families adopting 
children with special needs, and for related administrative and 
training costs.\6\ About 9 percent of funding is provided under Title 
IV-B, which provides grants to states primarily for improving child 
welfare services and requires that most funds be spent on services to 
preserve and support families.
---------------------------------------------------------------------------
    \5\ States are entitled to Title IV-E reimbursement on behalf of 
children who would have been eligible for Aid to Families with 
Dependent Children (AFDC) (as AFDC existed on July 16, 1996), but for 
the fact that they were removed from the home of certain specified 
relatives. While the AFDC program was replaced by the Temporary 
Assistance for Needy Families Program in 1996, eligibility for Title 
IV-E payments remains tied to the income eligibility requirements of 
the now defunct AFDC program. In addition, certain judicial findings 
must be present, and all other requirements included in section 472 (a) 
and (b) of the Social Security Act must be met, in order for the child 
to be eligible for Title IV-E foster care maintenance payments.
    \6\ Title IV-E also provides grants to states for providing 
independent living services to youth who are expected to age out of 
foster care or who have already aged out of care. Grants are also 
provided to states for providing education and training vouchers for 
youth aging out of care.
---------------------------------------------------------------------------
    A significant amount of federal funding for child welfare services 
also comes from federal funds not specifically dedicated to child 
welfare--including the Temporary Assistance for Needy Families (TANF) 
block grant, Medicaid, and the Social Services Block Grant. These and 
hundreds of other federal assistance programs for children and 
families, including many that serve low-income populations, are listed 
in a centralized database administered by the General Services 
Administration that has a search feature by type of assistance and 
eligible population. The Congressional Research Service conservatively 
estimated that the median share of total federal child welfare spending 
derived from nondedicated federal funding equaled nearly half of all 
the federal dollars (47 percent) expended by state child welfare 
agencies, \7\ based on state child welfare agency data reported to the 
Urban Institute for state fiscal year 2002.\8\
---------------------------------------------------------------------------
    \7\ States' use of nondedicated federal funding varied considerably 
from a high of 75 percent of total federal child welfare funds expended 
in Alabama to less than 2 percent of total federal child welfare funds 
expended in North Carolina.
    \8\ The Congressional Research Service reported that this is likely 
an understatement of nondedicated federal funding states used for their 
child welfare programs.
---------------------------------------------------------------------------
    The Congress has authorized funds for state child welfare programs 
and required states to enact policies and meet certain standards 
related to those programs. HHS evaluates how well state child welfare 
systems achieve federal standards for children through its child and 
family services reviews. The CFSR process begins with a state 
assessment of its efforts, followed by an on-site review by an HHS team 
that interviews various stakeholders in the child welfare system and 
usually reviews a total of 50 child welfare case files for compliance 
with federal requirements. After receiving the team's assessment and 
findings, the state develops a program improvement plan (PIP) to 
address any areas identified as not in substantial conformity with 
federal requirements. Once HHS approves the PIP, states are required to 
submit quarterly progress reports. Pursuant to CFSR regulations, 
federal child welfare funds can be withheld if states do not show 
adequate PIP progress, but these penalties are suspended during the 2-
year PIP implementation term. HHS conducted its first round of CFSRs 
for all states from March 2001 through March 2004 and began the second 
round of CFSRs in March 2007.
    States must also meet a set of program requirements that are 
described in their 5-year Child and Family Services Plans to receive 
federal child welfare funds.\9\ Until recently, however, there were no 
federal requirements for states to develop plans that address the needs 
of children during disasters. In 2005, 29 states and Puerto Rico 
experienced federally declared disasters--most commonly severe storms 
and flooding. However, a disaster can affect states that do not 
directly experience the disaster when they receive children evacuated 
from affected states. For example, two 2005 disasters--Hurricanes 
Katrina and Rita--resulted in a prolonged interruption of child welfare 
services and the dispersion of thousands of Louisiana's child welfare 
recipients to 19 states.
---------------------------------------------------------------------------
    \9\ States were required to develop and submit a 5 year Child and 
Family Services Plan for fiscal years 2005-2009, by June 30, 2004.
---------------------------------------------------------------------------
Current and Future Issues That Challenge States' Ability to Improve 
        Child Outcomes
    States reported that their ability to improve child outcomes was 
challenged most by inadequate levels of mental health and substance 
abuse services available to children and families, too few caseworkers 
for too many child welfare cases, and a lack of homes that can meet the 
needs of certain children, such as those with developmental 
disabilities. Challenges are expected to grow in future years related 
to serving children with special needs or who have been exposed to 
illegal drugs, and changing demographic trends that will require 
greater multicultural sensitivity in providing services to an 
increasingly diverse child welfare population.
Inadequate Levels of Mental Health, Substance Abuse, and Other Services 
        Challenge States' Ability to Meet the Needs of Children and 
        Families
    State child welfare agencies identified specific services 
underlying their challenge to serve children and families, citing 
constraints on federal funding, service gaps, and limited awareness of 
services outside the child welfare system as contributing factors. 
Regarding services provided to children, more than half of states 
reported that they were dissatisfied with the level of mental health 
services, substance abuse services, housing for foster youth 
transitioning to independence, and dental care. (See fig. 1.)

 Figure 1. States Reporting Dissatisfaction with the Level of Services 
            Provided to Children in the Child Welfare System

[GRAPHIC] [TIFF OMITTED] 43094A.001


    States also reported that they were dissatisfied with the level of 
services provided to at-risk families in the child welfare system. 
These services are needed to help prevent the removal of children from 
their homes or to help facilitate the reunification of children with 
their parents after removal. Specifically, more than half of states 
responded that they were dissatisfied with mental health services, 
substance abuse services, transportation services, and housing for 
parents in at-risk families. (See fig. 2.)
    States we visited reported that funding constraints were among the 
reasons maintaining an adequate level of services was difficult. For 
example, while maintenance payments to foster families for children 
under state care are provided as an open-ended entitlement for federal 
funding under Title IV-E, federal funding for family support services 
is capped at a much lower level under Title IV-B. In addition, many 
states experienced budget deficits that adversely affected overall 
funding for social services. In prioritizing funding needs, child 
welfare officials in 40 states responding to our survey reported that 
family support services, such as those that could prevent removal of a 
child or help with reunification of a family, were the services most in 
need of greater federal, state, or local resources. Officials from 29 
states responded that child protective services such as investigation, 
assessment of the need for services, and monitoring were next in need 
of additional resources.

 Figure 2. States Reporting Dissatisfaction with the Level of Services 
  Provided to Parents in At-Risk Families in the Child Welfare System
[GRAPHIC] [TIFF OMITTED] 43094A.002


    Another reason providing services may be challenging in some states 
or areas is that some caseworkers and families may be unaware of the 
array of existing services offered by numerous public and private 
providers. In North Carolina, for example, state officials reported 
that about 70 percent of children and families in the child welfare 
system received services from multiple public agencies, and the Catalog 
of Federal Domestic Assistance (CFDA)--a repository of information on 
all federal assistance programs that is periodically updated--lists 
over 300 federal programs that provide youth and family services. 
However, caseworkers and families are not always aware of the range of 
services that are available to support children and families, and child 
welfare officials cited the need for additional information to help 
link children and families with needed services. In October 2003, the 
White House Task Force for Disadvantaged Youth recommended that the 
CFDA be modified to provide a search feature that can be used to 
identify locations where federally funded programs were operating.\10\
---------------------------------------------------------------------------
    \10\ A similar model may be found on an HHS Web link, http://
ask.hrsa.gov/pc/, where users can enter a ZIP code to find the closest 
community health center locations offering medical, mental, dental, and 
other health services on a sliding fee scale.
---------------------------------------------------------------------------
High Caseloads and Other Factors Challenge the Ability of Child Welfare 
        Staff to Adequately Serve Children and Families
    State child welfare officials most frequently reported 
dissatisfaction with the current status of three underlying factors 
that affect the state's ability to recruit and retain caseworkers to 
serve children and families in the child welfare system. Specifically, 
more than half of the states reported dissatisfaction with the average 
number of cases per worker, administrative responsibilities of 
caseworkers, and effectiveness of caseworker supervision. (See fig. 3.)

  Figure 3. States Reporting Dissatisfaction with Factors That Could 
      Affect the State's Ability to Recruit and Retain Caseworkers
[GRAPHIC] [TIFF OMITTED] 43094A.003


    Child welfare officials in each of the states we visited reported 
having trouble recruiting and retaining caseworkers because many 
caseworkers are overwhelmed by large caseloads. According to the Child 
Welfare League of America, some child welfare programs lack caseload 
standards that reflect time needed to investigate allegations of child 
maltreatment, visit children and families, and perform administrative 
responsibilities. CWLA set caseload standards of no more than 12 cases 
per caseworker investigating allegations of child maltreatment, and no 
more than 15 cases for caseworkers responsible for children in foster 
care. However, according to CWLA, in most states, average caseloads in 
some areas are often more than double the CWLA standards.
    State child welfare officials we interviewed also reported that 
increasing amounts of time spent on administrative duties made it 
difficult to recruit and retain staff and limited the amount of time 
caseworkers could spend visiting families. For example, child welfare 
officials in three states we visited estimated that some caseworkers 
spent a significant amount of time on administrative duties such as 
entering case data in automated systems, completing forms, and 
providing informational reports to other agencies. This administrative 
burden has limited caseworker ability to ensure timely investigations 
of child maltreatment and to make related decisions concerning the 
removal of children from their homes, according to officials, and 
influenced caseworker decisions to seek other types of employment.
    Some states we visited reported that the lack of effective 
supervision also adversely affected staff retention and sometimes 
resulted in delays providing appropriate services to children and 
families. Lack of supervisory support was cited as a problem in terms 
of supervisor inexperience and inaccessibility. For example, a Texas 
state official said that because of high turnover, caseworkers are 
quickly promoted to supervisory positions, with the result that the 
caseworkers they supervise complain of poor management and insufficient 
support. In Arizona, caseworkers have also expressed dissatisfaction 
with the support they received from their supervisors, and this has 
negatively affected recruitment and retention. Child welfare officials 
reported that lack of access to supervisors was frustrating to 
caseworkers because it delayed their ability to specify appropriate 
permanency goals for children and to develop case plans to meet the 
needs of children and families in their care.
Serving Children with Special Needs Is among Factors Challenging 
        States' Ability to Place Children in Appropriate Homes
    State child welfare officials most frequently identified four 
factors underlying the challenge to find appropriate homes for 
children. (See fig. 4.) More than half of the states reported that 
finding homes for children with special needs, recruiting and retaining 
foster and adoptive parents, serving older youth and youth 
transitioning into independent living, and finding and supporting 
kinship or guardianship homes were among their greatest concerns.

   Figure 4. States Reporting Factors of Greatest Concern in Making 
                  Appropriate Placements for Children
[GRAPHIC] [TIFF OMITTED] 43094A.004


    Child welfare officials in two states we visited said that the lack 
of therapeutic foster care homes that can properly care for children 
who have significant physical, mental, or emotional needs makes it 
challenging to find them an appropriate home. In addition, these 
officials said that some of the existing facilities are inappropriate 
for child placement because they are old and in poor condition or 
provide outmoded treatment services. Because of the absence of high-
quality therapeutic settings, child welfare officials said that it has 
become increasingly difficult to place children in homes that can 
appropriately address their individual needs.
    Recruiting and retaining foster and adoptive parents has become an 
increasingly difficult aspect of placement for a variety of reasons, 
such as the lack of a racially and ethnically diverse pool of potential 
foster and adoptive parents, and inadequate financial support. For 
example, child welfare officials said that some locations have 
relatively small populations of certain races and ethnicities, making 
it difficult to recruit diverse foster and adoptive parents.\11\ 
Inadequate financial support also hinders recruiting and retaining 
foster and adoptive families. Financial support for foster and adoptive 
families varies widely among states and local areas, and may not keep 
up with inflation. According to a California child advocacy 
organization, for example, the state's payments to foster parents of 
$450 per month per child have not been adjusted for inflation since 
2001. As a result, according to the organization, the supply of foster 
care providers has not increased markedly during this time.
---------------------------------------------------------------------------
    \11\ Generally, states and other entities that receive federal 
financial assistance and are involved in adoption or foster care are 
prohibited from delaying or denying the placement of a child for 
adoption or into foster care, on the basis of the race, color, or 
national origin of the adoptive or foster parent, or the child, 
involved. 42 U.S.C. Sec.  671(a)(18). However, HHS guidance recognizes 
that some children may have specific needs based on the child's race or 
ethnicity, and HHS has required that states put in place a process for 
ensuring the diligent recruitment of potential foster and adoptive 
families that reflects the ethnic and racial diversity of children 
needing homes.
---------------------------------------------------------------------------
    Obtaining permanent homes for older youth and for youth aging out 
of foster care is a continuing placement challenge for states. For 
example, Texas child welfare officials said that it is difficult to 
place adolescents with adoptive parents because older youth can choose 
not to be adopted. Finding housing for youth transitioning into 
independence also can be difficult in high-cost areas or in areas where 
special arrangements have not been made with housing agencies and 
landlords that typically require a cosigner on the rental application 
or a large deposit before moving in.\12\
---------------------------------------------------------------------------
    \12\ See GAO, Foster Youth: HHS Actions Could Improve Coordination 
of Services and Monitoring of States' Independent Living Programs, GAO-
05-25 (Washington, D.C.: Nov. 18, 2004).
---------------------------------------------------------------------------
    More than half of the states also reported that limitations in 
their ability to identify and support placements with family members or 
legal guardians limited opportunities to place children in appropriate 
homes. For example, child welfare officials in Ohio reported a lack of 
resources to conduct outreach to family members that may be able to 
provide a stable home for children in foster care with less disruption 
to the child. Michigan officials also reported that the lack of 
financial resources made it difficult for the state to meet its 
placement goals for those children who had been removed from their home 
and who had been directed by the court to be placed with other family 
members.
Increasing Complexity and Diversity of Child Welfare Population 
        Expected to Challenge States in the Future
    While states have experienced child welfare challenges for many 
years, states identified several emerging issues that are of increasing 
concern because of their impact on the well-being of children in the 
child welfare system. Most states reported a high likelihood that three 
issues will affect their systems over the next 5 years: children's 
exposure to illegal drugs, caring for special or high-needs children, 
and changing demographics and cultural sensitivities. (See fig. 5.)

  Figure 5. State-Reported Emerging Issues That Are Likely to Affect 
       Children in the Child Welfare System over the Next 5 Years
[GRAPHIC] [TIFF OMITTED] 43094A.005


    Although the overall percentage of drug-related child welfare cases 
has not increased, officials in the states we visited reported that the 
type and location of drug abuse underlying maltreatment cases is 
changing, requiring increased attention by child welfare agencies in 
certain areas. For example, child welfare officials reported an 
increasing number of children entering state care as a result of 
methamphetamine use by parents, primarily in rural areas. Child welfare 
agencies in these areas may need to train caseworkers on how this drug 
is likely to affect parents or caregivers who use it in order to safely 
investigate and remove children from homes, as well as assess the 
service needs of affected families to develop an appropriate case 
plan.\13\
---------------------------------------------------------------------------
    \13\ Methamphetamine users often exhibit poor judgment, confusion, 
irritability, paranoia, and increased violence.
---------------------------------------------------------------------------
    State child welfare officials in all five states we visited said 
that finding homes for special needs children is a growing issue 
because it is hard to find parents who are willing to foster or adopt 
these children and who live near the types of services required to meet 
the children's needs. For example, child welfare officials in Texas 
reported that the state does not have a sufficient number of adoptive 
homes for children with special needs. As a result, these children 
generally stay in foster care for longer periods of time.
    Child welfare officials we interviewed also said that the growing 
cultural diversity of the families who come in contact with the child 
welfare system has prompted the need for states to reevaluate how they 
investigate allegations of maltreatment and the basis on which they 
make decisions that could result in the removal of children from their 
homes. Child welfare officials in several states reported that the 
current protocols for investigating and removing children from their 
homes do not necessarily reflect the cultural norms of some immigrant 
and other minority families. These differences include limitations in 
family functioning that may be caused by poverty, the environment, or 
culture as opposed to those that may be due to unhealthy family 
conditions or behaviors. In response to growing cultural diversity, 
several states we visited stated that they are revising their protocols 
to account for religious and language differences among families who 
come in contact with the child welfare system.
Initiatives to Resolve Challenges
    States reported implementing various initiatives to improve child 
outcomes, but these initiatives did not always mirror those factors 
states reported as most necessary to address in overcoming their 
primary challenges. For example, with respect to services, states most 
frequently reported that they were challenged by the lack of mental 
health and substance abuse services for children and families, yet only 
four states reported having initiatives to improve the level of these 
services. (See fig. 6.) This may be because these services are 
typically provided outside the child welfare system by other 
agencies.\14\ Recent legislation supports states' efforts to improve 
substance abuse services. For each fiscal year from 2007 through 2011, 
the Child and Family Services Improvement Act of 2006 reserves funds 
under the Promoting Safe and Stable Families program for competitive 
grants to improve outcomes of children affected by parent/caretaker 
abuse of methamphetamine or another substance.\15\
---------------------------------------------------------------------------
    \14\ We previously reported on how problems requiring interagency 
solutions often go unaddressed in such areas as transportation and 
housing. See GAO-05-25 and GAO, Child Welfare: Improved Federal 
Oversight Could Assist States in Overcoming Key Challenges, GAO-04-418T 
(Washington, D.C.: Jan. 28, 2004).
    \15\ The law reserves $40 million for fiscal year 2007, $35 million 
for fiscal year 2008, $30 million for fiscal year 2009, and $20 million 
for each of fiscal years 2010 and 2011.
---------------------------------------------------------------------------
    Most states also reported that they had implemented initiatives to 
improve recruitment and retention of child welfare caseworkers, but few 
states reported initiatives to address two of the most frequently 
reported factors underlying this challenge--the administrative burden 
on caseworkers and effective supervision. (See fig. 7.) Recent law 
supports states' efforts in this area as well. For fiscal years 2008 
through 2011, the Child and Family Services Improvement Act reserves 
funds to support monthly caseworker visits to children who are in 
foster care with an emphasis on activities designed to improve 
caseworker retention, recruitment, training, and ability to access the 
benefits of technology.\16\ In addition, the law reorganized the Child 
Welfare Services program funded under Title IV-B, adding a purpose 
section to the law that included: ``providing training, professional 
development, and support to ensure a well-qualified child welfare 
workforce.'' \17\
---------------------------------------------------------------------------
    \16\ The law directs the Secretary of HHS to reserve the following 
amounts: $5 million for fiscal year 2008, $10 million for fiscal year 
2009, and $20 million for each of fiscal years 2010 and 2011.
    \17\ Pub. L. No. 109-288, sec. 6(b)(3) (codified at 42 U.S.C. 621).
---------------------------------------------------------------------------

        Figure 6. State-Reported Initiatives to Improve Services
                        to Children and Families
[GRAPHIC] [TIFF OMITTED] 43094A.006


 Figure 7. State-Reported Initiatives to Recruit and Retain Caseworkers
[GRAPHIC] [TIFF OMITTED] 43094A.007


    Almost all states reported implementing initiatives to improve 
their ability to find appropriate homes for children, but few states 
reported initiatives that addressed two of the three most frequently 
reported factors underlying this challenge (see fig. 8). For example, 
three states reported initiatives to find appropriate homes for older 
youth transitioning to independence, and four states reported 
initiatives to find appropriate homes for children with special 
needs.\18\
---------------------------------------------------------------------------
    \18\ GAO previously reported that child welfare agencies focused on 
preparing youth for independent living while they were in foster care, 
but were less apt to work with other agencies--such as the local 
housing authority--to transition youth out of care because of 
conflicting policies and a lack of awareness about needed services. See 
GAO-05-25.
---------------------------------------------------------------------------

        Figure 8. State-Reported Initiatives to Find Appropriate
                           Homes for Children
[GRAPHIC] [TIFF OMITTED] 43094A.008


    Some states implemented initiatives under federal demonstration 
projects, and evaluations of outcomes states were required to conduct 
under these projects showed mixed results. In general, the 
demonstration projects offered states the flexibility to use federal 
funding under Title IV-B and Title IV-E in eight different program 
areas \19\ in an effort to improve services and placements--addressing 
the three primary challenges reported by states. As of 2006, 24 states 
had implemented 38 child welfare demonstration projects.\20\ However, 
evaluation results were mixed across child welfare outcomes. For 
example, while Illinois found strong statistical support for the 
finding that funding for assisted guardianships increased attainment of 
permanent living arrangements, none of the other four reporting states 
found similar conclusive evidence of this finding. Similarly, among 
four states using Title IV-E funds to fund services and supports for 
caregivers with substance abuse disorders, Illinois was the only state 
that demonstrated success in connecting caregivers to treatment 
services.
---------------------------------------------------------------------------
    \19\ Projects in the eight program areas included (1) providing 
monthly subsidies equal or comparable to foster care maintenance 
payments to relatives or other caregivers who assume legal custody of 
children; (2) providing capped Title IV-E allocations in exchange for 
flexibility in spending child welfare dollars for new services and 
supports; (3) using Title IV-E dollars to fund services and supports 
for caregivers with substance abuse disorders; (4) using alternative 
managed care financing mechanisms to reduce costs; (5) increasing the 
variety and intensity of services and supports to reduce out-of-home 
placement rates and improve other outcomes; (6) strengthening existing 
or provide new post-adoption and post-permanency services and supports; 
(7) tribal development of administrative and financial systems to 
independently administer Title IV-E foster care programs and directly 
claim federal reimbursement; and (8) training for public and private 
sector child welfare professionals serving children and their families.
    \20\ States can no longer apply for participation in federal 
demonstration projects because the program authorization expired in 
March 2006.
---------------------------------------------------------------------------
Action Taken To Ensure States Develop Plans to Serve Children and 
        Families Displaced by Disaster
    Several actions have been taken by HHS and the Congress to better 
ensure that states are prepared to continue child welfare services for 
children and families displaced by disaster across county or state 
lines. We reported in July 2006 that although 29 states, plus Puerto 
Rico, experienced a federally declared disaster in 2005, only 8 of 
these states reported having a written child welfare disaster plan. 
(See fig. 9.)

        Figure 9. Disaster Plan Status for States with Federally
                       Declared Disasters in 2005
[GRAPHIC] [TIFF OMITTED] 43094A.009


    In addition, while 21 states in all reported having a disaster plan 
in place, there was great variance in the extent to which they 
addressed selected child welfare program elements. For example, most 
states included strategies to preserve information, but few states had 
included strategies for placing children from other states. (See fig. 
10) The need for such plans was highlighted when close to 2,000 of the 
5,000 children in Louisiana's child welfare system were displaced in 
the aftermath of Hurricane Katrina.
    At the time of our review, HHS had issued guidance to states in 
1995 to help states develop child welfare disaster plans and also 
provided nearly $3 million for technical assistance to states. This 
guidance, however, did not address strategies states needed to continue 
services to child welfare families displaced across county or states 
lines. State child welfare officials reported that additional federal 
assistance would be helpful, including information on disaster planning 
requirements or criteria, training on how to develop a disaster plan, 
examples of good plans, and forums for exchanging information with 
other states.
    HHS took action that addressed states' concerns and our report 
recommendations including updating its 1995 disaster plan guidance, 
providing technical assistance, and asking states to voluntarily submit 
copies of their disaster plans for review by December 2006.\21\ 
Further, the Child and Family Services Improvement Act of 2006 also 
established a legislative requirement for states to submit child 
welfare disaster plans to HHS that prepare for displacement of 
children. The deadline set by HHS for submission of these plans is June 
30, 2007.
---------------------------------------------------------------------------
    \21\ GAO's July 2006 report recommended that HHS guidance to states 
address the dispersion of children and families within and across state 
lines, and also recommended that HHS develop and provide training to 
states on child welfare disaster planning. This report also asked the 
Congress to consider requiring states to develop and submit child 
welfare disaster plans for HHS review.
---------------------------------------------------------------------------

    Figure 10. Program Components Addressed by State Disaster Plans
[GRAPHIC] [TIFF OMITTED] 43094A.010


Observations
    State challenges in serving the children and families in the child 
welfare system are long-standing and continuing. Resolving these 
problems has been difficult, however, in part due to the child welfare 
system's heavy reliance on various nondedicated funding streams at the 
federal and state levels that require an interagency approach to 
establish appropriate priority and funding for child welfare families 
across different programs and populations. As funding fluctuates or 
declines, full awareness of resources outside the child welfare system 
becomes especially important, and we recommended in our October 2006 
report that the Secretary of HHS improve awareness of and access to 
various social services funded by the federal government.
    HHS disagreed with our recommendation, stating that it was 
insufficient to address the need for additional services and that the 
recommendation incorrectly implied that local child welfare agencies 
were not already aware of and using such resources. We acknowledged 
that increasing awareness of existing federal resources is not the only 
action needed, but in the course of our work we found that caseworkers 
sometimes were unaware of the full array of federal resources, such as 
health and housing, available in their locale or had not coordinated 
with other agencies to use them. We continue to support the view that 
federal action, such as modifying the CFDA, would allow caseworkers and 
others to more easily identify services and service providers funded by 
federal agencies in closest proximity to the families they serve.
    History has shown that in the absence of specific federal 
requirements or dedicated child welfare funding, many states have been 
slow to address existing and future challenges, such as recruiting and 
retaining child welfare workers or preparing child welfare disaster 
plans. Recent federal action has been taken to establish requirements 
and dedicate funding to states to help address these specific problems 
now and in the future. The next round of HHS state oversight reviews 
will determine the extent that these actions and others taken by states 
have been able to improve child outcomes.
                               __________
    Child Welfare: Improving Social Service Program, Training, and 
Technical Assistance Information Would Help Address Longstanding 
Service-Level and Workforce Challenges. GAO-07-75. Washington, D.C.: 
October 6, 2006.
    Child Welfare: Federal Action Needed to Ensure States Have Plans to 
Safeguard Children in the Child Welfare System Displaced by Disasters. 
GAO-06-944. Washington, D.C.: July 28, 2006.
    Foster Care and Adoption Assistance: Federal Oversight Needed to 
Safeguard Funds and Ensure Consistent Support for States' 
Administrative Costs. GAO-06-649. Washington, D.C.: June 15, 2006.
    Child Welfare: Federal Oversight of State IV-B Activities Could 
Inform Action Needed to Improve Services to Families and Statutory 
Compliance. GAO-06-787T. Washington, D.C.: May 23, 2006.
    Lessons Learned for Protecting and Educating Children after the 
Gulf Coast Hurricanes, GAO-06-680R. Washington, D.C.: May 11, 2006.
    Hurricane Katrina: GAO's Preliminary Observations Regarding 
Preparedness, Response, and Recovery, GAO-06-442T. Washington, D.C.: 
March 8, 2006.
    Hurricanes Katrina and Rita: Provision of Charitable Assistance, 
GAO-06-297T. Washington, D.C.: December 13, 2005.
    Child Welfare: Better Data and Evaluations Could Improve Processes 
and Programs for Adopting Children with Special Needs. GAO-05-292. 
Washington, D.C.: June 13, 2005.
    Indian Child Welfare Act: Existing Information on Implementation 
Issues Could Be Used to Target Guidance and Assistance to States. GAO-
05-290. Washington, D.C.: April 4, 2005.
    Foster Youth: HHS Actions Could Improve Coordination of Services 
and Monitoring of States' Independent Living Programs. GAO-05-25. 
Washington, D.C.: November 18, 2004.
    D.C. Child and Family Services Agency: More Focus Needed on Human 
Capital Management Issues for Caseworkers and Foster Parent Recruitment 
and Retention. GAO-04-1017. Washington, D.C.: September 24, 2004.
    Child and Family Services Reviews: States and HHS Face Challenges 
in Assessing and Improving State Performance. GAO-04-781T. Washington, 
D.C.: May 13, 2004.
    D.C. Family Court: Operations and Case Management Have Improved, 
but Critical Issues Remain. GAO-04-685T. Washington, D.C.: April 23, 
2004.
    Child and Family Services Reviews: Better Use of Data and Improved 
Guidance Could Enhance HHS's Oversight of State Performance. GAO-04-
333. Washington, D.C.: April 20, 2004.
    Child Welfare: Improved Federal Oversight Could Assist States in 
Overcoming Key Challenges. GAO-04-418T. Washington, D.C.: January 28, 
2004.
    D.C. Family Court: Progress Has Been Made in Implementing Its 
Transition. GAO-04-234. Washington, D.C.: January 6, 2004.
    Child Welfare: States Face Challenges in Developing Information 
Systems and Reporting Reliable Child Welfare Data. GAO-04-267T. 
Washington, D.C.: November 19, 2003.
    Child Welfare: Enhanced Federal Oversight of Title IV-B Could 
Provide States Additional Information to Improve Services. GAO-03-956. 
Washington, D.C.: September 12, 2003.
    Child Welfare: Most States Are Developing Statewide Information 
Systems, but the Reliability of Child Welfare Data Could Be Improved. 
GAO-03-809. Washington, D.C.: July 31, 2003.
    D.C. Child and Family Services: Better Policy Implementation and 
Documentation of Related Activities Would Help Improve Performance. 
GAO-03-646. Washington, D.C.: May 27, 2003.
    Child Welfare and Juvenile Justice: Federal Agencies Could Play a 
Stronger Role in Helping States Reduce the Number of Children Placed 
Solely to Obtain Mental Health Services. GAO-03-397. Washington, D.C.: 
April 21, 2003.
    Foster Care: States Focusing on Finding Permanent Homes for 
Children, but Long-Standing Barriers Remain. GAO-03-626T. Washington, 
D.C.: April 8, 2003.
    Child Welfare: HHS Could Play a Greater Role in Helping Child 
Welfare Agencies Recruit and Retain Staff. GAO-03-357. Washington, 
D.C.: March 31, 2003.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much. We now turn to Mr. 
Bell, who is the chief executive of the Casey Family 
Foundation, who in another life, was a New York City 
commissioner running the child welfare program.
    So, Mr. Bell, we're glad to have you here, and welcome your 
testimony.

   STATEMENT OF WILLIAM BELL, PRESIDENT AND CHIEF EXECUTIVE 
                 OFFICER, CASEY FAMILY PROGRAMS

    Mr. BELL. Thank you, Chairman McDermott, Congressman 
Weller, and members of the Subcommittee. Thank you for inviting 
me to participate in this hearing this morning. We commend the 
Subcommittee on its efforts to identify challenges facing the 
child welfare system, as well as seeking viable solutions to 
improve the lives of vulnerable children in America.
    Like the Subcommittee, we feel a compelling sense of 
urgency to change the life outcomes for children in foster 
care, because we are extremely troubled by what the data tell 
us. The number of children abused and neglected each year is 
over one million. Children of color continue to be over-
represented in the nation's child welfare and juvenile justice 
systems. Youth aging out of foster care continue to struggle to 
build productive, successful adult lives.
    Our collective and immediate response is absolutely 
necessary. We are all, ultimately, responsible for the outcomes 
of the children in America who are touched by the child welfare 
system. They are relying on each of us with the power and 
resources to act in a way that assures them that their lives 
matter.
    We agree wholeheartedly with the findings from the GAO 
report in October of 2006 that was requested by the Committee.
    Casey Family Programs, however, also respectfully submits 
that there are approximately seven other areas that we think 
are essential to focus on the challenges that are being faced 
by child welfare systems, and these areas were absolutely 
critical in our efforts to reduce the foster care population in 
New York City from over 43,000 children to approximately 17,000 
children today.
    Number one is caseload size. It's a documented fact that 
extremely high caseloads prevent workers from being able to 
focus and concentrate on the health and well-being of children, 
and we believe that it is absolutely essential for there to be 
a caseload standard, or ceiling, for all caseworkers and social 
workers in the United States.
    Number two, leadership development. It is important, and in 
order to sustain the positive change that we desire for 
children, that there must be competent executive and mid-level 
management expertise in our agencies. Those in strategic 
positions must not only have a vision, but also have the proven 
experience, resources, and authority to execute on that vision.
    Front-line supervision. One of the critical and necessary 
elements of child welfare reform is investing in a frontline 
workforce to improve the quality of supervision provided to 
frontline staff. Individual workers need training, relevant 
education, and sufficient supervisory support to make 
competent, experienced decisions about the needs of children.
    Number four, building political will. For any child welfare 
agency to be successful, there must be a public long-term 
commitment by the chief political leader, whether that's the 
Governor, county supervisor, or Mayor, to support and sustain 
change for children and families.
    Five, building public will. Child welfare cannot do its 
work alone. Systems must work in tandem with local communities, 
law enforcement, education, health, community-based 
organizations, and others, to build comprehensive programs to 
improve the lives of vulnerable children and their communities.
    Six, data. We must create and enforce data-driven 
accountability, and publicly report on our outcomes. We must 
have accurate systems to measure child welfare results, and 
transparency with our communication of those results to 
increase public trust and accountability.
    Seven, time. Systems do not improve overnight. We need to 
set better expectations with the public, and for ourselves, as 
leaders, about the realistic time frames needed to produce 
sustainable improvement of child welfare systems.
    New York City is currently considered one of the best big-
city police departments in the country. This year, in New York 
City, there will be more than 400 murders, and many women will 
die, even though they have registered restraining orders in the 
police departments. We don't consider the department broken, 
nor should we, but we believe there should be an equal approach 
to looking at the standards that we hold our child welfare 
systems to.
    Then, last, I would remiss if I didn't mention the need to 
look at child welfare financing. We urge consideration of the 
recommendations that were contained in a recently released 
report by the Pew Charitable Trust.
    In closing, as I participate here today, I do so with a 
strong belief that change is possible, and that outcomes that 
we seek can be achieved. Time is of the essence.
    On average, each day in America, approximately 1,425 
children are removed from their homes and placed in foster 
care. That's 59 children every hour. In the time that it will 
take us to complete this hearing today, more than 100 children 
will have entered the foster care system in America. I thank 
you for seeking real change, on behalf of those children.
    I also thank you, Mr. Chairman, and the Subcommittee 
members, for the opportunity to share Casey Family Programs's 
perspectives here today. I could go on a lot longer than 5 
minutes, but you won't allow me. So, I will be happy to address 
any questions that you might have.
    [The prepared statement of Mr. Bell follows:]
                  Prepared Statement of William Bell,
      President and Chief Executive Officer, Casey Family Programs
    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to discuss Casey Family Programs' perspective on the 
challenges facing the child welfare system in this country.
    I am William C. Bell, President and Chief Executive Officer of 
Casey Family Programs, the nation's largest operating foundation 
focused solely on providing, improving and ultimately preventing the 
need for foster care.
    Casey Family Programs has a more than 40 year history of serving 
children and families throughout the country and we commend the 
Subcommittee on Income Security and Family Support for seeking to 
identify the challenges facing child welfare as well as seeking viable 
solutions to improve the lives of vulnerable children in America.
    Like the Subcommittee, we feel a compelling sense of urgency to 
change the life outcomes for children in foster care, because we are 
extremely troubled by what the data tell us:

    <bullet>  The number of children who are victims of abuse and 
neglect is nearly 1 million each year.
    <bullet>  Children of color continue to be over-represented in the 
national child welfare and juvenile justice systems.
    <bullet>  Youth aging out of foster care continue to struggle to 
build productive, successful adult lives. And
    <bullet>  The ratio of children to caseworkers continues to be too 
high to serve children and families effectively in far too many 
jurisdictions across the country.

    Our collective and immediate action is absolutely essential.
    We are all ultimately responsible for the outcomes for the children 
in America who are touched by the child welfare system. They are 
relying on each of us with the power and resources to act in a way that 
assures them that their lives matter.
    When a child in this country is placed into foster care, we as 
child welfare providers, local, state, and federal government officials 
take on the parental duty to raise them--hopefully with the same 
standard of care that we would want for our own children if they were 
to experience the foster care system. And yet, children in foster care 
remain the most vulnerable in our society for poor outcomes.
    The GAO Report produced in October 2006 at the request of the 
Subcommittee identified three of the most important challenges state 
child welfare agencies need to address in order to improve outcomes for 
children and families as:

    1.)  Providing an adequate level of services for children and 
families,
    2.)  Recruiting and retaining caseworkers, and
    3.)  Finding appropriate homes for children

    We agree with the GAO findings and based on Casey Family Programs' 
more than 40 years of direct practice experience and ongoing 
partnerships with child welfare systems across the country, we 
respectfully submit that there are seven specific challenge areas that 
must receive focused attention and resource investments in the near 
term to achieve the long term positive results we all desire and that 
children deserve:

    <bullet> Caseload Size: It is a documented fact that dangerously 
high caseloads severely hinder caseworkers' ability to focus on the 
health and well being of children in our care.
    Given the high amount of time a caseworker and/or social worker has 
to spend with administrative duties, travel, court appearances and 
providing quality service to children and families, we need to 
implement a reasonable caseload size standard or ceiling for all child 
welfare caseworkers/social workers in this country.

    <bullet> Leadership Development: In order to implement and sustain 
positive change, competent executive and mid-level leadership must be 
in place. Those in strategic positions must not only have a vision, but 
have the proven experience, resources and authority to execute that 
vision.

    <bullet> Frontline Supervision: One of the critical and necessary 
elements of child welfare reform is investing in the frontline 
workforce to improve the quality of the supervision provided to 
frontline staff. Individual workers need proper training, relevant 
education, and sufficient supervisory support to make competent, 
experienced decisions about the needs of children.
    Today many workers lack the education credentials and the practical 
training to ensure high quality front line performance. We know with 
increased preparation, management support and tools, staff can work 
with families more proactively on the front end to help them access 
existing, valuable community resources and help engage extended family 
and community members in best interests of a child.

    <bullet> Building Political Will: For any child welfare agency to 
be successful there must be a public, long term commitment by the chief 
political leader (e.g. governor, county supervisor, or mayor) to 
support and sustain change for children and families. The chief 
politician must be informed and engaged with the child welfare 
leadership to implement and consistently build on their clear plan of 
action.
    In many cities and states today, political support of child welfare 
is extremely low or non existent. The average child welfare leader's 
tenure in this country is 18 months to 2 years. It is clear when an 
issue or child incident occurs, child welfare stands very much alone--
and leaders often feel forced to make near term decisions in times of 
crisis.
    Where we have seen true, long term success, is in jurisdictions 
where political leaders have collaborated with child welfare leaders 
(just as they would with police, fire or education departments) to 
jointly manage and execute a vision for change.

    <bullet> Community and Cross-Systems Engagement: Building Public 
Will: Child welfare cannot do this work alone. Systems must work in 
tandem with local communities, law enforcement, education, health, 
community-based organizations, philanthropic organizations and others 
to build comprehensive programs to improve the lives of vulnerable 
children in their communities.

    <bullet> Data: We must create and enforce data-driven 
accountability and publicly report our outcomes. We must have accurate 
systems to measure child welfare results and transparency with our 
communication of those results to increase public trust and 
accountability.
    Without quality data, we cannot effectively track and share 
progress and learning, and make better informed decisions regarding the 
investment of resources.

    <bullet> Time: Systems do not improve overnight. We need to set 
better expectations with the public and for ourselves as leaders about 
the realistic timeframes needed to produce sustainable improvement of 
child welfare systems.
    New York City has reduced crime significantly in the past 12 years. 
It is considered to have one of the best big city police departments in 
the world. But this year there will be more than 400 murders in New 
York City.
    This year a number of women with restraining orders sanctioned by 
the courts and registered with the police department will be killed by 
their husbands or significant others, but that won't result in a 
declaration that the police department is broken and nor should it.
    My contention is that we must develop similarly reasonable 
standards for improvement in child welfare.
    Systems must improve and they must be held accountable. But we must 
also recognize that real, lasting, and sustainable improvement takes 
time.
    Starting with the 20 states with the highest populations of 
children in care, Casey Family Programs has embarked on an effort that 
we call our 2020 Strategy for Children.
    Between now and the year 2020 Casey Family Programs is committed to 
supporting and partnering with the child welfare system in each state 
in the country to implement changes in these critical challenge areas 
in order to achieve the goal of improving the life outcomes for 
children in foster care in America as well as safely reducing the 
number of children who experience foster care in America.
    Lastly, I would be remiss if I did not address the issue of child 
welfare financing, as it is an obvious factor in any aspect of 
fundamental change. Currently, the federal government provides more 
than $12 billion each year to help pay for the cost of our child 
welfare systems.
    Unfortunately, for several decades, federal funding policies have 
not aligned well with many promising child welfare practices and have 
had the unintended consequences of providing a disincentive for 
innovation in some of the practices that we know work best for children 
and families.
    These consequences are visible in the lack of IV-E flexibility for 
subsidized guardianship, the lack of comprehensive post reunification 
services, the lack of comprehensive post-adoption services, and the 
lack of comprehensive transition support services for young adults who 
age out of the foster care system.
    Recently the PEW Charitable Trusts with the support of other child 
welfare organizations has introduced a set of comprehensive 
recommendations to improve child welfare financing. We strongly believe 
that federal finance reform is critical to achieving better results for 
children, and would urge consideration of these recommendations.
    In closing, as I participate here today I do so with the strong 
belief that change is possible and that the outcomes that we seek can 
be achieved--but time is of the essence. On average, each day in 
America, approximately 1,425 children are removed from their homes and 
placed in foster care. That is nearly 59 children every hour.
    In the time that it will take to complete this hearing today more 
than 100 children will have entered the foster care system in America. 
. . .
    I thank you for seeking real change on their behalf.
    I also thank you again Mr. Chairman, Congressman Weller, and 
Subcommittee members for the opportunity to share Casey Family 
Programs' perspective with you today.
    Casey Family Programs is honored to serve children and families and 
we are committed to working with government, child welfare agencies, 
and other systems and partners in every community in America to ensure 
we follow through on our promise to improve the outcomes and life 
possibilities for every children and families who are touched by the 
child welfare system.
    Thank you.

                                 <F-dash>

    Chairman MCDERMOTT. The red light is on. Thank you. Thank 
you very much. Next we have Ms. Nelson, who is the director of 
the child welfare department in Iowa. So, we will hear a little 
bit of a different story, maybe, than the story in New York 
City. Or, maybe not.
    Ms. Nelson.

STATEMENT OF MARY NELSON, ADMINISTRATOR, DIVISION OF CHILD AND 
       FAMILY SERVICES, IOWA DEPARTMENT OF HUMAN SERVICES

    Ms. NELSON. Good morning, Chairman McDermott, Congressman 
Weller, and members of the Subcommittee. Again, my name is Mary 
Nelson, and I am the administrator of the division of child and 
family services for the Iowa Department of Human Services, and 
I, too, appreciate the opportunity to testify before this 
Subcommittee about the challenges facing the public child 
welfare system. I testify today on behalf of Iowa, as well as 
the National Association of Public Child Welfare 
Administrators.
    I am going to speak to five challenges. The first is 
resources. As someone who has worked in this field for more 
than three decades, I have seen the federal role in funding for 
this system decline, while oversight has increased. It might 
surprise some to learn that fewer than 50 percent of the 
children in the child welfare system are supported by federal 
IV-E funding. States have picked up the responsibility to fund 
the needs of these children, and that trend is clearly not 
sustainable.
    The second challenge is around the workforce. The issue of 
an adequate workforce of frontline child welfare caseworkers 
and trained supervisors is one of the most significant 
challenges we face in Iowa. Over the last 3 years, we have 
worked diligently to reduce the workload of our frontline child 
welfare staff, in order to increase monthly visits.
    However, we are not where we ultimately want to be. We are 
now doing monthly visits with just over 50 percent of the 
children we serve, but we do not have the staff complement to 
reach 100 percent. New flexibility in the use of federal funds 
to support these frontline staff would help us to continue to 
make progress to reach this goal.
    The third challenge is cross-system collaboration, and I'm 
going to use education as an example, because our foster youth 
council, Elevate, has identified educational issues as the 
number one issue they want to work on this year.
    Based on a study through Chapin Hall, we found that over 
one-third of the children that aged out of foster care in Iowa 
have had five or more school changes, and nearly half reported 
having spent at least some of their educational experience in 
special education. Simplification of records transfers, and 
access to wrap-around educational services to ensure foster 
children don't fall behind in school is critical. We will look 
for opportunities to address these issues in the congressional 
reauthorization of the McKinney Vento and No Child Left Behind 
Acts.
    The fourth challenge is support for relatives and post-
permanency. In Iowa, almost 40 percent of foster care 
placements are with relatives. Many of these relative care-
takers, however, choose not to become licensed as foster 
parents. As a result, even though they have met the same safety 
standards as licensed foster parents, they are ineligible for 
federal financial support through Title IV-E.
    Including guardianship subsidies within the Title IV-E 
program would mean that all eligible children could achieve 
permanency through guardianship, not just those that are 
participating in a waiver. This is especially important for 
older youth in care, who might otherwise age out of foster care 
with no permanent family connections.
    In Iowa, as is true nationally, well over half of the 
children that exit foster care are reunited with their 
families. Providing post-permanency support for birth families 
is critical to maintaining these placements, just as it is with 
adoption and guardianship.
    The fifth challenge is around disproportionality. In Iowa, 
we have identified disproportionality and disparate outcomes in 
child welfare as a critical issue in our recent redesign of our 
child welfare system. It is my understanding that Congress has 
begun to pay attention to this issue, with Chairman Rangel 
requesting a GAO study. We look forward to discussing this 
challenge further, once that study is released.
    Addressing only the challenges I have outlined in this 
testimony, however, simply is not sufficient. Abused and 
neglected children deserve a comprehensive approach to 
improving their lives.
    For the past several years, various national groups have 
come to Congress, asking for reform of the federal child 
welfare financing structure, each with their individual 
recommendations for reform. Though there was a good deal of 
overlap in the reform proposals, it may not have appeared as if 
there was consensus.
    To focus our efforts to move this critical agenda forward, 
leading child welfare advocacy organizations joined forces to 
develop consensus recommendations for reform. Today, APHSA, the 
American Federation of State, County, and Municipal Employees, 
Catholic Charities USA, the Center for Law and Social Policy, 
the Child Welfare League of America, the Children's Defense 
Fund, the National Child Abuse Coalition, and Voices for 
America's Children propose recommendations that cover three 
primary areas of reform.
    First, guaranteeing services, supports, and safe homes for 
every child who is at risk of being, or has been abused or 
neglected, by strengthening the Federal/State child welfare 
partnership by amending Title IV-E without converting any of 
IV-E to a block grant.
    Second, promoting program effectiveness through workforce 
investment, and vigorous evaluation.
    Third, enhancing accountability, both fiscal and 
programmatic. We urge the Subcommittee to adopt these 
recommendations, in order to keep children safe and in 
nurturing families. Thank you for the opportunity to testify. I 
would be pleased to respond to any questions you may have.
    [The prepared statement of Ms. Nelson follows:]
           Prepared Statement of Mary Nelson, Administrator,
                 Division of Child and Family Services,
                   Iowa Department of Human Services
    Good morning, Chairman McDermott, Congressman Weller, and members 
of the subcommittee. I am Mary Nelson, administrator of the Division of 
Child and Family Services for the Iowa Department of Human Services. In 
this position, I have responsibility for program and policy in child 
protection, foster care, permanency, and adoptions as well as child 
care regulation, juvenile institutions, delinquency programs, dependent 
adult protection, teen pregnancy prevention, child abuse prevention and 
family support and the interstate compacts for children, juveniles and 
medical assistance and adoption. I am also a current member of the 
National Association of Public Child Welfare Administrators (NAPCWA), 
an affiliate of the American Public Human Services Association (APHSA), 
and am here today in that capacity as well. APHSA is a nonprofit, 
bipartisan organization representing state and local human service 
professionals for over 76 years. NAPCWA, created as an affiliate in 
1983, works to enhance and improve public policy and administration of 
services for children, youth, and families. As the only organization 
devoted solely to representing administrators of state and local public 
child welfare agencies, NAPCWA brings an informed view of the problems 
facing families today to the forefront of child welfare policy.
    I appreciate the opportunity to testify before this subcommittee 
about the challenges facing the public child welfare system in serving 
children and families who have come to our attention. With over three 
decades of experience with the Iowa Department of Human Services, 
beginning as a caseworker, I have seen, experienced and worked to 
address the many challenges the child welfare system has and continues 
to face.

                               BACKGROUND

    APHSA members appreciate the Subcommittee's attention to one of our 
nation's most critical and heart wrenching struggles--what we can and 
should be doing to improve the lives of children who are at risk of 
being or have been abused and neglected. The latest data released by 
the federal government indicate that in 2005, an estimated 899,000 
children were found to be victims in this country. The child welfare 
system serves as the safety net for these children and works to improve 
their life circumstances and outcomes.

                               CHALLENGES

    I must start off with saying that the challenges are great. I have 
been asked to discuss the top four to five challenges facing public 
child welfare systems. The challenges I will outline today are those we 
face in the state of Iowa, but are also similar to those encountered by 
other states. As someone who has worked in this field for more than 
three decades, I have seen the federal role in funding for the system 
decline, while oversight has increased. And it might surprise some to 
learn that fewer than fifty percent of the children in child welfare 
are supported with a federal dollar. States, including Iowa, have 
picked up the responsibility to fund the needs of these children and 
that trend is clearly not sustainable.
Core Work of the Child Welfare System--A Skilled and Supported 
        Workforce
    Child welfare professionals courageously work in one of the most 
challenging professions in this country. The jobs performed by 
caseworkers have become more complicated as the challenges faced by 
families in the child welfare system have become increasingly complex. 
An enormous responsibility is placed in the hands of caseworkers as 
they are expected to perform multiple interventions and make judgments 
that have the power to change a child's life. Their findings can 
determine whether a child is kept safe or put at risk. The connection 
that caseworker can make is greatly impacted by the competencies they 
can acquire and build through effective training, available tools 
including the array of services to which they can link families and on-
going support. This subcommittee acknowledged this core element of 
child welfare work in the recent reauthorization of the Promoting Safe 
and Stable Families program with the requirement for monthly visits in 
ninety percent of foster care cases. States agree with the importance 
of face-to-face visits as is demonstrated by requirements in many state 
child welfare policies and in the results of the first round of the 
Child and Family Services Reviews (CFSRs) where both visits with 
children and with parents were strongly associated with a decreased 
risk of harm to the child; improved permanency and enhanced child well-
being. However, the resources needed to meet this goal have not been 
sufficient given that less than 25% of states received a rating of 
strength on the worker visits items in the CFSRs.
    Additionally, child welfare supervisors play a vital role in 
providing support, skill building, and professional development to 
caseworkers. Supervisors are coaches, mentors, and evaluators 
responsible for the quality of services children and families receive. 
A supported, skilled, and stable workforce is crucial in child welfare 
practice given the tremendous impact caseworkers can have on helping 
vulnerable children and families overcome difficult life circumstances. 
Training, workload, risk of violence, supervision, and turnover present 
great challenges to providing the needed workforce supports in this 
field. However, there is the opportunity to build on the level of 
motivation and the level of dedication among the child welfare 
workforce which are incredible assets that can contribute to meaningful 
and sustained improvements. A key to improving the workload for 
caseworkers is to ensure access to other human service systems that can 
help provide the services needed by children and families.
Iowa's Challenges
    The issue of an adequate workforce of frontline child welfare 
caseworkers is one of the most significant challenges we face inIowa in 
terms of meeting the requirement for monthly visits. In our first CFSR, 
we found that we were only meeting that requirement with ten percent of 
the children and 23% of families we served. We worked diligently in our 
Program Improvement Plan to reduce the workload of our frontline child 
welfare staff in order to make improvements in this area. Although not 
where we want to be ultimately, I'm pleased to say that we are now 
doing monthly visits with just over 50% of the children we serve. I'm 
also pleased to say that we are seeing the positive results of this 
effort in terms of improved relationships with children and families, 
workers being better prepared for Court, and better outcomes. Our staff 
are also reporting higher satisfaction in being able to spend more time 
directly working with children and families.Iowa has also struggled 
with having an adequate number of trained supervisors. As noted, 
frontline supervisors play an essential role as expert consultants to 
our frontline staff as they make the critical decisions expected of 
them. We have been fortunate to receive two federal grants focused on 
recruiting, training and retaining child welfare supervisors. As a 
result, we have been able to strengthen the skills of our supervisors 
as coaches and mentors. We've also been fortunate to receive funding 
from our state Legislature to hire additional supervisors.
    Despite the progress we've made to date, we do not currently have 
the staff complement to reach 100% of the children we serve. New 
flexibility in the use of federal funds to support these frontline 
staff--caseworkers and supervisors--would help us to continue to make 
progress to reach this goal.
Cross-system Collaborations
    The child welfare system cannot do its work in isolation because we 
cannot address the complex needs of children and families, and achieve 
improved outcomes for children and families alone. Cross system 
collaboration is critical both in terms of addressing the multiple 
needs of at-risk families in order to prevent abuse and neglect, and in 
terms of addressing the complex needs of the children and families that 
come to the attention of the child welfare system. Child protection is 
often the final safety net for many of the children and families that 
were not ``caught'' in time by other systems, such as mental health, 
housing, public health, or education. By working together, child 
welfare and other systems can strengthen families and prevent the need 
for child welfare system involvement.
    For those children and families that do come to the attention of 
the child welfare system, cross-system collaboration is necessary to 
address the multiple challenges these families face, as well as the 
trauma of family violence. The Children's Bureau's CFSR findings 
indicated that in 86% of states, key services for parents are lacking 
(e.g., substance abuse assessment and treatment, child care, respite 
care, transportation, domestic violence services, home-based services, 
housing, and post-reunification services). Addressing these issues is 
often integral to reunification and the ability of a family to care 
properly for its children. Collaboration and partnerships must be 
developed and continued with all of the critical agencies that can 
provide services to children and families who have come to the 
attention of the child welfare system. The system has increasingly been 
contending with crosscutting challenges impacting the lives of children 
and families including unmet medical and mental health needs, 
educational challenges, substance abuse, housing challenges for both 
families and older youth exiting foster care, and domestic violence.
    Obstacles to truly connecting the supports these families need 
remain today. The items that were least likely to be rated as a 
strength on the CFSRs pertained to assessing and meeting service needs 
and meeting children's mental health needs. Waiting lists for services, 
particularly substance abuse treatment services, were found in 69% of 
states. The funding provided in the reauthorization of the Promoting 
Safe and Stable Families program for substance abuse partnership is a 
step in the right direction, however, not all states will receive 
grants to enhance their capacity to address this issue. Numerous 
families that come to the attention of child protection have unmet 
mental health needs. Private health insurance limitations, an 
inadequate supply of services, and limited resources have all impacted 
the access to mental health services for both children and parents. 
This concern is reinforced by the findings in the CFSR that in 71% of 
states there is a lack of mental health services for children, and in 
77% of states the number of dentists/doctors willing to accept Medicaid 
is not sufficient to meet the need. Recent limitations on the ability 
of states to use Medicaid Targeted Case Management funds and upcoming 
changes to the Medicaid Rehabilitation Option will greatly diminish the 
federal government's role in partnering with states to meet the on-
going health and mental health needs that must be addressed to improve 
outcomes for children and families involved with the child welfare 
system.
    We have seen cases where the lack of adequate housing can lead to 
overcrowded conditions that cause high levels of stress and can 
ultimately lead to the maltreatment of a child. Educational outcomes 
for children in foster care are lower than those of the general 
population. Simplification of records transfers and access to wrap 
around educational services to ensure foster children don't fall behind 
in school during placement moves is critical. We will look to 
opportunities to address these issues in the Congressional 
reauthorizations of the McKinney-Vento Homeless Assistance and the No 
Child Left Behind Acts.
    These examples serve to highlight how systems must work together to 
better address the varied needs of families and how the federal 
government must continue to be a true partner in ensuring these 
services reach the children and families most in need. Although the 
CFSR findings indicated that less than one-half of the states achieved 
substantial conformity with the systemic factor of service array, it 
also showed that more than one-half of the states were found to be 
effective in individualizing services to meet the unique needs of 
children and families. If these systems can be brought together to 
enrich the array of services available, child welfare systems have 
shown that they do have the ability to connect children and families to 
the supports they need.
Iowa's Challenges
    With respect to our experience in Iowa, I want to focus on the 
challenge of ensuring that children in foster care have their 
educational needs met. Our youth council, Elevate, which is made up of 
current and former foster care youth, has identified educational issues 
as the number one issue they want to address in the upcoming year. 
Based on a study done through Chapin Hall, we found that over one-third 
of children that ``aged out'' of foster care in Iowa have had 5 or more 
school changes, nearly half reported having spent at least some of 
their educational experience in special education, 18% missed at least 
one month of school due to foster care change, and over half could not 
read at a 7th grade level. About a third had repeated a grade, and more 
than two-thirds had received out-of-school suspensions. While Iowa's 
CFSR final report indicated we were making appropriate efforts to 
assess and address children's educational needs, we can and must do 
better than the Chapin Hall findings. In an effort to turn these 
outcomes around, the Iowa Departments of Human Services and Education 
have signed a Memorandum of Agreement identifying a set of concrete 
steps we will take to address these issues. In 2006, the DHS also used 
state funds to implement the Preparation for Adult Living (PAL) 
program, which provides continued support to youth that ``age out'' of 
foster care that are continuing their education or working. Iowa has 
also taken advantage of the Medicaid option for youth that age out of 
care. And, this year, the Legislature appropriated additional state 
funds for a post-secondary education tuition waiver program that will 
supplement the Chafee Education and Training vouchers. Support from 
Congress can help states address these and other cross-system 
collaborations.
    Another important area where cross-system collaboration plays a key 
role is prevention of abuse and neglect. In Iowa, we have implemented 
an initiative, Community Partnerships for Protecting Children, that 
brings together child welfare, substance abuse, mental health, housing, 
education, public health, corrections, the faith community, businesses, 
and local neighborhoods to work together to develop neighborhood based 
supports that address the multiple needs of vulnerable children and 
families.
Supporting (Birth, Foster, Kin and Adoptive) Families
    The child welfare system cannot succeed without the partnership 
with all of the families who care for abused and neglected children--
birth families, foster families, kin, and adoptive families. A state or 
local system cannot provide the nurture and care that these families 
can provide, with the necessary supports and services from the child 
welfare system. The CFSRs showed that a key challenge for many states 
is having a sufficient number and type of placement options to ensure 
that a child's out-of-home placement is based on appropriateness rather 
than availability. Once those placements are found, they must all 
receive the supports needed for the children in their care.
    The majority (54%) of children in foster care were reunified with 
their families in 2005. In these instances, child welfare systems may 
have met the challenges of providing the family with the necessary 
services to improve their lives to a point of warranting reunification. 
However, states currently lack the resources necessary to provide 
continued services and supports to ensure children don't re-enter the 
foster care system. Reunification cannot be the end goal; rather, the 
focus must be on keeping children with their families whether it be 
prior to a removal or after a reunification. The Children's Bureau's 
analysis of the CFSRs indicated that more than 60% of child welfare 
agencies were not able to provide sufficient and/or adequate post 
reunification services and only half were able to meet the national 
standard for re-entry into foster care.
    Recruiting and retaining foster parents, particularly for older 
youth and children with special needs, poses an on-going challenge for 
child welfare systems. It is not always an easy decision for families 
to take on the important work of caring for children who have 
experienced difficult home situations. They must be commended and 
supported for the incredible role they've agreed to fulfill.
    Relatives and other caretakers known to the child often step in 
when a home is needed for a child who has come to the attention of the 
child welfare system. These caretakers, often grandparents, do not 
necessarily have the resources to provide the care needed for children 
who have been removed from their homes. Child welfare systems face the 
challenge of a declining federal role, given federal regulatory 
definitions and recent legislative changes, in providing the resources 
needed by relatives. Child welfare systems also struggle with providing 
supports to kin and kith who are willing to provide children with 
permanency through guardianship. The federal role in supporting this 
permanency option is currently lacking.
    In 2005, over 51,323 children were adopted from foster care. 
Adoptive families are essential for children who are unable to return 
to their family of origin. However, on-going supports are necessary for 
these families as well in order to ensure they can continue to care for 
the children they've taken into their family. Post-adoption supports 
through the adoption assistance program continue to decline as the 
Title IV-E eligibility link to 1996 standards erodes over time. While 
more federal support is needed for post-adoption services, there 
currently is no federal support for any of the other post-permanency 
options that can also lead to positive outcomes for children such as 
guardianship and reunification.
Iowa's Challenges
    In Iowa, almost forty percent of foster care placements are with 
relatives. Many of these relative caretakers, however, choose not to 
become licensed as foster parents. As a result, even though they have 
met the same safety standards as licensed foster parents (e.g., child 
abuse and criminal record checks, and home inspections and studies); 
they are not eligible for federal financial support through Title IV-E. 
In Iowa, we also now have more children in subsidized adoption than we 
do in foster care placements, in fact, almost fifty percent more. 
Thankfully, the vast majority of these benefit from federal support 
through Title IV-E. Due to the link to 1996 eligibility standards, 
however, that percentage is declining.
    Historically, Iowa has had few families able to provide permanency 
through guardianship, in part, due to the lack of federal support 
through Title IV-E. Recently, Iowa received one of the last Title IV-E 
waivers for subsidized guardianship. We began our program in February 
of this year, and look forward to being able to offer post-guardianship 
support through this program. While we are grateful to have this 
opportunity, offering this program through a waiver means that only 
some children can benefit since we must maintain a ``control'' group 
that cannot receive a subsidy. Including guardianship subsidy within 
Title IV-E would mean that all eligible children for whom another 
permanency option is not possible could achieve permanency through 
guardianship. This is especially important for older youth in care who 
might otherwise ``age out'' of foster care with no permanent family 
connections.
    Lastly, I want to note that in Iowa, as is true nationally, well 
over half of the children that exit foster care are reunited with their 
families. Providing post-permanency support for birth families is 
critical to maintaining these placements, just as it is with adoption 
and guardianship. While Iowa has made significant improvement in 
reducing our foster care re-entry rate from twenty-two percent three 
years ago to ten percent, we still need to do a better job of 
supporting children and families after they leave care.
Disproportionality
    The issue of disproportionality in child welfare has received the 
attention of child welfare administrators across the nation. The scope 
of the issue includes differing experiences and/or outcomes for 
children in the child welfare system based in some part on racial or 
ethnic factors. Child welfare agencies are struggling to identify 
effective strategies that accurately identify where disproportionality 
is manifested within public child welfare systems and to positively 
impact outcomes by addressing issues at the individual and systemic 
levels.
    Although the federal government found no relationship in the first 
round of the CFSRs between the percentage of white children in the 
state's foster care sample and the state's ratings for the outcomes, 
there were indications in the analyses that African American children 
and Alaska Native/American Indian children were more likely to be in 
the foster care case sample than in the in-home case sample. It is our 
understanding that Congress has begun to pay attention to this issue 
with Representative Rangel requesting a GAO study. We look forward to 
discussing this challenge further once that study is released.
Iowa's Challenges
    In Iowa, the Department of Human Services identified 
disproportionality and disparate outcomes in child welfare as a 
critical issue in our recent redesign of our child welfare system. As a 
result, we have implemented two demonstration projects--one in Sioux 
City focused on Native American children and families, and one in Des 
Moines focused on African American children and families. Both projects 
focus on expanding community based culturally competent services, 
improving family engagement, and cross-systems collaboration. Although 
progress is slow, in both cases we are seeing improvements in our work 
and in outcomes for children and families. In fact, Sioux City was 
recently recognized by the Center for Community Partnerships in Child 
Welfare as one of 10 jurisdictions to watch in terms of addressing this 
issue.

                               CONCLUSION

    The challenges outlined in my testimony are but a few of the many 
in a system that impacts every aspect of a child and family's life. 
Given that my testimony before you today is not considerably different 
from the one I presented in January 2004 and that the Government 
Accountability Office recently reported the long-standing challenges 
the system continues to face, we must do something drastically 
different in this country about child welfare. Addressing only the 
challenges I've outlined in this testimony simply is not sufficient. 
Abused and neglected children deserve a comprehensive approach to 
improving their lives.
    For the past several years, various national groups have come to 
Congress asking for reform of the federal child welfare financing 
structure; each with their individual recommendations for reform. 
Though there was a good deal of overlap in the reform proposals, it may 
not have appeared as if there was consensus. Therefore, APHSA joined 
with a group of national organizations that worked for more than one 
year to develop recommendations in order to come to Congress with one 
voice in asking for help in meeting the on-going challenges faced by 
child welfare systems throughout this county. The recommendations 
outline changes needed to ensure access to broad range of services and 
supports--including prevention, treatment and post-permanency and other 
services--for children who have come to the attention of the child 
welfare system. Today, APHSA, the American Federation of State, County 
and Municipal Employees; Catholic Charities USA; the Center for Law and 
Social Policy; the Child Welfare League of America; the Children's 
Defense Fund; the National Child Abuse Coalition; and Voices for 
America's Children, propose recommendations that cover three primary 
areas of reform:

    1.  Guaranteeing services, supports and safe homes for every child 
who is at-risk of being or has been abused or neglected by 
strengthening the federal-state child welfare partnership by amending 
the federal Title IV-E statute to do the following without converting 
any of the Title IV-E to a block grant
    2. Promoting program effectiveness
    3. Enhancing accountability

    Although several bills have been introduced in this Congress that 
would address some of the challenges facing the child welfare system, 
comprehensive reform is necessary to make a significant impact. We urge 
the Subcommittee and Congress to adopt our joint recommendations in 
order to keep children safe and in nurturing families. The details of 
our recommendations are attached to my testimony and available on the 
press table.
    NAPCWA's vision for child welfare is a society where children are 
free from abuse and neglect and live in safe, stable, permanent 
families--where children and families have needed supports and can help 
themselves. When children are at risk and come to the attention of the 
public agency, the agency can provide services and supports to them and 
their families to mitigate their problems and prevent them from being 
removed from their families and communities. When children must come 
into care, the agency can address children and family needs 
expeditiously and enable a safe reunification or, where that is not 
possible, find an alternative permanent placement expeditiously, while 
assuring their well-being in the interim. It is a vision where the 
child welfare system has the capacity to improve outcomes for children 
and families, and the federal government and states are equal partners 
in serving all children in all parts of the system.
    Thank you for the opportunity to testify. I would be pleased to 
respond to any questions you may have.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much, and thank you all 
for your testimony. As I sat here listening to it, and having 
worked as a child psychiatrist in and around the system in 
various places, you have laid out a smorgasbord of 
possibilities, some of which are well handled at the Federal 
level, and some aren't handled at the Federal level.
    I would like to hear you talk about this because I think we 
can set the funding aside for just a second, and talk about the 
structure of the system. What things do you think this 
Subcommittee ought to consider, such as putting a Federal 
standard, or do you want 50 different standards in each State?
    I would like to hear from those of you in the business. If 
you were sitting up here, what would you be pushing? Governor? 
Or, not Governor----
    Ms. HOLTON. I will take that.
    [Laughter.]
    Chairman MCDERMOTT. Judge?
    Ms. HOLTON. Congressman, I think one great thing the 
Federal Government has done, and I think it has had good 
effects at the State level, is the CFSR process, the child and 
family service reviews process, which has set some very high 
standards, and some very specific accountability measures.
    They have now conducted the reviews in all 50 states, and 
all 50 states flunked, which was the expected result, because 
the standards are high, but they set real outcome measures. 
It's hard--accountability, everybody agrees with in principle. 
To do accountability well, you have to have not just one 
measure, but rather you have to have a range of measures that 
captures all the things you care about. I think the CFSR 
process, overall, has done a good job on that. So, I think we 
should support that.
    The flip side of that is, having set high standards and put 
in motion an accountability process, we then need to give the 
states the maximum flexibility, in terms of how they go about 
processing and achieving those outcomes goals, because there is 
an awful lot of--I just--I didn't know much about the money 
side of this business from when I was on the bench. That was 
not part of my job. In fact, it was my job not to know, ``I 
don't care how much it costs, you've got to do what the law 
requires.''
    The more I learn about it, some of these requirements, 
Byzantine is the only word. There is nothing productive about 
going back to look to a 1996 AFDC income measure. So, to the 
extent we can set outcome measures, and then provide the states 
maximum financial support that we can, and give them maximum 
flexibility, I think that's the right general approach.
    Mr. BELL. I would add to that, that of the list that I 
think you have heard from a number of us, three areas, I think, 
need focus.
    One is the caseloads. We allow workers to have as many as 
100 cases on their caseloads in various places. We absolutely 
know that is not an environment where children can get the 
services that they need. So, I think something must be done 
that says that we will not allow workers to carry more than X 
number of cases.
    I don't want to prescribe 12 to 15, or 20, but I think 
something needs to be done to look at, definitely, where does 
the scale tip into the area where the children don't get the 
services that they need? Then we need to set a ceiling for 
workers' caseloads.
    I think number two would be supervision. We cannot allow 
workers to make independent decisions in isolation, as 
significant as when a child needs to be separated from their 
families. There must be quality supervision provided on those 
critical decisions that will impact on the long term of a 
child's life.
    Then, the third area is, I think, a focus on services that 
absolutely need to be addressed. One is post-reunification 
services. We take children away from parents, keep them in care 
for long periods of time, and then give them back to those 
parents, and then leave the parents to themselves. We have got 
to have parents transition back with those children, the same 
way we focus on post-adoptive services, and we need services in 
that area.
    I think, last, transition services for youth aging out of 
foster care. Far too many of the young people who go into 
adulthood out of the foster care system end up with the kind of 
life outcomes that we heard from the First Lady. I believe that 
there is an area where there is a gap, where there is not 
sustained funding and support for this particular area, and we 
have to make a difference in that area.
    Ms. ASHBY. Mr. Chairman, I certainly would agree with what 
my two fellow panelists have said. Specifically with regard to 
what Mr. Bell just said about services. We made a 
recommendation in our October 2000 report, which I think is 
very important here.
    There may very well be, across the Nation, adequate levels 
of services. We don't know. However, we do know that there are 
a lot of caseworkers and families that don't know what services 
are available. These are services provided not only by the 
Federal Government, but also State, and perhaps, local 
services.
    With regard to Federal services, we have recommended that 
HHS take the lead, and modify the current catalog of Federal 
domestic assistance, which lists over 300 Federal social 
service programs. It's a database that is maintained by the 
GSA, General Services Administration. We have suggested that be 
used as a basis for letting local workers and families know 
what is already available. That would include all kinds of 
services, post-reunification and other.
    Ms. NELSON. I, too, want to amplify, or support what the 
others have said already about the value of the CFSRs, as far 
as putting an organizing structure around a Federal/State 
partnership. I think it's done more for improving child welfare 
and focusing State and Federal efforts than perhaps efforts 
from years before.
    One very specific recommendation I want to speak to that is 
in my written testimony that I think, in particular, would 
build on what William Bell said, around the importance of 
workforce, which I absolutely support, and that is to look at 
the Federal match rate under Title IV-E administration, and 
bifurcate that so that the match rate for frontline workers and 
frontline supervisors might be at the FMAP rate, and keep the 
more traditional administrative overhead at the 50 percent 
match rate.
    That would be an opportunity for the Federal Government to 
be a real partner with the State around improving and investing 
in the workforce.
    Mr. COTTON. I would just like to add two things, because I 
agree with everything that was said, just about, so far, too.
    You have heard a lot today about Illinois and New York 
greatly reducing the foster care populations. As we pointed 
out, one of the big ways through in-home services. For the 
investigator going out at night, to actually have a choice 
besides leaving a child in a risky home or taking that child 
away, actually having some immediate services available, and a 
funding stream to do that, I think is very big.
    The other issue that has been touched on by a couple of 
people was kinship care, relative care, whether they're 
licensed or not, how you fund them. I think that the Federal 
Government, or at least a work group, could look at developing 
standards that may be somewhere between licensing and very 
little, in terms of where you're going to get with that, 
because you do want to make sure that the kids are safe. You 
will run into situations where relatives or kin feel they don't 
need training because they raised their own kids. All of our 
foster parents raise their own kids, and they still need--or 
most of them, not all of them--they still need training, 
because we have some very difficult kids coming into the 
system.
    So, in addition to the others, I think that those are two 
big areas we should focus on.
    Ms. NELSON. I apologize for speaking a second time, but one 
thing that I think none of us has mentioned that I think 
Congress has played a helpful role in, is the focus on the 
courts, through the court improvement projects, and the 
funding, and the structure that has been set for court 
expectations. I think that has also been a very important role 
that Congress can play.
    Chairman MCDERMOTT. Mr. Weller will inquire.
    Mr. WELLER. Thank you, Mr. Chairman. Looking over the 
testimony last night, I was looking at Mr. Cotton's testimony 
about the case of Clark County, Nevada, and clearly, a case 
study of failure. A situation, since Federal funds are 
involved, frankly, that is a national disgrace.
    Mr. Chairman, I pulled some news clippings regarding Clark 
County, which I would ask unanimous consent they be included in 
the record.
    Chairman MCDERMOTT. Okay.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] 43094A.101
    


    [GRAPHIC] [TIFF OMITTED] 43094A.102
    


    [GRAPHIC] [TIFF OMITTED] 43094A.103
    


    [GRAPHIC] [TIFF OMITTED] 43094A.104
    


    [GRAPHIC] [TIFF OMITTED] 43094A.105
    


    [GRAPHIC] [TIFF OMITTED] 43094A.106
    


    [GRAPHIC] [TIFF OMITTED] 43094A.107
    


    [GRAPHIC] [TIFF OMITTED] 43094A.108
    


    [GRAPHIC] [TIFF OMITTED] 43094A.109
    


    [GRAPHIC] [TIFF OMITTED] 43094A.110
    


    [GRAPHIC] [TIFF OMITTED] 43094A.111
    

    Mr. WELLER. Just a few weeks ago, I noted there was a 
little girl that was found in a home--this was on April 8th, 
basically a month ago. As a father of a little baby girl, it 
breaks my heart a child was found in an upstairs bedroom, with 
two black eyes several days old, long lacerations on the back 
of the child's legs, scabbed over, signs of being malnourished. 
At age 3, she only weighed 19 pounds. This was 4 weeks ago. So, 
clearly, there is a failure going on in Clark County, Nevada.
    Mr. Cotton, in your testimony about your work in reviewing 
what is occurring in Clark County, you mentioned in your review 
that you and your group called the hotline and, on average, it 
took about 25 minutes to get a response. I know when I call, 
wanting to buy something and I'm on for very long, my patience 
wears pretty thin. I think that's fairly common.
    You mention that when investigations did occur in response 
to complaints, only about 31 percent of the child abuse neglect 
reports were appropriately initiated, which meant that they 
actually saw the victim, in order to assess what is happening, 
and review whether or not that child was safe.
    You say in your testimony that 10 percent of the alleged 
victims were never seen by Clark County investigators during 
the investigation, and 60 percent were never interviewed 
privately before completing the investigation, which meant that 
the victim, a child, was interviewed while seated next to the 
alleged perpetrator.
    You also mention that 57 percent of the people who stayed 
online, on the phone, made the call, made the report, only 50 
percent of them were ever contacted, which means over half of 
those who called and complained were never followed up with.
    Can you share more details? Also, as you share more 
details--you made some recommendations. Had they done it in the 
proper way, what difference would it have made for the children 
impacted?
    Mr. COTTON. Yes, thank you. To first start out with the 
case you just talked about, I think it's a valuable situation 
to talk about, because when my report came out, shortly after 
it, it was met with sort of an attitude that things are all 
fixed. Clearly, there were many prior involvements with this 
child that you just talked about, as there are others.
    I think what we repeatedly saw was workers simply didn't 
know what they were supposed to do. We almost use these reviews 
as training sessions to say, ``Go out and do this.'' What 
bothered me a lot was I was called and said, ``They don't work 
for you, you can't tell them to go do these things,'' which is 
kind of interesting, because somebody needed to.
    Just seeing kids who hadn't been seen for 3 or 4 months, we 
saw situations--I won't get graphic--but situations where a 
child who had been very badly injured, requiring a lot of 
stitches was asked with Mom sitting next to him, Mom said he 
fell out of bed and got those. The worker looked over and said, 
``Did you fall out of bed?'' He said, ``I could have.'' 
Unsubstantiated, done, out the door.
    I think caseload doesn't take the place of common sense. 
The fact that you have a lot of cases and training and 
understanding what's going on with families isn't just a factor 
of big caseloads. So, I think we did repeatedly see that.
    We saw situations where safety and risk assessment 
documents--these are validated tools, research-validated, that 
actually work. They greatly reduced repeat abuse in other 
states, but the workers saw them as a form. They were never 
trained to use them. What we found were large numbers of them 
didn't gather enough information to use the form properly, to 
make it. They simply said, ``Check, check, check, check, and 
I'm done.''
    So, just in terms of what you're supposed to look for, when 
we suggested to people that interview children privately, some 
of them stared at us. Others said, ``Well, that's a good 
idea,'' but they had never been told that.
    Others did get creative. I will tell you there were some 
very good workers. For example, some would ask, ``Well, how do 
I interview a baby, check on a baby in a foster home, to make 
sure he is okay?'' Change the baby's diaper while you're there. 
You don't need to say, ``I'm looking for marks,'' just change 
the diaper and see if there are marks.
    So, I think there are a lot of creative ways. A child who 
is afraid to talk, because he keeps looking at the door, 
because he's afraid Dad is going to walk through the door and 
hear it, take him to a park and interview him, where he can see 
100 yards in every direction, so nobody can see that. So, I 
don't know if I answered everything----
    Mr. WELLER. Mr. Cotton, as I understand in Clark County, 
it's a county, so this is a county-based program. Is that 
correct?
    Mr. COTTON. That's----
    Mr. WELLER. Who is in charge? Who administers the Clark 
County program?
    Mr. COTTON. There is a director of the department of family 
services who reports to an assistant commissioner of social 
services, and then the county is actually a commissioner 
system.
    Mr. WELLER. So, the ultimate authority, the ultimate 
decisionmakers are, like, the county board of supervisors, or 
commissioners?
    Mr. COTTON. It goes to county commissioners, who actually 
then report to a county manager, who is in charge of all the 
commissioners of roads and everything.
    Mr. WELLER. So, are the commissioners elected officials?
    Mr. COTTON. Yes.
    Mr. WELLER. Okay. So, essentially, the county board--that's 
how we would refer to it in Will County, Illinois, and the 
district I represent--but the county board of commissioners, 
they are the ultimate authority and the ultimate 
decisionmakers, with oversight over the Clark County program, 
is that correct?
    Mr. COTTON. That's correct.
    Mr. WELLER. Okay, thank you. Mr. Chairman, you have been 
generous. I know the red light has been on.
    Chairman MCDERMOTT. Thank you. Ms. Berkley?
    Ms. BERKLEY. Thank you all for being here. This has been 
most informative, and I appreciate the information. Both Mr. 
Porter and I represent parts of Clark County. I am not speaking 
for him, but we are painfully aware of the problems that we 
have. A good deal of Clark County, as you are aware, is the 
fastest growing community in the United States. It has every 
societal factor that would lend itself to this sort of 
situation.
    Let me ask you something, because we spoke with Mr. Morton, 
who is the new head of the Clark County services, and he shared 
a lot of your concerns, because our question to him is, ``What 
can I do, on the Federal level, to help him do his job.''
    Let me ask you something. One of the things that he pointed 
to was the extraordinary caseload. He said when he got there, 
that the average caseload was 39 cases per worker. One had 
almost 100, or just over 100. I can't see, if you have that 
great of a caseload, if the recommendation is 12 cases and the 
workers in Clark County are doing 3 times that, how they could 
possibly be able to interview all the teachers and the 
neighbors and the reporter.
    I am wondering if it's just a matter of additional funding, 
because then this segues over to training. If I am just getting 
out of college, and I want to do social work, what are my 
qualifications? It seems, Mr. Cotton, the questions that you 
suggested, it doesn't seem that you have to be a genius to 
figure any of that out. I can't understand what type of 
training is necessary in order to do this kind of work.
    Now, I do know the burn-out rate is extraordinary, so 
you've got on-the-job training, we throw people into this line 
of work. After 2 years, when they are finally proficient, they 
are also burned out. So, then you are redoing this every couple 
of years, and you never get an experienced and competent 
caseworkers force, because they just can't handle that. I could 
certainly understand that.
    I am also very curious, if we don't have to do it on the 
record, who it was that you spoke to that told you not to 
interfere, because if they're still there, I think we have a 
certain amount of people that we know on the county commission, 
and certainly the county manager, that we would like to share 
that information. That, to me, is outrageous.
    So, any additional input that you can give me when it comes 
to appropriate training, when it comes to funding--is this a 
partnership with the State? Does the State kick in additional 
money as well? If you're not getting adequate funding from the 
states, how does that impact, as well?
    What do you do with--one of the things--and I'm sorry to 
ramble, but one of the things that Mr. Morton suggested is 
additional funding for other societal issues that contribute to 
child abuse and the increase in the need for foster families. 
One of them is we have a huge methamphetamine problem in Clark 
County. We end up having to remove a lot of children.
    So, we have got a child haven, and that is where we put our 
neglected and abused children, while they are waiting for 
intervention. It is beyond over-crowded. We don't have enough 
cottages for these kids. We don't have enough people working 
there. So, it's one issue after another.
    I can understand when you start asking questions, it's a 
``Yes, but, what are you doing?'' ``Yes, but,'' ``Can you do 
this?'' ``Yes, but,'' and I think there is a lot of yes-buts 
right now in Clark County, too. It is a national shame, and 
it's certainly a terrible embarrassment. What do I do, sitting 
here, to help these people?
    Mr. COTTON. If I could respond, there were a lot of 
questions in there.
    [Laughter.]
    Ms. BERKLEY. I know. There is a lot to----
    Mr. COTTON. I have no problem at all talking about the 
interference, as you call it. Basically, I was called into the 
management team, who said, ``Let us know about issues, because 
they don't work for you,'' and it was the whole management team 
who told me that.
    Ms. BERKLEY. Are they still there? I know there has been a 
huge shake-up.
    Mr. COTTON. Three-fourths of them are.
    Ms. BERKLEY. Really?
    Mr. COTTON. At that point--I don't want to get off onto 
that tangent.
    Ms. BERKLEY. Yes.
    Mr. COTTON. At that point, basically, when we started 
calling and nothing was happening, we sort of, behind the 
scenes, made sure things got done, because just calling wasn't 
helping.
    The second issue, and I know this is not going to be a 
popular statement, but about the caseload reductions, one of 
the things I have to go back to, looking at what is going on in 
caseloads--and having been a worker for a while, I know that 
when you've got big caseloads, there is not a lot you can do--
but one of the things that happened in Illinois with the big 
caseload reductions is when all the in-home services were 
transferred to child protection--I had a great management 
team--we looked at every single case.
    Almost 40 percent of them we were able to close. They 
weren't getting any services, they didn't need any services, 
but as long as they're open, they're counted, and they are 
required visits, and they require caseworker time. Many states 
have the same requirement to see a 14-year-old who was 
neglected 4 years ago, as they do a baby who is at high risk, 
rather than differentiating between those.
    So, I think that, certainly, caseloads have to be reduced. 
Additional staff is one way. Another way is looking at what's 
open, and does it need to be open. I think the management team 
needs to do that.
    Ms. BERKLEY. That is headed by Mr. Morton now, of Clark 
County.
    Mr. COTTON. Yes.
    Mr. BELL. You know, I would add that the situation that you 
describe in Clark County is very complex, and the response to 
it is multi-tiered.
    It is not so dissimilar to what you would have seen in New 
York City in 1994, and probably in Illinois, before the changes 
happened there. The catalyst in New York City was the death of 
Elisa Izquierdo in 1995. The response to that was a 
comprehensive look at the system. In Clark County, what has to 
occur is, first and foremost, there has to be a building of 
infrastructure to run a quality program.
    Now, I agree with Mr. Cotton, that you can't just say, 
``caseload, caseload, caseload,'' and that's the answer. 
Caseload is a factor, and one of the factors that has to be 
addressed.
    Ultimately, there has got to be a management structure in 
place that actually manages and believes that it can be 
successful in managing a program. The history of what has 
evolved in Clark County also has to be addressed. The history 
of this longstanding bifurcated system. The history of the 
State being responsible, and then turning over responsibility 
to the county, but there not being an infrastructure in place 
to receive that responsibility, and operating at a point now, 
as though it is just a Clark County issue.
    It's a statewide issue, and there must be accountability at 
both the State social services level, as well as at the county 
social services level, and I think any influence that Congress 
can provide, in terms of making sure that each of those 
entities upholds its individual responsibility would absolutely 
be critical.
    Another key point that I think worked wonders in changing 
how people did work in New York City was describing what a 
quality investigation looked like. We had thousands of workers 
who were each making up the rules on each individual 
investigation. We created a quality case practice guide, not a 
must-follow, but a guide that framed what quality looked like. 
We trained supervisors in that, as well as workers in that, so 
that people had a sense of what they were required to do, such 
as making sure that you interview children away from the 
alleged perpetrator.
    I think that the critical challenge is also how do we 
broaden what we're trying to do in Clark County, beyond just 
the government social service entity, and engage the 
communities in being a part of the job protection effort in 
that county?
    As in New York City, as I'm sure happened in Illinois and 
in Los Angeles County, until you engage a cross-systems, 
community-based support around protecting vulnerable children 
where they live, government cannot do the job that we hold it 
responsible for doing. In Clark County, first and foremost, you 
have got to build an infrastructure to manage your child 
welfare system, and be focused on a clear plan of action, which 
is developing right now, but does not current exist, in terms 
of that county structure.
    Chairman MCDERMOTT. Thank you. We are going to move on to 
Mr. Porter.
    Mr. PORTER. Thank you. I thank you all, again, for your 
testimony. Mr. Cotton, if I could summarize why you were hired 
by Clark County to come in--that was because there were at 
least 79 children who had died of abuse or neglect at the hands 
of their parents, foster parents, or care givers, while under 
the watch of the Clark County Department of Family Service. Is 
that one of the reasons you were brought in to do your 
investigation?
    Mr. COTTON. Yes. Actually, there was a national panel put 
together to look at those 79 deaths, and how the county 
responded to them, and a lot of other issues, not just family 
services, but the police, the district attorney.
    When that report was written--and I was the only Nevada 
member on that, there were forensic pathologists, people from 
all over the country--when that report was written, Clark 
County looked at it, thought there were major issues, asked me 
to review, I think, about 135 cases.
    Part-way into that, I was about done with 85, I gave them 
an interim report. I think it was like a light going off, 
going, ``Oh, my gosh, what are we going to do?'' At that point, 
they asked me to do every--this 1,352 cases refers to every 
child under the age of 5 that has an open case in Clark County. 
So, at that point, we looked at every kid under five.
    Mr. PORTER. Most importantly, I know that Clark County is 
taking steps to try to improve their problems, and I think the 
State has been involved. Do you think the problem is adequately 
being taken care of? Is it being fixed in Clark County, or is 
it a Band-Aid?
    Mr. COTTON. It's very hard to tell, because one of the 
things I do want to differentiate--and I think this happened in 
both Illinois and New York--was when the systems were in this 
bad of shape, everything was put on the table. Everything was 
wide open. The media was brought in to just about every meeting 
we had. We said, ``We've got a big problem, we're going to fix 
it.''
    That's not what I see happening in Clark County right now. 
The most recent case you talked about is, again, behind closed 
doors. ``Let's not discuss it, let's not talk about what's 
going on.'' There are--well, I won't get into that--there are 
many other issues that I am just concerned about.
    Some of the reaction was, ``Let's try to make the problem 
seem less than it is,'' rather than saying, ``We've got a big 
problem, let's fix it,'' and I think that is what happened in 
both Illinois and New York. We said, ``We've got to fix it,'' 
we weren't saying, ``Let's see if we can mitigate it in some 
way.'' Everything was wide open. I don't feel that it is, right 
now.
    Mr. PORTER. What are some of the things you think are not 
being reviewed in public? What are some of those things, 
specifically?
    Mr. COTTON. Well, it's very interesting too--when Mr. Bell 
talks about the model investigation, we provided a model of 
practice for investigations for Clark County staff. We used it 
to evaluate families, or to evaluate the files. It was never 
provided to workers for training, the decision was made not to 
go with it.
    So, we don't know that they have a model. It looks 
piecemeal. They are given a risk assessment, they are given a 
safety assessment. Coordinating those into one model of 
practice, which I think is kind of what you were talking about, 
we provided that but it was never used, and still hasn't been 
used, as far as I know.
    So, I think that's part of the issue. I think it's kind of 
overwhelming, because you're not just talking about 
investigations, all the afterward caseworkers dealing with the 
foster families, other situations.
    There are some workers who would say, ``I don't visit the 
kids in foster homes, because they're safe in foster homes.'' 
There is a kid that's been beaten to death in a foster--
allegedly beaten to death--in a foster home. There is a child 
missing, a 3-year-old who has been missing, for 11 months from 
a foster home.
    So, for workers to assume that a child is safe because 
they're in a foster home, ``So, I don't have to visit them that 
frequently,'' is--it's absurd.
    Mr. PORTER. Are there some other steps that you think we 
should take as Congress at this point with that particular 
situation in Clark County?
    Mr. COTTON. I'm really not sure what steps you could take, 
as Congress.
    I think that oversight within the State of Nevada, that--
again, in Illinois and New York, when systems got fixed, the 
media was not the enemy. They became the partner. I think in 
Nevada, they're still seen as the enemy. They're still seen as, 
``Let's not get everybody on the same page here, and work 
together,'' it's, ``This advocate is bothering us. This person 
is a problem. This lawsuit is a pain,'' rather than, ``This 
thing is pointing out issues we need to address.''
    Let me give you, I'm sorry, one more quick example. When I 
did this report, we all knew, when it was going to be released 
publicly, it was going to be a bombshell, and in fact, 
negative. I repeatedly asked Clark County staff, ``Do you want 
to do this together, so we can talk about not just what's in 
it, but where we're going from here, and that we know about it, 
and we're fixing it?''
    I repeatedly was told, ``That's a good idea,'' and it never 
happened. It was dumped on the press 2 days before Christmas, 
hoping there wouldn't be much coverage, which is, to me, a 
strange way of doing business.
    Mr. PORTER. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you. Mr. Lewis will inquire.
    Mr. LEWIS. Thank you very much, Mr. Chairman, and thank you 
so much for holding this hearing today. I thank members of the 
panel for being here. It is good to see you again, Mr. Bell.
    I would just like to know, from members of the panel, any 
one of you, am I missing something? It appears to me that more 
and more children, whether a part of the foster care system, or 
whether they're outside of the system, are just falling through 
the cracks.
    There are all of these dramatic stories all over the 
country, where children, young kids, are being abused, harmed 
by relatives, some boyfriends or girlfriends. What's happening? 
Tell me.
    Mr. BELL. I would suggest, Congressman, that you're not 
missing something. I think the challenge here is more of a 
challenge of leadership and commitment than it is one of 
knowing----
    Mr. LEWIS. Is it because of more press attention? What's 
going on in America with children?
    Mr. BELL. Well, what's happening in America with children, 
and vulnerable children, is that families are overcome by the 
issues of poverty, the issues of substance abuse, the issues of 
domestic violence. Those issues result in children being 
harmed.
    I think the other side of that is that society is not 
responding in the way that it needs to for a very small number, 
in comparison, of children. There are a half-million children 
in foster care in this country. There are a million children 
who are abused and neglected in this country each year. That's 
a small percent, if you look at the larger percentage of 
children in this country.
    My contention--and I would believe the contention of 
members of this panel--is that we can fix this, if we commit to 
the leadership and the attention necessary to make it happen.
    In New York City, in Illinois, the chief politician, the 
Governor in Illinois--at that point in time, Rudy Giuliani, and 
later, Mike Bloomberg--said, ``I own this problem, and it is my 
problem to fix, and I'm going to fix it through the person that 
I have appointed to run the system. I'm going to give them the 
resources to hire competent leadership and competent managers. 
I am going to focus on training their frontline staff. I am 
going to make sure that I give the same kind of attention to 
vulnerable children as I give to the police department, as I 
give to the fire department, as I give to education.''
    I think that the first step in this process is we have got 
to elevate the needs of vulnerable children to that same level, 
and that even in tough budget times, the police department gets 
spared as much as possible. Children get cut. We have got to 
change that approach. Once----
    Mr. LEWIS. Well, wait, Mr. Bell, and other members of the 
panel. Do you think that we have come to that point in the 
history of our country, where we need to put children and 
families on the same level that we put other national concerns?
    Maybe we need a department, a cabinet-level department, of 
family and children services, or children and family services. 
Are we ready?
    Mr. BELL. I believe----
    Mr. LEWIS. The Chairman raised a point earlier about 
whether you can have 50 different standards. Should they be 
Federal standards?
    Mr. BELL. I believe that there should be Federal standards. 
I believe that HHS--and I don't think restructuring is----
    Mr. LEWIS. Why dump it on HHS?
    Mr. BELL. No. What I'm saying is that I don't believe that 
another restructuring is the answer. I think that we need to 
put our energy in place in the communities, where they need to 
be. We need to take on a sense of responsibility at a local 
leadership level.
    Children are raised in communities. Families are dying in 
communities. We have to get local politicians----
    Mr. LEWIS. Mr. Bell, it is not working. I know in Atlanta, 
in Fulton County, we changed department heads constantly.
    Mr. BELL. Right, and that is a part of the problem. On 
average, the tenure of a child welfare director in this country 
is 18 months to 2 years. There is absolutely no Fortune 500 
company that we would invest in that changed its CEO every 18 
months to 2 years.
    When I speak about leadership and commitment, I am really 
saying, ``Let's do what we know how to do.'' All of us in this 
room, if asked about how successful we have been, will point to 
how we have raised our children, and point to what we know how 
to do, in terms of how to raise children. We simply need to do 
that same thing for the vulnerable children in this country.
    In New York City, we have 59 community districts. It wasn't 
until we focused attention to recognize that 18 of those 59 
community districts were producing 60 percent of the kids who 
were coming into foster care, and when we targeted our 
attention, whether children were--put the services where the 
children were, we changed the outcomes for those children.
    We know where these children are in this country. If we 
were to put concentrated attention in those places where those 
children are, and do the things that have been done in other 
jurisdictions, and hold leadership accountable, we could change 
the outcomes for the children that we're talking about in this 
room. Clark County can be fixed. Atlanta and the State of 
Georgia can be fixed. Philadelphia can be fixed.
    If you can fix the State of Illinois--and fix doesn't mean 
that you won't have problems with children, because those 
problems are happening in families. We can respond in a way 
that changes the outcomes for those children, and we can 
prevent some of those problems from happening, if we simply do 
some of the same things that have already happened in many 
jurisdictions in this country.
    Chairman MCDERMOTT. Thank you very much. Mr. Davis will 
inquire.
    Mr. DAVIS. Thank you, Mr. Chairman. I know you haven't had 
a lot to say, Ms. Ashby, so I will make sure I point my 
question toward you so you can talk today.
    Ms. ASHBY. Thank you.
    Mr. DAVIS. Let me pose a general proposition, Ms. Ashby. I 
will ask you to be the first one to respond to it. Obviously, 
we have spent a lot of time today talking about the clear and 
present crises that exist in the system: children who are 
physically getting hurt; children who are being physically and 
emotionally abused. I take it that Clark County, Nevada is an 
especially poor example of a crisis.
    Let me try to reorient the conversation, though, a little 
bit. At best, it seems that the foster care system is one that 
is a stop gap in this country. It walks into a crisis point in 
a child's life. It places that child in a home for a temporary 
period of time. Essentially, we hope that no additional damage 
is done to the child.
    How do we measure long-term outcomes in the foster care 
system? How do we measure whether or not the kids who were 
placed in the system end up going to college, end up working 
productively, end up becoming parents, end up becoming 
successful, productive members of the community?
    I understand we're trying to prevent them from getting hurt 
and abused, but how do we have a much more ambitious vision of 
making them productive citizens in the community? Do we have 
any measurements in place, as to how foster kids are doing, 
once they age out of foster care? Ms. Ashby, do you want to 
pick up on that?
    Chairman MCDERMOTT. May I just interrupt, for just 1 
second?
    Ms. ASHBY. Certainly.
    Chairman MCDERMOTT. The reason Mr. Weller and I are leaving 
is that we've got a bill on the floor we have got to go deal 
with. So, it's not that we disrespect Mr. Davis's question.
    Mr. DAVIS. That's all right.
    Chairman MCDERMOTT. We want to thank you all for what you 
have done. Thank you very much. We will talk with you. If you 
have further things that you think of, after listening to one 
another talk, write to the Subcommittee, please. Thank you.
    Ms. ASHBY. Thank you. Well, I will try to respond to your 
question, first. Then there are a couple of things that I would 
like to say, with respect to other things that have been said 
this morning.
    Mr. DAVIS. Respond to my question.
    [Laughter.]
    Ms. ASHBY. I will respond to your----
    Mr. DAVIS. Thank you.
    Ms. ASHBY. I will do that. The short, direct answer is no, 
there are no measures that I am aware of, that would look at 
the long-term effects of people who have been in child care--
I'm sorry, the child welfare system.
    If they remain in and age-out, there are lots of studies 
and lots of examples of the poor outcomes for that group of 
people. Yes, they are the ones who end up incarcerated, for the 
most part. They have mental health problems. They are the least 
educated. Many end up homeless.
    The outcomes for young people who age out of the child 
welfare system are not good at all, and there are a number of 
studies that would support that.
    In terms of children that are adopted, or somehow have a 
permanent situation, I don't know of any studies. There may 
very well be studies that have looked at that, but I am not 
aware of any. I would imagine that their outcomes are dependent 
a lot on the families that end up adopting them. You know, like 
other----
    Mr. DAVIS. Well, let me----
    Ms. ASHBY [continuing]. Individuals, a lot depends on the 
parents.
    Mr. DAVIS. Well, let me stop you, just for the sake of----
    Ms. ASHBY. Certainly.
    Mr. DAVIS [continuing]. Try and see if we can get a factual 
foundation around this.
    Does anyone on the panel know what percentage of children 
who go in foster care end up in the work place within 4 years 
of the time they age out? Someone even have a number?
    Mr. BELL. Right now, the body of knowledge that we have on 
this subject matter really is related to those kids who age out 
of foster care. There have been a number of studies that have 
been done recently: the Northwest Alumni Study done by Casey 
Family Programs; Chapin Hall has done a study, the Midwest 
Alumni Study.
    What we know is that, for children who age out of foster 
care--the general population graduates from a 4-year college at 
about a 28-percent rate. Children who age out of foster care 
graduate at about a 3 percent rate.
    We know that children who age out of foster care are not 
employed at the same regularity as children--young adults--in 
the general population.
    We know that within 2 years of leaving a foster care 
system, that 50 percent of them are still on welfare. We know 
that 50 percent of them, by the age of 25, still do not have a 
high school diploma. So, there are education outcomes, there 
are employment outcomes, and the health and well-being outcomes 
are challenged. We think it's connected with being in foster 
care.
    Casey Family Programs has embarked on something we call a 
20/20 strategy, which is focused on this research piece that 
you're talking about, so that we know what is happening with 
children in foster care, focused on reducing the number of kids 
in foster care, and reinvesting those savings, but also 
concentrating on education, employment, and mental health 
outcomes for kids in care.
    The standards that you ask about, in terms of how do we 
know whether or not we've been successful, are the same 
standards that we look to for our own children. If they 
graduate from high school and college, if they have good health 
and mental health outcomes, and if they are able to get jobs 
and have livable wages to build their families. We know that 
far too many kids in foster care don't get that.
    Mr. DAVIS. Well, let me--if Mr. Lewis will indulge me to 
ask one question and get your response before we finish up 
today--the other thing that was striking to me, as I was 
preparing for this hearing, is the disproportionate number of 
children who are African American who are in the system.
    People don't end up in foster care because their families 
are poor. Obviously, there are a lot of more poor black people, 
in relative terms, than poor white people, in relative terms. 
That's not how people end up in foster care.
    So, I am trying to get some handle on why 35 percent of the 
children in foster care in this country are of one particular 
race, when only 15 percent of the children in this country are 
black. Is it reporting issues? Is it that, for whatever reason, 
systems are quick to pull the trigger and take kids out of a 
home if it's a black family?
    Can any couple of you speak to that issue? I appreciate Mr. 
Lewis indulging me on that question.
    Ms. ASHBY. We are doing a study for this Committee on that 
topic. I can't answer your question right now, because we're in 
the process of doing the study.
    I would like to say some things, however, about the Federal 
role----
    Mr. DAVIS [continuing]. Answer the question----
    Mr. BELL. I would like to touch on----
    Ms. ASHBY. I understand, but there are some things, 
questions that have been raised about the Federal role in all 
of this.
    Mr. DAVIS. Hold for 1 second. You will have an opportunity 
to do that, but because my time is limited, I need to make sure 
I get an answer to my question. Mr. Bell?
    Mr. BELL. Right. The answer to your question is it's a 
decisionmaking issue. It's not because families of color abuse 
or neglect their children at a rate that is higher than 
families that are not of color.
    It's the decision that gets made on the spot, on the 
ground, when judgments are being made about whether or not 
something happened, about what the remedy is, if something did 
happen. Is the family strong enough to take care of this child, 
or does this family need protective custody, in order to meet 
the needs of this child?
    Decisions that are made with respect to is this family 
ready to receive their child back from foster care, are they 
strong enough, in order to give the children what they need, 
and to carry them through life. Those are perception issues 
that are deeply embedded in how we perceive families in this 
country, how we perceive individual groups in this country.
    So, the challenge in overcoming it, aside from trying to 
fix the larger societal perspective on the strength or relative 
weakness of African American families, I think, is focused on 
how we make decisions in child protective services, and making 
sure that no single individual is making decisions solely based 
on perception, but that there are standards that are used for 
every single judgment that is being made, and that's where 
quality supervision comes in, and leadership around management 
comes in, in making sure that we make the right protective 
decision.
    It is absolutely true, that there are African American 
families that are abusing and neglecting their children. It is 
absolutely true that there are African American families who 
need to have children in foster care, but it is also true that 
there are more African American children in foster care than 
should be there, just as I believe that there are more 
children, in general, in foster care than should be there.
    Ms. HOLTON. If I could just very briefly jump in, I concur 
with Mr. Bell's remarks, but I would like also to say that I 
think poverty is a factor, and the over-representation of----
    Mr. DAVIS. Oh, there is no question about that.
    Ms. HOLTON. 100 percent, or at least 99.9 percent of the 
families that came before me in court, as a J&DR judge, with 
foster care matters were poor. We just, frankly, stopped doing 
the income affidavits at some point. It was almost not worth it 
for our--appointing counsel, for instance, because white/black/
Hispanic, everybody.
    The ability to obtain services and help without going 
through the formal system, absolutely, is much better in 
communities where there is money. Folks who don't know how to 
access services, or there aren't services available if they 
can't pay for them, their kids end up--they end up in more 
conflict within the families, and the kids end up neglected 
more, and they end up needing foster care.
    Mr. DAVIS. Understand, I absolutely don't mean to say that 
poverty doesn't play a role, I just wanted to make the point 
that poverty, by itself, didn't strike me as being predictive.
    Ms. NELSON. I agree with what William has said. I would 
also like to add two things. First, the disproportionality 
begins even before the call comes to the State agency. It 
begins with who reports.
    In many jurisdictions, African American children and 
families are reported at higher incidents, in very similar 
circumstances that other children might not be reported. So, 
that starts, that decisionmaking starts from even the person 
who calls in the report to the agency.
    The other thing I would just note is that, certainly in 
Iowa, and I think in many jurisdictions, we see a very similar 
level of disproportionality with Native American children.
    Mr. COTTON. Could I add very quickly that a second point is 
that the African American children tend to remain in foster 
care longer, and I think that ties to lots of issues, but one 
big one, which we haven't mentioned yet, and that's housing, 
that you have to have an appropriate residence to return a 
child to.
    A lot of times, you're getting workers looking at the 
parental home, because of poverty and other issues, and at that 
point saying, ``I can't return the child home yet, because of 
housing issues.''
    So, I know that ties to poverty somewhat, but over and over 
when we asked individual caseworkers what did they need to 
return kids home, they said, ``Housing.''
    Mr. LEWIS. [Presiding] Ms. Ashby, you wanted to say 
something about the Federal role.
    Ms. ASHBY. Yes. A question was raised earlier about Clark 
County, and what can be done at the Federal level. Perhaps what 
the role of Congress might be--or this Subcommittee might be--
to encourage HHS--and HHS is the Federal agency who is 
responsible for oversight of State child welfare programs. The 
administration for children and families.
    So, there is a Federal agency that has that responsibility 
now. For a situation that seems as bad and as dire as Clark 
County--and I'm sure that's not a unique county for that--the 
Federal Government can come in and look at the situation, and 
make recommendations. The Federal Government can withhold 
money, as the ultimate weapon. I know withholding money toward 
children, that wouldn't happen unless it were absolutely 
necessary.
    There are things that can be done, and the situation 
doesn't have to keep going on as it is.
    Mr. LEWIS. Well, let me, on behalf of the Chairman, the 
Ranking Member, and Members of the Subcommittee, thank each and 
every one of you for your testimony and for your being here 
today.
    I want to thank the first lady of Virginia. Say hello to 
the Governor. It's good to see you. Thank you, Ms. Ashby, Mr. 
Bell, Ms. Nelson, Mr. Cotton. We may be calling on you again. I 
think this is an issue that, as a congress, and as a 
Subcommittee, we must continue to deal with.
    We have unbelievable problems facing our children, and we 
must confront these problems head on, and not try to sweep them 
under the table in some dark corner, never to be seen or heard 
from. So, thank you again, for being here.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]
    [Submissions for the Record follow:]

    [GRAPHIC] [TIFF OMITTED] 43094A.201
    


    [GRAPHIC] [TIFF OMITTED] 43094A.202
    


    [GRAPHIC] [TIFF OMITTED] 43094A.203
    


    [GRAPHIC] [TIFF OMITTED] 43094A.204
    


    [GRAPHIC] [TIFF OMITTED] 43094A.205
    


    [GRAPHIC] [TIFF OMITTED] 43094A.206
    


    [GRAPHIC] [TIFF OMITTED] 43094A.207
    


    [GRAPHIC] [TIFF OMITTED] 43094A.208
    


    [GRAPHIC] [TIFF OMITTED] 43094A.209
    


    [GRAPHIC] [TIFF OMITTED] 43094A.210
    


    [GRAPHIC] [TIFF OMITTED] 43094A.211
    


    [GRAPHIC] [TIFF OMITTED] 43094A.212
    


    [GRAPHIC] [TIFF OMITTED] 43094A.213
    


    [GRAPHIC] [TIFF OMITTED] 43094A.214
    


    [GRAPHIC] [TIFF OMITTED] 43094A.215
    

                                 <F-dash>


[GRAPHIC] [TIFF OMITTED] 43094A.301



[GRAPHIC] [TIFF OMITTED] 43094A.302



[GRAPHIC] [TIFF OMITTED] 43094A.303



[GRAPHIC] [TIFF OMITTED] 43094A.304



[GRAPHIC] [TIFF OMITTED] 43094A.305



[GRAPHIC] [TIFF OMITTED] 43094A.306



[GRAPHIC] [TIFF OMITTED] 43094A.307



[GRAPHIC] [TIFF OMITTED] 43094A.308



[GRAPHIC] [TIFF OMITTED] 43094A.309



[GRAPHIC] [TIFF OMITTED] 43094A.310


                                 <F-dash>
           Statement of Children's Law Center of Los Angeles,
                       Monterey Park, California
    Children's Law Center of Los Angeles is a nonprofit public interest 
legal organization that serves as the ``voice'' for abused and 
neglected youth in the largest foster care system in the nation. The 
dedicated attorneys and staff at the Children's Law Center represent 
more than 22,000 children in Los Angeles County dependency court. We 
advocate day-by-day, child-by-child, and case-by-case on behalf of our 
young clients. We also learn from our experience with individual 
clients and use that knowledge to advocate for concrete solutions to 
problems and for broader system reforms.
    We are heartened by the commitment shown by the Subcommittee on 
Income Security and Family Support to improving the lives of the more 
than half a million children living in the nation's foster care system. 
We hope to draw your attention especially to the areas of federal 
funding reforms, provision of adequate mental health services to 
children in foster care, and assistance to youth who age out of the 
foster care system without a permanent support system to rely upon.
Financing: Mental Health Services:
    Key recommendations in the report growing out of the Mental Health 
Summit include ensuring timely and quality screenings and assessments, 
instituting early intervention and prevention programs, promoting 
evidence based practices, enhancing access to services, facilitating 
system collaboration and communication, and enhancing the voice of 
youth in this process. Consistent themes centered on the need for 
better communication, collaboration, tighter controls on the use of 
psychotropic medications and oversight among the multiple systems 
charged with caring for abused and neglected children. Lack of 
continuity of care and frequent changes or interruptions in therapeutic 
relationships is a significant barrier to improved mental health 
outcomes and overall well-being.
    Over reliance on congregate care and extreme shortages in 
therapeutic foster care placements may be the single most troubling 
aspect of our nations response to children with mental and emotional 
health problems. Until children can find loving families trained to 
provide individualized foster care in a family setting we will continue 
to see children leaving our foster care system in worse shape than when 
they came into care. Children cannot heal let alone flourish when they 
are raised institutions and cared for by shift workers. Even the most 
dedicated group home staff, the most skilled psychiatric technician and 
the most nurturing nurse or clinical social worker cannot be a 
substitute for a stable family with a lifetime commitment. Specialized 
training for parents, relatives and foster parents will allow many 
children who are currently institutionalized to find their way in their 
communities.
    Youth Aging Out of Foster Care: While foster care numbers are 
declining, both the numbers and percentages of youth aging out of care 
on their own is increasing across the country. Foster care was intended 
to be a temporary solution, until families could get their lives back 
on track, but for many children it has become a long-term living 
arrangement.
    Youth who leave foster care at about age 18 are often ill-prepared 
for living independently. They have no safety net, and too many will 
experience unemployment, poverty, homelessness, and even come into 
contact with the criminal justice system within the first two years of 
leaving foster care. We need to do more to ensure that youth entering 
foster care will find a permanent family to love, nurture, and protect 
them. For youth who leave foster care on their own, we need to provide 
more help with practical life skills including how to act in a job 
interview, help in obtaining a drivers license, and information about 
programs that can assist youth with housing needs and provide personal 
guidance in enrolling in a college or trade school. Once out of care 
youth should have access to supportive services aimed helping them 
transition to total independence including transitional housing, 
specialized programs on college campus, and access to health and mental 
health care.
    For some young people there are little or no such programs and for 
others supports that are available end abruptly at age 21. Significant 
research shows however, that the majority of young people in America do 
not become fully independent until age 25 and that former foster youth 
who receive supportive services past the age of majority experience 
better outcomes than those who do not.
    Quality Representation and Youth Participation in their Own Cases: 
The availability and quality of legal representation varies 
dramatically from state to state, county to county and even child to 
child. A strong legal advocate provides the bridge between the child 
and the court and between the child and needed services. While all 
would agree that the child is theoretically the most important person 
in a any dependency court proceeding, neither policy nor practice 
stands true to that ideal. Children are often not recognized as a party 
to the proceeding, are rarely welcome in the courtroom and even in 
states where the child is statutorily permitted in the courtroom there 
are multiple barriers which prevent children and youth from actually 
attending the hearings. For the few who do attend their own court 
hearing adult resistance to their participation is common. This 
posture, often couched in protective terms, is in reality harmful to 
the child and jeopardizes the integrity of the judicial process.
    When children and youth are active participants in their own cases 
and are supported by a strong advocate the court will have better 
information, will better appreciate the child's hierarchy of needs and 
will be better able to make and enforce orders aimed at addressing the 
many issues this committee and other witnesses have identified.
Conclusion and Recommendations:
    It is up to Congress to take these accumulated recommendations to 
heart and undertake now to institute concrete reforms. Each day we 
delay, an average of nearly 1,500 children in the U.S. enter the foster 
care system, and 62 foster youth will age out of the system without 
having found a permanent, loving family. Our nation cannot afford to 
fail our most vulnerable children in this way.

                                 <F-dash>
   Statement of County Welfare Directors Association of California, 
                         Sacramento, California
Hearing in Challenges Facing the Child Welfare System
    The County Welfare Directors Association of California (CWDA) 
appreciates the opportunity to submit testimony for the record on the 
challenges child welfare agencies face in serving children under their 
supervision. CWDA has long advocated for changes to the federal child 
welfare financing structure in order to better serve abused and 
neglected children and their families. We welcome the Subcommittee's 
interest in improving the child welfare system and will work with you 
in those efforts.
    Each of California's 58 counties operates a child welfare program, 
under state oversight and in accordance with federal and state rules 
and regulations. Not only do those programs depend upon revenues 
generated by each county, but a large share of child welfare financing 
depends upon state and federal funding streams.
    Our State's child welfare system is the largest in the nation, with 
nearly 80,000 children in our foster care system. CWDA is working 
actively with the state legislature and the state executive branch on a 
number of child welfare initiatives. This statement, however, focuses 
on a few key federal changes we urge Congress to make this year. Our 
statement also wishes to highlight a report it released this month 
documenting the need for greater investment in family caregiver support 
and recruitment.
    CWDA supports comprehensive reform of the child welfare system. 
There are, however, some specific changes Congress can act upon this 
year which would improve the lives of children and their families. 
Those issues are described below.
Criminal Records Checks
    CWDA supports retaining the ability of the State of California and 
its counties to continue administering their own system of conducting 
criminal background checks when licensing or approving foster and 
adoptive parents, including relative caregivers. Enacted last year, the 
Adam Walsh Child Protection and Safety Act (P.L. 109-248) arbitrarily 
eliminated the current statutory authority for states to implement 
their own system of conducting criminal background checks, effective 
October 1, 2008. California has utilized an option under prior federal 
law to implement a criminal background check system that is more 
comprehensive and detailed than federal law. While federal law focuses 
only on felony convictions, the State reviews all convictions--
including misdemeanors--other than minor traffic violations.
    California law gives the State limited, case-by-case discretion to 
approve persons with certain types of past convictions when it is in 
the best interests of a child to do so, as long as there is evidence 
that the applicant is of good moral character and the approval would 
not be detrimental to the child's safety or well-being. State law also 
contains a list of crimes that are not exemptible under any 
circumstances. While federal law allows exceptions, they are in 
extremely limited circumstances that do not appropriately balance the 
best interests of children against the concerns that are understandably 
raised when a background check reveals a past conviction.
    The new one-size-fits-all federal mandate `fixes' a problem that 
does not exist and may force more children from relative care into 
foster care.
    CWDA is joined by children's advocacy groups such as the Child 
Welfare League of America and the Children's Defense Fund, as well as 
the State and City of New York to retain State and local flexibility 
that is more nuanced than federal law and has never resulted in a 
situation that has harmed a child.
    Earlier this year, CWDA collaborated with California's Department 
of Social Services to survey counties' use of criminal records 
exemptions they granted to relative caregivers seeking approval to care 
for abused and neglected children. Thirty-three of the State's 58 
counties responded, representing 91.3 percent of the children placed 
with relatives statewide as of October 2006.
    According to the survey results, the exemptions process is rarely 
used, with only four percent of the 3,381 homes receiving one in the 
third quarter of calendar year 2006. When the process is employed, 
however, it makes a huge difference in the lives of the children and 
families involved. Here is one real example of how California's process 
has made a difference in a family's life.
    Four Latino siblings, ages 2, 5, 10 and 12, were taken into custody 
when their parents went to jail on drug-related charges. The 5-year-old 
has special health care needs and is diabetic and requires insulin 
injections. The children were placed in foster homes on an emergency 
basis while relatives were located and evaluated for placement.
    The children were not able to all be placed in the same home, and 
the 5-year-old had to be placed in a medically fragile home due to her 
medical condition. Only the 10-year-old was able to be placed in a home 
near his school. The 2- and 12-year-old were placed together in a 
foster home that was quite a distance from where they lived with their 
parents and had to be enrolled in another school mid-year.
    The children's maternal grandparents desired to care for the 
children and had been an active part of their schooling as well as the 
5-year-old's medical care. They also lived in the same neighborhood as 
the parents of the children. The grandfather had a conviction for 
spousal abuse to his current wife that was 15 years old. The 
grandparents readily admitted to the domestic violence in the past and 
felt they had learned from and overcome this. They were able to show 
proof that they had successfully completed therapy together and the 
grandfather had completed an anger management course. The children have 
never known the grandparents to be violent in any way. They often spend 
weekends at their home and take trips with them.
    The exemption for the grandfather's conviction was granted and all 
4 children were placed in the care of their grandparents within 2 
weeks. The children have all returned to their original school and the 
5-year-old is healthy and doing well. The children maintain regular 
contact with their parents and the grandparents are actively involved 
in the reunification plan and assist the parents to be successful in 
their drug rehabilitation.
    A chart documenting the survey results is attached at the end of 
this statement.
Accessing Other States' Criminal Background Check Registries
    In addition to eliminating states' ability to establish their own 
background check requirements, effective October 1 of this year, the 
Adam Walsh Act also requires states to conduct criminal background 
checks in other states when a person applies for licensure as a foster 
care provider. CWDA supports this requirement, but there is no national 
infrastructure to support the process at this time. Without an 
automated verification system, child welfare staff will face lengthy 
delays in recruiting and approving new homes. Until there is federal 
funding to build and successfully launch a national registry database, 
CWDA urges Congress to enact a statutory change to delay the effective 
date of the requirement until the system is created.
SSI Eligibility for Foster Youth
    Every year over 4,000 young people emancipate out of California's 
foster care system. The outcomes for them are poor. Sixty-five percent 
age-out without a place to live; 51% are unemployed; and less than 3% 
go to college.
    Foster youth with physical and mental disabilities are even more at 
risk and vulnerable than the general foster care population. A 
provision in federal law makes it even more difficult for those youth 
to make a successful transition. Currently, counties cannot file an 
application for Supplemental Security Income (SSI) while a disabled 
youth is receiving Title IV-E foster care payments. Even for youth with 
disabilities who are likely to be SSI eligible as adults, counties are 
not allowed to file the application until the youth leaves foster care, 
resulting in a three- to six-month period in which he or she has no 
source of income. Some of these youth become homeless and/or involved 
in the criminal justice system while they await approval from the 
Social Security Administration. While retroactive benefits are paid 
back to the date of application, the lump sum does not address the 
immediate crises many of these youth experience in the interim.
    The State of California has requested a meeting with the Social 
Security Administration in Region IX to explore policy changes or a 
potential waiver to allow applications to be made prior to 
emancipation.
    Ironically, SSI-eligible prisoners with disabilities leaving the 
criminal justice system receive payments immediately upon release. We 
recommend the enactment of legislation to enable SSI applications to be 
filed for youth who are nearing the age of emancipation from foster 
care, in anticipation that the benefits will start immediately when the 
youth is emancipated.
    The Board of Directors of the National Association of Counties 
(NACo) approved unanimously a policy in March urging Congress to adopt 
legislation to remedy this problem.
Family Caregiver Recruitment and Support
    CWDA partnered with the Legal Advocates for Permanent Parenting to 
publish a report this month documenting the dire need for increased 
investments in family caregiver recruitment and support. The full 
report, ``No Family, No Future'' may be accessed at: http://
www.cwda.org/downloads/FamCarePolicyRep.pdf
    The report notes that 77 percent of surveyed California counties 
report a loss in licensed foster family homes in the last decade. In 
those counties with longitudinal data, the number of licensed foster 
homes has declined an average of 30 percent. A combination of low 
reimbursement rates and high housing costs contributed to this decline. 
According to the report, the minimal cost of raising a child exceeds 
the foster care board and care rate by over 43 percent. In fact, 
kennels in California charge an average of $620 per month to care for a 
dog compared to $494 per month for basic board and care for a foster 
child.
    At the same time that licensed foster family home placements have 
decreased, foster family agency and group home placements have been 
rising. These factors have contributed to a mismatch in the placement 
of children. Less than 50 percent of California's foster children are 
living in the most preferred type of placements--37 percent with 
relatives and only 10 percent with licensed foster families.
    To address these issues, CWDA is working with the state legislature 
to enact a critical first step in attempting to stop the decline in the 
number of family caregivers. CWDA is supporting a bill (AB 324 (Beall)) 
which increases the basic foster parent rate by five percent in 2008, 
with inflationary increases thereafter. The measure also creates a 
recruitment, retention and support program to support foster parents.
    CWDA urges Congress to make similar federal investments to support 
family caregivers.
Federal Funding for Guardianships
    About 40 percent of all children first entering foster care in 
California live primarily in a relative care placement. Research 
indicates that these children are more likely to be placed together 
with their siblings, less likely to have move from one foster home to 
another and more likely to maintain family relationships and avoid 
homelessness when they turn 18 than children who are placed with non-
relatives.
    CWDA strongly supports federal financing of guardianships. Due to 
the success of California's ground-breaking KinGAP program created in 
1998, about 16,000 California children are today living in safe, 
loving, permanent homes with relatives and have been able to leave the 
formal foster care system. Participants receive monthly subsidies equal 
to the amount they would have received as foster parents, with a 
sliding scale based on regional costs and the age of the child. KinGAP, 
however, cannot assist non-relatives who assume guardianship of 
children, because of TANF funding rules. The use of TANF dollars, which 
are increasingly scarce, to fund KinGAP also places the program in 
danger of future cutbacks.
    CWDA supports federal legislation such as that authored by Rep. 
Davis (D-IL) (H.R. 2188) to include guardianships as an allowable 
activity under Title IV-E, and to enable children placed into 
guardianships to retain IV-E eligibility, with the maintenance subsidy 
payable to the guardian. Continued receipt of IV-E funding would be 
consistent with the federal Adoption and Safe Families Act of 1997 
(ASFA), which contains provisions aimed at promoting adoption and 
permanent placement for children removed from their homes due to abuse 
or neglect. Given the evidence that such placements lead to better 
outcomes for children, the federal government should support this 
permanency option.
    CWDA appreciates the opportunity to submit this statement for the 
hearing record and stands ready to work with Subcommittee members to 
improve the nation's child welfare system.
County Welfare Directors Association of California (CWDA)
California Criminal Records Exemption Survey
March 2007
    Counties were asked to provide data regarding the criminal records 
exemptions they granted to relative caregivers seeking approval to care 
for abused and neglected children. The survey period was the quarter 
July through September 2006. Of California's 58 counties, 33 responded, 
representing 91.3 percent of the children placed with relatives 
statewide as of October 2006.
    According to the survey results, the total number of homes approved 
during the quarter (with or without exemptions) was 3,381. The number 
of homes for which exemptions were approved, 148, represents 4 percent 
of the total. Note that a home can receive more than one exemption.
    Extrapolating to the entire caseload, it is estimated that a total 
of 3,702 homes were approved during the quarter, with 162 homes (4 
percent) receiving exemptions.
    The types of crimes for which exemptions were granted breaks down 
as follows:


----------------------------------------------------------------------------------------------------------------
                                                                   Exemptions by    Exemptions     Extrapolated
                          Type of crime                               survey       extrapolated      to annual
                                                                     counties        statewide        number
----------------------------------------------------------------------------------------------------------------
Felony not allowed under federal statute                                     20              22              88
----------------------------------------------------------------------------------------------------------------
Felony barred for five years under federal statute                           64              70             280
----------------------------------------------------------------------------------------------------------------
Felony for which an exemption is required under CA statute only              92             101             404
----------------------------------------------------------------------------------------------------------------
Misdemeanor exemptions granted (CA statute only)                          1,147           1,256           5,024
----------------------------------------------------------------------------------------------------------------
Number of homes receiving exemptions (unduplicated)                         148             162             648
----------------------------------------------------------------------------------------------------------------
Total number of homes approved with or without exemptions                 3,381           3,702          14,808
----------------------------------------------------------------------------------------------------------------
Percent of homes receiving exemptions                                        4%              4%              4%
----------------------------------------------------------------------------------------------------------------


    Of the exemptions granted during the course of a year, an estimated 
88 would be for crimes for which the federal government would never 
allow an exemption, and 280 were for crimes that must be older than 5 
years prior to an exemption being granted. These are exemptions that, 
if no longer allowed, could delay placement for children who have been 
abused or neglected or result in placements with non-relatives instead 
of relatives who would have otherwise been able to provide stable, 
safe, loving homes for them.
    Note that it is not known how many of the 280 exemptions for which 
the federal government requires five years to have passed would have 
been unallowable under federal law because they were committed less 
than five years ago. The survey did not request this information.

Supplemental Sheet
Submission for the Record
Hearing on Challenges Facing the Child Welfare System
Statement on behalf of the County Welfare Directors Association of 
California
Person Submitting Statement
Frank J. Mecca
Executive Director
County Welfare Directors Association of California
Sacramento, California 95814
Tom Joseph
Director, CWDA Washington Office
Waterman & Associates
Washington, DC 20002

    Mr. Mecca's statement is made solely on behalf of CWDA and does not 
speak for any other party or organization.

                                 <F-dash>
                        Statement of First Star
    In abuse and neglect cases, court orders determine a child's 
future, including whether the child will remain in his or her home, the 
nature and duration of any placement outside the home, the child's 
contact with parents and other relatives, and the child's access to 
social services. Clearly, a child's interest in these proceedings is of 
fundamental importance. However, the level to which children are 
involved with their legal representation in court varies not only from 
state to state, but from case to case, and all too often, from hearing 
to hearing. The root of these inconsistencies lies in the lack of 
uniform standards for the representation of children, coupled with the 
lack of sufficient training necessary for attorneys to provide adequate 
representation to their child clients.
    The states' use of different statutory language and mandated roles 
for child representation has led to much confusion within the field. 
Although child welfare advocates, over the past two decades, have been 
diligent in their zeal to improve and enhance legal representation by 
developing several sets of guidelines and standards in an attempt to 
provide some consistency among state laws, there is still no 
established binding legal authority defining the role attorneys should 
play in representing children, the type of training that will 
sufficiently prepare them, or the duties and responsibilities entrusted 
to each one.
    While 35 states and the District of Columbia require that a lawyer 
be appointed to a child in dependency and foster care proceedings, only 
17 states require that the lawyer be ``client directed,'' represent the 
child's ``expressed'' wishes, and require that the child be heard in 
court. (A Child's Right to Counsel. First Star's National Report Card 
on Legal Representation for Children 2007) Children in abuse and 
neglect hearings often do not receive the kind of legal representation 
that allows the child equal access to justice and to have his or her 
own voice heard in a court of law.
    In fact, most official consideration of a child's ``best 
interests'' in abuse, neglect and dependency determinations takes place 
without the child being heard, without the necessary resources and 
without the trained, qualified investigation and deliberation that 
would best serve the child. Each state should require mandatory 
appointment of an independent attorney to every child in dependency and 
foster care proceedings. A child's cognitive and developmental 
abilities and the child's ability to express his or her wishes to the 
court should be considered and decided by the child's attorney. It is 
the attorney's role to decide if a child can present his or her wishes 
and goals; by allowing the judiciary to make such decisions for the 
child interferes with the independent judgment that a lawyer would 
apply to representing a client.
    According to the American Bar Association (ABA), ``the term 
`child's attorney' means a lawyer who provides legal services for a 
child and who owes the same duties of undivided loyalty, 
confidentiality, and competent representation to the child as is due to 
an adult client. ``Traditional'', ``client-directed'' or ``expressed 
interest'' attorneys are governed by the Model Code of Professional 
Responsibility, the same code that governs attorneys representing 
adults, and must abide by the child clients' expressed wishes 
concerning the objectives of the representation, counseling them on 
those objectives.
    The National Association of Counsel for Children has amended the 
ABA and Model Code standards to provide an alternate representation 
scheme in certain circumstances, particularly where very young children 
are concerned. Should the attorney feel that the child's expressed 
preference conflict with his or her best interest, a GAL should be 
appointed to advocate the best interest position. The attorney may 
counsel the child as to what may be in his or her best interest; 
however, the decision regarding what position will be advocated in 
court remains in the hands of the child. In cases where direct danger 
is likely to result from advocating the child's preference, the 
attorney-client privilege may be abrogated. The ABA states quite 
clearly that a ``nonlawyer [GAL] cannot and should not be expected to 
perform any legal functions on behalf of a child.''
    The child welfare system is intricate--involving many agencies, 
organizations, and individuals. Ultimately, however, it is state 
government that has primary responsibility for carrying out child 
welfare programs and for protecting children in their care and custody. 
But because states retain significant latitude in the design and 
delivery of child welfare services, there is significant variation 
across states in practice and policy. It is clear, then, that in order 
to effectuate the best practices throughout the states with regards to 
representation of children in abuse and neglect proceedings, the 
federal government must play a vital role.
    The federal government's responsibility to abused and neglected 
children must include creating and implementing a common policy 
framework in which representation of children should be carried out; 
sharing in the financing such representation; and, holding states 
accountable both for using federal dollars in an appropriate manner and 
for achieving the results that federally sponsored programs are 
intended to accomplish.
    As such, Congress should encourage the development of national and 
state professional standards to ensure that attorneys representing 
children in maltreatment and dependency cases are trained in child law 
and provide effective representation to their child clients. National 
uniform standards for practice, such as the American Bar Association's 
Standards of Practice For Lawyers Who Represent Children In Abuse and 
Neglect Cases (1996) and the National Association of Counsel for 
Children's Recommendations for Representation of Children in Abuse and 
Neglect Cases (2001), should be further developed and their adoption 
strongly encouraged by federal law to the full extent possible.
    In addition, Congress should amend the Child Abuse Prevention and 
Treatment Act (CAPTA) to require:

    <bullet>  That an independent, competent, and zealous attorney be 
appointed to represent the interests of children in all child abuse and 
neglect proceedings
    <bullet>  That attorneys be trained and practice in accordance with 
the standards arrived at by the American Bar Association.
    <bullet>  Every child shall be entitled, to the fullest extent 
possible given the child's cognitive and developmental capacity, to 
contribute his or her voice to the proceedings through counsel.
    <bullet>  That each state report on its current representation 
model and standards, stated goals for the representation of children, 
and steps being taken towards their implementation.
    <bullet>  Better oversight and enforcement of the Act's provisions, 
including strict penalties for states that delay in complying with such 
standards to protect children.

    Thirdly, Congress should work to pass new authorizing legislation 
in order to attract and retain trained and qualified lawyers in the 
dependency practice area by the development and implementation of 
standards for reasonable compensation for dependency counsel; the 
establishment of loan forgiveness programs for children's counsel; the 
development and implementation of standards for reasonable attorney 
caseloads; and the allocation or resources and support for attorney 
training. This should be done concurrently with the explicit rejection 
of any proposed legislation that weakens a federal or state position on 
the need for competent, trained legal counsel working for abused, 
neglected and dependent children.
    Lastly, Congress must ensure legal services for children by 
assisting the states in providing such services. A state's dependency 
law should be designed to promote the safety, stability, and well being 
of children through the provision of high quality legal services for 
child clients. To this end, all states should:

    <bullet>  Require a statutory right to counsel for every child 
involved in child welfare proceedings;
    <bullet>  Require that counsel for children advocate for the 
expressed wishes of the child in a client directed manner;
    <bullet>  Provide specific training requirements for all child's 
counsel and mandate multidisciplinary interaction between counsel and 
other professionals;
    <bullet>  Require that a child be considered a party entitled to 
notice, and be present in all child protective, foster care or 
dependency proceedings;
    <bullet>  Specify that each juvenile has the right to continuous 
representation by the same counsel at all stages of the proceedings, 
including all reviews and appeals and;
    <bullet>  Ensure that all children's counsel be bound by the 
ethical and professional responsibilities established by the 
traditional attorney-client relationship, including the duty to 
maintain client confidences. The law must contain appropriate 
provisions to account for a client with diminished capacity. In 
addition, the law must reject any immunity from malpractice liability 
for children's counsel.

                                 <F-dash>
                    Statement of Generations United
    Generations United is pleased to submit testimony to the 
Subcommittee on Income Security and Family Support. This testimony 
addresses the needs of children and youth who are being cared for by 
relatives both inside and outside the formal foster care system.
    As an organization dedicated to bolstering communities through 
meeting the needs and promoting the strengths of all generations, 
Generations United (GU) has a special interest in ensuring that 
grandparents, other caregiving relatives, and the children they raise 
lead healthy and stable lives. Generations United is in a unique 
position to address the issue of relatives raising children from the 
perspectives of both the young and old. As a result Generations United 
has emerged as the national leader in a growing field of organizations 
focused on the more than 6.7 million children being raised in 
grandparent- and other relative-headed households.

                               BACKGROUND

    More than 6.7 million children are being raised in a home run by 
their grandparents or other relatives according to the U.S. Census 
Bureau's 2005 American Community Survey. This represents an increase of 
more than 222,000 children or 3.4 percent since 2000. Overall, about 
one of every 12 children in this country lives in a household headed by 
a grandparent, aunt, uncle, sibling or other relative. Nearly 2.5 
million grandparents take primary responsibility for their 
grandchildren--perhaps because of parental illness, substance abuse, 
incarceration, poverty or the exigencies of an increasingly mobile 
workforce. Many of these children live with relatives because they have 
suffered neglect or abuse in the parental home. Relatives save the 
state millions of dollars each year, and keep millions of children out 
of state custody, by raising them when their parents cannot. There is 
very limited help available to families like this, and the help there 
is can be very hard to find.
    Some relatives become registered foster parents in order to take 
care of children. On any given day over half a million children are in 
the foster care system. About one quarter of these live with relatives. 
Many of the children will be able to be reunited with their parents. 
Others will be adopted by the relatives who took them into their homes. 
But some--nearly 20,000--languish in foster care after courts have 
decided that reunification and adoption are just not an option. 
Although being a part of the formal foster care system opens the door 
to many helpful resources, it is not an ideal long-term solution. For 
this group of children, their best hope of a permanent home is 
guardianship. Children in foster care can often find a safe and stable 
home with family members, but some need federal help to make that home 
permanent.

                                RESEARCH

How Children Fare In Relative Care
    The research in this section is drawn from a report published by 
Generations United, Kids Are Waiting and the University of Illinois 
titled Time for Reform: Support Relatives In Providing Foster Care And 
Permanent Families For Children. It shows that children are safe, 
stable and connected in relative homes. Initially, relative foster care 
was seen primarily as an emergency response to provide care for 
children entering foster care. Over time, however, practitioners began 
to observe, and research confirmed, that many children placed with 
relatives fared better than children placed with non-related foster 
families. Research shows that children in relative foster care 
placements as compared to those in non-relative foster care are: safe 
if not safer; more stable; more likely to remain with siblings; and 
more likely to stay connected to community and culture. Relative 
placements are often overlooked as a safe, permanent option for 
children. In many states, a preference for placement with relatives has 
been codified in law and practice, however, this is practice is not 
implemented nationwide.\i\
---------------------------------------------------------------------------
    \i\ The federal Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996, provides that ``in order for a State to be 
eligible for payments under this part [Title IV-E], it shall have a 
plan approved by the Secretary which . . . provides that the State 
shall consider giving preference to an adult relative over a non-
related caregiver when determining the placement for a child, provided 
that the relative caregiver meets all relevant State child protection 
standards.'' 42 U.S.C. Sec.  671(a)(19).

    Safety: A federally funded study in 1999 that examined rates of re-
abuse of children found that children in foster care who were placed 
with relatives did not experience higher re-abuse rates than children 
with unrelated foster parents. More recent studies also reveal that 
children placed with relatives are often safer. In fact, research in 
Illinois from 1995 to 2005 shows lower rates of abuse in relative homes 
than in homes of unrelated foster parents. The findings demonstrate 
that with appropriate screening for safety, the homes of relatives are 
---------------------------------------------------------------------------
just as safe if not safer than the homes of unrelated foster families.

    Stability: It is widely recognized that moving children from one 
home to another is detrimental to their physical, emotional and 
developmental well-being. For children in foster care, stability is 
usually measured by whether and how often children experience changes 
in foster care placement over the course of a year. National data show 
that children placed with relatives are less likely to have a change in 
placement. According to the latest national data (2002), 82% of 
children in foster care who were placed with relatives were with the 
same caregivers one year later, compared to 65% of children placed with 
non-relatives.

    Sibling Connections: Placements with relatives help to reduce the 
trauma and separation that accompany children's removals from their 
parents by preserving children's important connections to their 
siblings. Research shows that sibling relationships play a major role 
in how children develop and learn to interact with other people.\ii\ 
Children placed with relatives are more likely than children in non-
relative homes to be placed with their siblings. Research in California 
shows that 40% children placed with relatives are not living with all 
of their siblings in care while 64% of those in non-relative homes are 
not living with all of their siblings.\iii\
---------------------------------------------------------------------------
    \ii\ Begun, A.l.(1995). Sibling relationships and foster care 
placements for young children. Early Child Development & Care, 106-237-
250.
    \iii\ Needell, B., Webster, D., Armijo, M., Lee, S., Cuccaro-
Alamin, S., Shaw, T., Dawson, W., Piccus, W., Magruder, J., Exel, M., 
Smith, J., Dunn, A., Frerer, K., Putnam Hornstein, E., & Ataie, Y. 
(2006). Child Welfare Services Reports for California. Retrieved 
[January 23, 2007], from University of California at Berkeley Center 
for Social Services Research website. URL: <http://cssr.berkeley.edu/
CWSCMSreports/>

    Community Connections: Children with relatives are also more likely 
to maintain ties to their community, school and culture. For example, 
research shows that fewer children in relative foster care report 
having changed schools (63%) than do children in non-relative foster 
care (80%).\iv\
---------------------------------------------------------------------------
    \iv\ National Survey of Child and Adolescent Well-Being (NSCAW) CPS 
Sample Component Waiv 1 Data Analysis Report, April 2005. (Washington 
D.C.: U.S. Department of Health and Human Services, ACF, 2005).

    Permanent Homes: Relatives are frequently willing to provide a 
permanent home, as long as they have the crucial financial resources to 
do so. Research in Illinois found that 80% of relatives caring for 
children viewed them as ``already home.'' Two thirds of these were 
willing to consider adoption. For the remaining one third--caregivers 
who want to offer a permanent home, but don't want to adopt--
guardianship is an important permanency option. There are a lot of 
reasons why adoption might just not be right for a family. Sometimes 
the reasons are personal, sometimes cultural.

                            RECOMMENDATIONS

Allow States to Use Title IV-E Funding to Support Subsidized 
        Guardianship Programs
    A fundamental step that could help many children being raised in 
grandfamilies would be to enact the Pew Commission on Children in 
Foster Care's recommendation that federal guardianship assistance be 
available to all children who exit foster care to live with a safe, 
legal guardian when adoption or reunification with parents is not a 
viable permanency option.
    The Pew Commission's recommendation would help give permanent homes 
to about 20,000 children who have lived for a year or more in 
grandfamilies in the foster care system, but cannot leave the system 
because they do not have any other options.\v\ For these children, a 
court has already ruled that reunification with the parents or adoption 
is not feasible. However, leaving the system without financial 
assistance is often not an option because the caregivers cannot afford 
to give up the monthly financial stipend that foster care provides for 
these children they did not expect to raise. So, despite the fact that 
the children are in loving, safe homes, the children and their relative 
caregivers remain in the system. They have to routinely meet with 
social workers and judges who could at any time remove a child from the 
relative's care. Because the state has legal custody of the child and 
is the only legally recognized decision-maker, the caregiver and child 
have to get permission for ordinary childhood activities that most of 
us take for granted. If the child wants to sleep over at a friend's 
house or go on a school field trip, the caregiver and child have to get 
prior approval from the state. Because these grandfamilies have no 
other option but to remain in the system, the number of children in 
foster care is inflated, and expensive and routine administrative and 
court costs have to be paid for by taxpayers.\vi\
---------------------------------------------------------------------------
    \v\ Fostering Results (2004). Family Ties: Supporting permanence 
for children in safe and stable foster care with relatives and other 
caregivers. This 20,000 number comes from 2002 AFCARS data. 77 percent 
of children who have been in long-term relative foster care have been 
living in the same relative home for a year or more, and 27 percent for 
four years or more.
    \vi\ Fostering Results (2004). For additional information, see also 
GU's All children deserve a permanent home: Subsidized guardianships as 
a common sense solution for children in long-term relative foster care. 
(Washington, D.C.: GU, 2006).
---------------------------------------------------------------------------
    Subsidized guardianship programs solve these problems. They allow 
children to safely exit the system into guardianships with their 
relatives, and provide monthly financial assistance for the care of the 
children. The children get a permanent, safe home with their loving 
grandparents, aunts, uncles or other relatives. Subsidized guardianship 
respects cultures in which adoption and termination of parental rights 
defy important societal norms of extended family and mutual 
interdependence such as in many American Indian/Alaska Native and 
African American families, which are over-represented in the child 
welfare system. This suggests that subsidized guardianship is a 
promising tool for reducing over-representation of children of color in 
the child welfare system.
    More than half of the states have a subsidized guardianship 
program, which they finance on their own through state sources, 
Temporary Assistance for Needy Families funds, or an expired federal 
waiver program that allows some states to use federal Title VI-E of the 
Social Security Act child welfare monies for this purpose. However, 
because this waiver authority expired as of March 31, 2006, no other 
states can currently get authority to use their federal child welfare 
funds for subsidized guardianship programs. Furthermore, the federal 
waiver process requires the use of a control group. This means that 
many youth, for whom subsidized guardianship would be the only route to 
permanency, are denied it because they are randomly assigned to a 
control group.
    Despite the proven success of these programs and the fact that 
guardianship is recognized as a permanency option in federal law, the 
federal government does not provide reimbursement for all states to 
have these programs. This leaves many programs vulnerable to cut backs 
or elimination in times of state budget shortfalls. The lack of broadly 
available federal support for subsidized guardianship is effectively 
discouraging subsidized guardianship programs and allowing the 20,000 
children to languish in the more costly foster care system without 
permanency. There are federal legislative proposals pending such as 
(H.R. 2188) that would work towards rectifying this situation.
Authorize Federal Support for Kinship Navigator Programs
    Many grandfamilies simply do not know where to turn for assistance 
when children are placed in their care. One effective response to this 
problem has been the development of state-wide kinship navigator 
programs, which currently exist in New Jersey, Ohio and Washington, and 
are being explored elsewhere. These programs provide information, 
referral, and follow-up services to relatives raising children to link 
them to the benefits and services that they and the children need. They 
also sensitize agencies and providers to the needs of relative-headed 
families.
Allow Separate Licensing Standards for Kinship Foster Parents
    States should be permitted to establish separate licensing 
standards for relative (or kinship) foster parents and non-relatives 
foster parents, provided both standards protect children and include 
criminal record checks. This recommendation recognizes that certain 
licensing standards for non-relative foster parents, such as requiring 
a separate bedroom for each child, may not be appropriate for foster 
parents who are related to the child. Separate standards could make it 
possible for additional appropriate, loving, relatives to raise their 
relative children and increase the likelihood that sibling groups would 
be kept together in their care.
Require Child Welfare Agencies to Provide Written Notification to Adult 
        Relatives of a Child Placed in Foster Care
    Oftentimes, relatives, who could provide safe, stable homes for 
children, are not aware until months or even years later when a child 
is taken into foster care. State child welfare agencies should be 
required to provide written notice within 60 days of the removal of a 
child from the custody of the child's parents, to all adult 
grandparents and other relatives of the child, subject to exceptions 
due to family or domestic violence.
Expand Eligibility for Education Vouchers and Independence Program
    Youth leaving foster care to adoption or legal guardianship after 
the age of 14 should be eligible for the education and independent 
living elements of the Chafee Foster Care Independence Program. 
Currently youth who exit foster care to subsidized guardianship are not 
eligible. As a result children are discouraged from exiting foster care 
to permanency and may remain in foster care only to access the tuition 
assistance of other independence services. Expanding eligibility for 
the program would help current and former foster care youths achieve 
self-sufficiency through the provision of education and training 
vouchers and access to other programs that help with higher education 
and daily living.\vii\
---------------------------------------------------------------------------
    \vii\ http://www.acf.hhs.gov/programs/cb/programs_fund/
state_tribal/jh_chafee.htm and S. 661 SEC. 201 (c)
---------------------------------------------------------------------------
    These are just some of the key steps that can be taken now as part 
of creating a continuum of available services. There are, however, many 
other supports that the federal, state, and local governments implement 
to help the families, and they are very necessary as part of this 
continuum. These include financial assistance through Temporary 
Assistance for Needy Families or ``welfare'' grants, adoption 
assistance, the Children's Health Insurance Program and Medicaid, 
affordable legal assistance, child care, transportation, hot lines, 
other referral and information services, and additional community-based 
and faith-based supportive services.

                               CONCLUSION

    Generations United appreciates the opportunity to offer our 
comments to the Subcommittee in regard to child welfare reforms. As the 
Subcommittee moves forward, we look forward to continued dialogue and 
stand as a resource for needed information. We hope this hearing serves 
as a spring board for comprehensive reform that results in reduced 
numbers of children being abused and neglected and paves the way for a 
safe and permanent home for every child.
    For more information contact Jaia Peterson Lent at Generations 
United.

                                 <F-dash>

                                                GrandParents United
                                          Hockessin, Delaware 19707
                                                       May 13, 2007

The Honorable Congressman Jim McDermott
Chair, Income Security and Family Support Subcommittee
House Ways and Means Committee
1102 Longworth House Building
Washington, D.C. 20515

Dear Congressman McDermott and Committee Members,

    First, thank you for the time to present this written testimony. I 
am a former relative caregiver and now an advocate for children who 
need family ties. I work daily with Kinship caregivers; I know their 
frustrations, joy, pain of watching a child suffer and disappointment 
in our child welfare system. And most important their hurdle to save 
the children they love so unconditionally. I am the Vice President for 
GrandParents United DE, Inc. I also run all of our support groups in my 
county, hands on experience. What do I do, everything from where to get 
a child birth certificate, medical affidavit, parenting classes, 
counseling for the children who have been abused and or suffer multiple 
disorders from the trauma they have suffered. I go through the journey 
with them and for them; I am not paid but love what I can do to make a 
difference in their outcomes.
    One issue I see with the child welfare system begins with the 
Interstate Placements Act only addresses children in formal foster 
care. When I read the right to be heard we whom are saving children 
from the formal foster care system have no right to be heard. Home 
studies are with children that relative caregivers would like to have 
placed with them and keep family ties for the benefit of and the best 
interests of the child are few and far between. We have ask more from 
our social workers and incontestably the perks that states receive in 
formal care and adoption only exclude the relative caregivers of this 
great country.*1
``Joining Forces for Delaware's Children Summit''
    Next would be we have a broken system. Last year we in Delaware had 
a wonderful opportunity to attend ``Joining Forces for Delaware's 
Children Summit.'' Only the second in the Country to be held bringing 
together Family Courts Judges, Child Protective Services, Pew 
Commission, State Police, CWLA, ACFS. Former Chief Justice of Minnesota 
Supreme Court, juvenile judge, legislator, attorney who prosecuted 
child abuse cases Kathleen Blatz now a child advocate for reform of our 
broken system, and any and all Child Advocates. We at GrandParents 
United DE, Inc. happen to be a grassroots group not only for 
grandparents raising a grandchild but Aunts, Uncles, siblings and the 
children who have suffered the trauma that most of us never have had to 
endure. ``Blatz, in her previous incarnation as a lawyer for the state 
in child welfare cases, saw kids wait six years in foster care before 
the court terminated their abusive parent's custody rights and 
completed adoption. She saw kids bounced to new foster homes, five, 
ten, even twenty times.'' We listen and hope for change but as of today 
we have seen little.
    As everyday citizens who happen to advocate for children we heard 
what we have known. ``Kids are getting lost in the system,'' says. 
Former Chief Judge Blatz ``We can do better, and we must do better for 
kids. And so when I became chief justice, you know what? I ran out of 
excuses. If I could not help bring about some change, who could?'' She 
sent a strong message that we need to reform the courts and child 
welfare system. We must all look at this through the eyes of the child.
    ``Judge Byars, what were you seeing in your courtroom that made you 
press so hard for these changes? What was wrong with the system 
before?'' Judge Byars: ``Every child deserves a family . . .'' ``JUDGE 
WILLIAM BYARS, 5th Circuit, South Carolina: In South Carolina, we ended 
up having children in care for an average of 40 months. We had--we 
figured we had--they were not going to new homes. They were stuck in 
the system that we had designed, that we were implementing at that 
time. And children--it just came down to a belief of need to look at 
the system through the eyes of a child. That is the person who was the 
victim. That was the person who was being hurt. Every child deserves a 
family, and that was what our effort is based upon.''
    I also learned that 59% of these children end up in the juvenile 
justice system and as adults 30% end up violent offenders. So where is 
the justice the right to advocate for children who were thrown away? I 
know in Delaware the motto is ``Think of the Child First'', it is a 
good thought but not a practice. On any given day over 800 children are 
in foster care and 68 age out each year with no place or family to go 
home too.
    ``Joining Forces for Delaware's Children Summit'' Hear it from a 
child's perspective: ``At one of the break out sessions that I attended 
was a panel of Foster Kids who have aged out. The first question, after 
their age and name, was what brought them to foster care. The first boy 
said ``his grandmother was raising him and his two sisters and she 
lived on a fixed income and couldn't keep them all, so she put him in 
foster care.'' The hair on the back of my neck stood up!!! Later I saw 
ask someone from the Office of the Child Advocate there. So, I emailed 
her about what the boy had said. I asked her if there was more to his 
story if not the State of Delaware should be ashamed of themselves! She 
emailed me back yesterday that she didn't know if there was more to the 
story but that she agreed with me!'' *Tina Light co-founder and 
President, GrandParents United DE, Inc. a grandmother raising two 
grandchildren for over ten years now also sits on the Child Review 
Placement Board in DE. She has nearly singled handed sign on nine 
attorneys' to represent grandparents on a new Pro Bono Program she has 
worked diligently on. She is a volunteer to her community. This is a 
true advocate for all children who need hope for a brighter future.
``Lost And Found''
    ``Thirteen-year-old Samara has been in foster care her whole life 
and now lives at ``Five Acres,'' a treatment center for troubled kids. 
Officials tell 60 Minutes she does well in school, but that she 
struggles with severe depression, despite years of therapy and 
medication. Last Christmas, Samara admits she was in pretty bad shape 
and even tried to hurt herself. Asked what was going on inside of her, 
she tells Stahl, `` `Cause the other kids. They used to go on visits 
with their family and all, and I was stuck at the house. Like for 
Christmas, everybody else was out.''
    ``Everyone was out with some relative but her. ``She was very 
suicidal, very self-harming,'' Marylou McGuirk, Samara's therapist, 
remembers. ``Is your analysis of her case that it was all stemming from 
the loss of her mother?'' Stahl asks. ``I believe it was the loss of 
her family,'' McGuirk explains. ``Not having a support system around 
her. And that trauma--was there was no healing process for that.'' 
Kevin Campbell, who created and runs ``Family Finding,'' went to Five 
Acres last winter to teach the staff how to find Samara's family.''
    ``If the situation was so bad that the state had to take a child 
away from that home, why under any circumstances would the state put 
them back into that home?'' Stahl asks Campbell. ``We may not be ever 
considering placing the child back in that home. What I'm looking for 
is `Does he have an aunt or an uncle or a great-aunt or uncle who's 
safe with their kids and has done a good job and would be there for 
them,' '' he says. ``What do you do when you find family members who 
say, `No, I don't want anything to do with him or her? ``We do is keep 
moving. You're not done until you've found at least 40 relatives. Don't 
stop,'' Campbell explains. ``The minimum first step is 40.'' ``That 
seemed like a long shot, since Samara was considered a ``cold case.'' 
Not a single relative was known. The search began with just a few 
details about her mother. ``I have her first name, we think an accurate 
spelling, a middle initial and a last name. We think she was in Culver 
City, Calif. We think that she's 27 years old,'' he explains. That's 
all they had. And yet, with the help of a company called ``U.S. 
Search,'' they were able to find not only Samara's mother, but a 
virtual family tree. Within two hours, the search yielded 44 family 
members.''*3
    To me that indicate there is no excuse for so many children living 
in foster care. The number of sustained child abuse cases is alarming. 
More alarming are the cases closed under three conditions and no 
services, which I learned acting as a pro se and cross of a supervisor 
in Delaware's Child Protection Division. They are: A.) Closed with out 
concern B.) Closed with concern C.) Closed with risk. In 2005 87 
Delaware field worker sent a letter to the press that the children in 
Delaware were not being protected. They cited federal over site and 
Family Courts hovering over the cases brought to the courts.*5
    We have enacted new laws mandating the number of cases a field 
worker can be assigned to only to find now children are falling through 
the cracks. Frankly, how many more stories do we need to hear or 
litigation*4 before we and our honorable elected officials say ``Its 
time for major change''. When the dollars come from federal level, 
State's then will make necessary changes. Sadly to say it will be up to 
those on the federal level to require mandatory notification to 
relatives to prevent more children from the hopelessly placement in the 
formal system. It may be time to revise confidentially as well in what 
CAPTA which unfortunately allows the child welfare system to hide 
behind. I respectfully thank you for the chance for everyday citizen to 
comment on the issue that plagues the children of our Country.

            Sincerely,
                                                       Debbie Fales
References
    1. Safe and Timely Interstate Placement of Foster Children Act of 
2006: H.R. 5403, to improve protections for children and to hold States 
accountable for the safe and timely placement of children across State 
lines. This bill only addressed Foster parents not relative caregivers 
and placed
    `(g) Definitions--In this section:
    `(2) INTERSTATE HOME STUDY--The term `interstate home study' means 
a home study conducted by a State at the request of another State, to 
facilitate an adoptive or foster placement in the State of a child in 
foster care under the responsibility of the State.
    SEC. 6. CASEWORKER VISITS.
    (a) Purchase of Services in Interstate Placement Cases--Section 
475(5)(A)(ii) of the Social Security Act (42 U.S.C. 675(5)(A)(ii)) is 
amended by striking `or of the State in which the child has been 
placed' and inserting `of the State in which the child has been placed, 
or of a private agency under contract with either such State'.
    (b) Increased Visits--Section 475(5)(A)(ii) of such Act (42 U.S.C. 
675(5)(A)(ii)) is amended by striking `12' and inserting.
    SEC. 7. HEALTH AND EDUCATION RECORDS.
    4
    Section 475 of the Social Security Act (42 U.S.C. 675) is amended--
    (1) in paragraph (1)(C)--
    (A) by striking `To the extent available and accessible, the' and 
inserting `The'; and
    (B) by inserting `the most recent information available regarding' 
after `including'; and
    (2) in paragraph (5)(D)--
    (A) by inserting `a copy of the record is' before `supplied'; and
    (B) by inserting `, and is supplied to the child at no cost at the 
time the child leaves foster care if the child is leaving foster care 
by reason of having attained the age of majority under State law' 
before the semicolon.
    SEC. 8. RIGHT TO BE HEARD IN FOSTER CARE PROCEEDINGS.
    (a) In General--Section 475(5)(G) of the Social Security Act (42 
U.S.C. 675(5)(G)) is amended--
    (1) by striking `an opportunity' and inserting `a right';
    (2) by striking `and opportunity' and inserting `and right'; and
    (3) by striking `review or hearing' each place it appears and 
inserting `proceeding'.
    (b) Notice of Proceeding--Section 438(b) of such Act (42 U.S.C. 
638(b)) is amended by inserting `shall have in effect a rule requiring 
State courts to ensure that foster parents, pre-adoptive parents, and 
relative caregivers of a child in foster care under the responsibility 
of the State are notified of any proceeding to be held with respect to 
the child, and' after `highest State court'.
    The last AFCARS Report Interim FY 2003 Estimates as of June 2006 
(10) SEC. 473B. TIMELY INTERSTATE HOME STUDY INCENTIVE PAYMENTS.
    `(a) Grant Authority--The Secretary shall make a grant to each 
State that is a home study incentive-eligible State for a fiscal year 
in an amount equal to the timely interstate home study incentive 
payment payable to the State under this section for the fiscal year, 
which shall be payable in the immediately succeeding fiscal year.
    `(h) Limitations on Authorization of Appropriations--
    `(1) IN GENERAL--For payments under this section, there are 
authorized to be appropriated to the Secretary--
    `(A) $10,000,000 for fiscal year 2007;
    `(B) $10,000,000 for fiscal year 2008;
    `(C) $10,000,000 for fiscal year 2009; and
    `(D) $10,000,000 for fiscal year 2010.
    Facts
    1) How many children were in foster care on September 30, 2003?  
520,000
    5

    What were the placement settings of children in foster care?


------------------------------------------------------------------------

------------------------------------------------------------------------

Pre-Adoptive Home--------------------------------------5%--------24,806-
------------------------------------------------------------------------
Foster Family Home (Relative)                         23%       121,511
------------------------------------------------------------------------
Foster Family Home (Non-Relative)                     46%       240,916
------------------------------------------------------------------------
Group Home                                             9%        45,828
------------------------------------------------------------------------
Institution                                           10%        51,549
------------------------------------------------------------------------
Supervised Independent Living                          1%         5,525
------------------------------------------------------------------------
Runaway                                                2%        10,657
------------------------------------------------------------------------
Trial Home Visit                                       4%        19,206
------------------------------------------------------------------------


    What were the case goals of the children in foster care?


------------------------------------------------------------------------

-----------------------------------------------------------------------

Reunify with Parent(s) or Principal Caretaker(s)------48%-------249,549-
------------------------------------------------------------------------
Live with Other Relative(s)                            5%        24,450
------------------------------------------------------------------------
Adoption                                              20%       105,171
------------------------------------------------------------------------
Long Term Foster Care                                  8%        44,006
------------------------------------------------------------------------
Emancipation                                           6%        31,793
------------------------------------------------------------------------
Guardianship                                           3%        15,561
------------------------------------------------------------------------
Case Plan Goal Not Yet Established                    10%        49,469
------------------------------------------------------------------------


    http://www.acf.dhhs.gov/programs/cb/stats_research/afcars/tar/
report10.htm
    *3. Lost and Found'' CBS
    http://www.cbsnews.com/stories/2006/12/14/60minutes/
main2269159.shtm
    *4. Foster Care Reform Litigation Docket
    The 2006 Foster Care Reform Litigation Docket (``the Docket'') 
provides basic information on 71 child welfare reform cases nationwide 
that are currently in active litigation, a pending settlement 
agreement, or are significant in some other respect. The Docket also 
describes a small sampling of damages cases.

<``http://www.youthlaw.org/publications/fc_docket/status/active/''> 
Active Litigation
<``http://www.youthlaw.org/publications/fc_docket/alpha/aswvmink/''> 
A.S.W. v. Mink
<``http://www.youthlaw.org/publications/fc_docket/alpha/
carsonpvheinema/''> Carson P. v. Heineman
<``http://www.youthlaw.org/publications/fc_docket/alpha/dupuyvsamuels/
''> Dupuy v. Samuels, also known as Dupuy v. McDonald
<``http://www.youthlaw.org/publications/fc_docket/alpha/ecvblunt/''> 
E.C. v. Blunt
<``http://www.youthlaw.org/publications/fc_docket/alpha/katieavbonta/
''> Katie A. v. Bonta: Case status
<``http://www.youthlaw.org/publications/fc_docket/alpha/
oliviayvbarbour/''> Olivia Y. v. Barbour
<``http://www.youthlaw.org/publications/fc_docket/alpha/wrvconnecticut/
''> W.R. v. Connecticut Department Of Children and Families
<``http://www.youthlaw.org/publications/fc_docket/status/
pending_settlement/''> Pending Settlement Agreement
<``http://www.youthlaw.org/publications/fc_docket/alpha/
andersonvhoustoun/''> Anderson v. Houstoun
<``http://www.youthlaw.org/publications/fc_docket/alpha/
aristotlepvsamu/''> Aristotle P. v. Samuels, also known as Aristotle P. 
v. McDonald and Aristotle P. v. Johnson
<``http://www.youthlaw.org/publications/fc_docket/alpha/bhvsamuels/''> 
B.H. v. Samuels, also known as B.H. v. Samuels, B.H. v. Johnson, B.H. 
v. Suter, and B.H. v. Ryder
<``http://www.youthlaw.org/publications/fc_docket/alpha/
braamvstateofwa/''> Braam v. State of Washington: Case Status
<``http://www.youthlaw.org/publications/fc_docket/alpha/
brianavhattaway/''> Brian A. v. Hattaway, also known as Brian A. v. 
Sundquist
<``http://www.youthlaw.org/publications/fc_docket/alpha/
charlieandnadineh/''> Charlie and Nadine H. v. Codey, also known as 
Charlie and Nadine H. v. McGreevey and Charlie and Nadine H. v. Whitman
<``http://www.youthlaw.org/publications/fc_docket/alpha/
davidcvhuntsman/''> David C. v. Huntsman, also known as David C. v. 
Leavitt
<``http://www.youthlaw.org/publications/fc_docket/alpha/emilyjvweicker/
''> Emily J. v. Weicker
<``http://www.youthlaw.org/publications/fc_docket/alpha/ericlvbird/''> 
Eric L. v. Bird
<``http://www.youthlaw.org/publications/fc_docket/alpha/
freemanvscoppetta/''> Freeman v. Scoppetta
<``http://www.youthlaw.org/publications/fc_docket/alpha/glvstangler/''> 
G.L. v. Stangler, also known as G.L. v. Zumwalt
<``http://www.youthlaw.org/publications/fc_docket/alpha/higginsvsaenz/
''> Higgins v. Saenz (related to Wheeler v. Sanders)
<``http://www.youthlaw.org/publications/fc_docket/alpha/hillverickson/
''> Hill v. Erickson
<``http://www.youthlaw.org/publications/fc_docket/alpha/jeaninebvdoyle/
''> Jeanine B. v. Doyle, also known as Jeanine B. v. Thompson
<``http://www.youthlaw.org/publications/fc_docket/alpha/juanfvrell/''> 
Juan F. v. Rell, also known as Juan F. v. O'Neill and Juan F. v. 
Rowland
<``http://www.youthlaw.org/publications/fc_docket/alpha/katieavbonta/
''> Katie A. v. Bonta: Case status
<``http://www.youthlaw.org/publications/fc_docket/alpha/kennyavpurdue/
''> Kenny A. v. Purdue
<``http://www.youthlaw.org/publications/fc_docket/alpha/ljvmassinga/''> 
L.J. v. Massinga
<``http://www.youthlaw.org/publications/fc_docket/alpha/
lashawnavwilliams/''> LaShawn A. v. Williams, also known as LaShawn A. 
v. Williams and LaShawn A. v. Dixon
<``http://www.youthlaw.org/publications/fc_docket/alpha/marisolvpataki/
''> Marisol v. Pataki, also known as Marisol v. Giuliani
<``http://www.youthlaw.org/publications/fc_docket/alpha/markavwilson/
''> Mark A. v. Wilson
<``http://www.youthlaw.org/publications/fc_docket/alpha/
childadvocatevrossi/''> Office of the Child Advocate v. Rossi, also 
known as Office of the Child Advocate v. Picano and Office of the Child 
Advocate v. Rhode Island
<``http://www.youthlaw.org/publications/fc_docket/alpha/
peopleunitedforchild/''> People United for Children, Inc. v. City of 
New York
<``http://www.youthlaw.org/publications/fc_docket/alpha/rcvwally/''> 
R.C. v. Wally, also known as R.C. v. Petelos, R.C. v. Cleveland, R.C. 
v. Hornsby, and R.C. v. Nachman
<``http://www.youthlaw.org/publications/fc_docket/alpha/roevohiodhs/''> 
Roe v. Ohio Dept. of Human Services, also known as Roe v. Staples
<``http://www.youthlaw.org/publications/fc_docket/alpha/
wheelervsanders/''> Wheeler v. Sanders
<``http://www.youthlaw.org/publications/fc_docket/status/damages/''> 
Damages Cases
<``http://www.youthlaw.org/publications/fc_docket/alpha/aishaw/''> 
Aisha W. v. Aunt Martha's Youth Services Center
<``http://www.youthlaw.org/publications/fc_docket/alpha/
apostolvauntmart/''> Apostol v. Aunt Martha's Youth Services Center
<``http://www.youthlaw.org/publications/fc_docket/alpha/
braamvstateofwa/''> Braam v. State of Washington: Case Status
<``http://www.youthlaw.org/publications/fc_docket/alpha/
bogutzvstateofaz/''> Bogutz v. State of Arizona
<``http://www.youthlaw.org/publications/fc_docket/alpha/khvdorsey/''> 
K.H. v. Dorsey
<``http://www.youthlaw.org/publications/fc_docket/alpha/letishavmorgan/
''> Letisha v. Morgan
<``http://www.youthlaw.org/publications/fc_docket/alpha/mabelavwoodard/
''> Mabel A. v. Woodard
<``http://www.youthlaw.org/publications/fc_docket/alpha/
martinavgiuliani/''> Martin A. v. Giuliani, also known as Martin A. v. 
Gross (consolidated with Cosentino v. Perales)
<``http://www.youthlaw.org/publications/fc_docket/alpha/
nicholsonvwilliams/''> Nicholson v. Williams, also known as Nicholson 
v. Scopetta
<``http://www.youthlaw.org/publications/fc_docket/alpha/ssvmcmullen/''> 
S.S. v. McMullen
<``http://www.youthlaw.org/publications/fc_docket/alpha/
twoforgottenchildren/''> Two Forgotten Children v. State of Florida
<bullet> National Center for Youth Law, http://www.youthlaw.org/
publications/fc_docket/

                 Child Protection Doesn't Work for Kids

                    ROBERT ATKINSON and BRUCE FISHER

                               07/21/2005

    The News Journal covered a recent report of the Child Protection 
Accountability Commission, which recommends the Children's Department 
make improvements by ``changing how it sets up cases, considering 
parents' history more when assessing children's risk of being abused, 
and improving coordination among agencies involved in a child's 
welfare.''
    Too bad the commission didn't seek the perspective of the 
department's front-line social workers before reaching its conclusions. 
Had it done so, some of the bare facts regarding conditions within the 
Children's Department, which somehow have eluded the commission, would 
have become known.
    Dangerously high case loads, unrealistic expectations of Family 
Court judges, ever increasing bureaucratic tasks, understaffing and 
insufficient funding have resulted in a demoralized workforce, and 
ultimately a deficient response to the needs of at-risk children in 
Delaware.
    In meetings with their management, social workers have made 
impassioned pleas to address the situation. Management is either 
incapable or unwilling to act.
    The Children's Department has adopted the slogan ``Think of the 
child first.'' Noble advice! The variance between this ideal and actual 
practice would be laughable were it not so tragic. Instead, other 
priorities guide the administration:

    <bullet>  Think of the politics. Recent federal legislation and 
policy has resulted in a substantial increase in bureaucracy and in the 
vigilance of the Family Court when children are in the custody of the 
state. Rather than approaching the General Assembly for significant 
increases in manpower and funding necessary in today's world, the 
Children's Department attempts to project the image that it can make 
do. It is as though requests for additional resources would reflect 
badly upon the competence of those in charge, and damage career 
opportunities.
    <bullet>  Think of the Family Court. Only a fraction of the 
families involved with the child protective arm of the Children's 
Department have lost custody of their children to the state. Most of 
the families are intact, meaning all the children are at home in the 
care of their parents. However, due to federal dictate, Family Court 
hovers over custody cases, often ordering activity inconsistent with 
established policy and in excess of available resources. The court does 
not consider how those demands interfere with the overall child 
protection effort.

    For instance, the ability of the department to safeguard children 
not in state custody but at home is compromised by the court's 
diversion of manpower and funds to custody cases. Many employees 
believe this imbalance is inviting tragedy. Children's Department 
management has been approached by social workers many times about this 
situation, but has not made changes.

    <bullet>  Think of the numbers. The number of cases that child 
protective workers may handle at any given time is capped by state law. 
Children's Department management must report to designated legislators 
periodically on caseload sizes in relation to the legal maximum. Some 
administrators have become adept at juggling numbers so as not to alarm 
their legislative overseers.

    As a consequence, many child abuse investigations are completed on 
a hurry-up basis. There are far too many instances of the caseload 
maximums, already set far too high, being violated.
    There also exists the practice adjusting the flow of cases to 
social workers to keep the caseloads within the legal maximum, which 
creates surges of new cases that are difficult to manage.

    <bullet>  Think of the money. Along with most other state 
governments, Delaware has had financial challenges during recent years. 
The Children's Department will take the position that, despite money 
problems, services for children have not diminished. This is just not 
so. Department workers have had far too many experiences where 
essential services have been cheapened or delayed because of financial 
constraints. In developing contracts for services, the department has 
hammered providers so hard that many have withdrawn, rather than be 
driven into a losing proposition or delivering inferior quality.

    The Child Protection Accountability Commission should broaden its 
sources of information when developing recommendations. Tapping into 
the wealth of experience from those in the trenches would be a good 
move.
    Robert Atkinson and Bruce Fisher are family crisis therapists at 
the Division of Family Services in New Castle County. This article also 
was signed by 87 other employees of the division.

http://www.delawareonline.com/apps/pbcs.dll/article?AID=/20050721/
OPINION07/507210326/1108/OPINION

                                 <F-dash>
                     Statement of Kimberly L. Blue
    Mr. Chairman and Members of the Committee, I welcome this 
opportunity to discuss the problems many parents of color and 
immigrants encounter with the child welfare system in particular--Child 
Protective Services.
    I make this testimony as an advocate for family--my family--that 
was destroyed because of a multilateral system rife with unchecked 
discrimination and personal prejudices.
    My boys became involved in the child welfare system after I sought 
relief from Family Court for a domestic violence incident. Our lives 
became a living nightmare when this system came into our lives.
    Judge Balkin ordered my children into the system three weeks after 
our home caught on fire. There was nothing more important to me than to 
keep us together as a family after suffering such a terrifying and 
tragic incident.
    The constant harassment and irrelevant recommendations by the 
``experts'' just did not make any common sense to me nor addressed the 
issues that my family was facing at the time.
    To be mandated to go to counseling when the caseworker can not 
specify what type of counseling is needed is absolutely absurd. To have 
the judge tell you that ``she can not intervene'' when the visitation 
agency writes a discriminatory report is truly absurd. To have the 
judge tell you that ``she's making a conscious decision'' when she 
mandates you back into a detrimental situation to visit your children 
is truly not wise.
    Every year you hear these same agencies telling you that they need 
more funding. And every year you give them more funding. This agency 
has not only exceeded its number of casualties but has improved nothing 
that needs to be improved within this agency and its collaborators--
DISCRIMINATION!
    It has been seven years since I have seen my boys but as a grieving 
mother I advocate on behalf of other families who may otherwise suffer 
horrific consequences at the hands of discriminatory child protective 
caseworkers without my assistance.
    Members of the Committee--Control the discrimination that children, 
especially families, suffer from this agency's discriminatory 
practices--there will be less children in foster care. In addition, 
America can stand proud to honor its message of being an ``America for 
Families: Where Children Make Families and Families Make Children'' no 
matter their socioeconomic status. Thank you.

                                 <F-dash>
               Statement of Madeleine Green Wojciechowski
    As a grandparent raising a thirteen year old grandson I know 
firsthand how difficult it is. How relative caregivers outside the 
foster care system are under the radar screen. We receive NO support; 
financial, emotional, educational, no support.
    As I reviewed the testimony from other presenters I felt compelled 
to write. Because an adult makes a mistake that results in a child they 
are unable to care for it does not make them a bad person. Because they 
can not care for this child it does not make them a law violator as 
your speakers suggested. Because our institutions and culture have 
chosen the easy way out and not addressed how best to assist families 
in distress we have a dysfunctional system that is expensive at best.
    Individuals who have done the best they know and faced up to family 
responsibilities do not deserve to be demeaned by your presenters 
rather they should be thanked for their service and commitment to doing 
the right thing.
    Our government efforts should focus on solutions not band-aids, on 
helping and finding those who are struggling. Many of the grandparents 
raising grandchildren are compromising their health and retirement 
through the assumption of these responsibilities. Caregivers should not 
be forced into poverty because of the added expenses and 
responsibilities. This outcome leads to a future further compromised, 
this must be addressed through either a subsidy, tax break, or benefit 
eligibility.
    Personally I postponed my retirement five years to be able to 
provide for our grandson. It was a life threatening illness that forced 
his placement with us. I resent the portrayals allowed before your 
committee and expect the committee to insist on evidence based 
information as the only materials allowed before the committee, and 
entered into the record.
    Just because someone says it is so does not make it so. Experience 
has taught me to dismiss those who speak ill of others especially when 
they are not there to defend themselves.

                                 <F-dash>
        Statement of National Indian Child Welfare Association,
                            Portland, Oregon
    The National Indian Child Welfare Association submits this 
statement on improving child welfare services to Native American 
children and families. Our constituents, tribal children and families, 
face many health challenges and child abuse and neglect is certainly 
one of the most critical of those challenges. Our testimony focuses on 
the risk factors that exist in tribal communities, the current state of 
tribal child welfare service delivery systems, and two important 
proposals that can improve outcomes for Native American children and 
families: 1) authorization for tribes to directly administer the Title 
IV-E Foster Care and Adoption Assistance programs, and 2) expansion of 
the IV-E program to fund guardianship placements.
Native American Children and Families At-Risk
    Native American children and families are disproportionately 
represented in the child welfare system, particularly the foster care 
system. Native American children are placed in out-of-home placements 
are a rate 2-3 times their population (National Data Analysis System, 
2004). This data is reported from state systems and is even more 
dramatic when you factor in the exclusion of the numbers of Native 
American children in tribal foster care systems. Data for Native 
American children in tribal foster care systems is not available in a 
national aggregate total, but estimates have placed the rate in several 
larger tribal foster care systems at or above the national figures.
    Other known risk factors for child abuse and neglect include 
poverty, unemployment, alcohol and substance abuse, family structure, 
and domestic violence. In Native American communities the rates of 
these risk factors are very high and contribute to Native American 
children being placed in out-of-home care in high numbers.
    Although these rates are very high great progress is being made by 
tribal governments to confront these issues. The strengths of tribal 
governments are their knowledge and skills in developing long term 
solutions that will reduce or eliminate these community problems. New 
models for research, service delivery, community involvement and 
prevention are developing in tribal communities every year. The process 
and outcomes from these models are increasingly being disseminated to 
other tribes and when possible they are being adapted for 
implementation in other tribal communities too. Even with these great 
strides, Native Americans still lag behind the general population on 
all of these important indicators.

    Poverty and Unemployment--Overall poverty rates in tribal 
communities have been very high for many years. While the poverty rate 
in the United States is 12.4%, the poverty rate for Native American 
people nationally is over double that rate at 25.7% (U.S. Department of 
Commerce, 2006). According to the 2000 Census, about 40 percent of 
Indian children on reservations live in poverty.
    Related to poverty rates is unemployment. The majority of tribal 
communities have little opportunity to establish viable economies that 
are diversified and can provide gainful employment for their citizens. 
Other than the relatively few tribes that have benefited from tribal 
gaming or natural resource dividends, most tribal governments have 
little ability to raise significant amounts of tribal revenue. 
According to the 2000 United States Census, the unemployment rate among 
Native American people nationally was 15% compared to 6% for the 
general population (U.S. Department of Commerce, 2003). Family poverty 
levels are also high with almost 26% of Native American families, with 
children under the age of 18, from the largest 25 tribes living in 
poverty compared to 12% for the general population. The unemployment 
rate and poverty rates reported by the Bureau of Indian Affairs for 
Indian reservation areas are much higher than those reported by the 
Commerce Department. For instance, the Bureau of Indian Affairs 2003 
Labor Force report shows a national average of 49% unemployment for 
Indian people living on or near reservations. Of those employed 32% are 
still living below the poverty level.

    Alcohol and Substance Abuse--Alcohol and substance abuse is 
prevalent in many tribal communities. NICWA estimates that 85% of child 
welfare cases involving Native American families involve some form of 
alcohol or substance abuse. Nationally it is estimated that 
approximately 65% of all child welfare cases involve alcohol or 
substance abuse. Methamphetamine abuse is rising in many tribal areas 
and has jumped to the second most reported substance identified during 
treatment admissions among pregnant Native American women as reported 
by state agencies (Substance Abuse and Mental Health Services 
Administration, 2003). The Indian Health Service reports a 30 percent 
increase in methamphetamine patients between 2004 and 2005 alone (FY 
2008 IHS Budget Justification).

    Domestic Violence--Domestic violence in Indian Country is difficult 
to quantify, but studies done since the 1990's and local data have 
suggested that the rate of domestic violence among Native American 
women is approximately twice that of the general population. The 
Department of Justice reports that Native women are more than 2\1/2\ 
times more likely to be raped or sexually assaulted than women in the 
U.S. nationally. Congress has recognized this and has, in fact, 
allocated ten percent of Violence Against Women Act grants for tribes. 
When domestic violence occurs, the victim is less likely to be able to 
address the immediate needs of her children due to the trauma of the 
assault, Domestic violence can create a higher risk for child welfare 
authorities to become involved, especially if it is determined that the 
children are experiencing harm or are in an unsafe situation.
Child Welfare Services to Native American Children and Families
    As tribal governments and communities try to address the risk 
factors for children being placed in out of home care they share in the 
consequences from this risk as families are separated and communities 
struggle to maintain their identity and shape their future. Reducing 
the number of Native American children and families in the child 
welfare system will require solutions that utilize the extended family 
more and increase the ability of tribal governments to contribute their 
knowledge and skills.
    Until 1978, tribal children were removed from their families in 
shocking numbers, many times not because the removal was necessary, but 
because of the lack of understanding and bias private and public 
agencies had regarding tribal families. Prior to 1980, it was estimated 
that 25% of all Native American children were in some form of 
substitute care, most often away from their tribal communities and 
extended families (Select Committee on Indian Affairs, 1977). During 
this same period, most of the child welfare services that were provided 
to tribal children and families came not from tribal government 
programs, but from federal Bureau of Indian Affairs programs located on 
tribal lands or by state child welfare agencies. Tribes had very little 
say in how these programs were designed or operated, and few tribal 
juvenile courts were in operation.
    During this same time, tribal governments also had access to very 
few federal funding sources to combat this critical community health 
issue. In most cases, tribal governments only had access to Title IV-B 
Child Welfare Services funding, which resulted in grants of less than 
$10,000 for the vast majority of tribes or BIA Social Services funding, 
which was discretionary and not available to large numbers of tribes 
across the United States. This resulted in tribes most often not being 
involved in tribal child welfare matters and other agencies deciding 
how and when their children and families should be served. This created 
a negative sense of dependency upon these outside agencies and was a 
barrier to tribal governments and their communities in developing a 
sense of ownership over these problems and exercise their authority and 
responsibility to their children and families.
    With the enactment of the Indian Child Welfare Act (ICWA) in 1978, 
Congress set out to reduce the number of Native American children and 
families that were removed from their homes by implementing new 
standards on how public and private agencies worked with this 
population. In addition, Congress made it clear that tribal governments 
were in the best position to provide child welfare services to their 
members by acknowledging tribal authority to be involved in child 
welfare matters concerning their member children and families, and 
providing small grants (ICWA) to support tribal child welfare programs. 
Congress also acknowledged that tribal governments should be eligible 
to receive funding from other federal sources to support child welfare 
services. New Bureau of Indian Affairs funding was made available to 
tribes to exercise their authority and responsibility in child welfare. 
However, the ICWA grant program was discretionary and never funded 
above $13 million until 1993. This only allowed for a competitive 
grants process in which the majority of tribes never received any grant 
funds.
    Today tribes receive direct federal funding from Title IV-B Child 
Welfare Services and Promoting Safe and Stable Families programs. The 
grant size has not increased significantly under Title IV-B Child 
Welfare Services; most tribes are still receiving grants under $10,000 
with the annual outlay to tribes currently about $5.7 million. Under 
the Title IV-B Promoting Safe and Stable Families program there are now 
approximately 134 tribal grantees eligible for funding, up from 89 in 
2005. This increase in eligible grantees comes after Congress increased 
the tribal allocation to 3% under both the mandatory and discretionary 
programs under this law as it was reauthorized in 2006. For FY 2007 
tribes will receive $11.8 million from this program.
    The ICWA grant program is still a discretionary program, but in 
1993 it became available to all tribes with the majority of grants 
being just under $50,000 a year. Some tribes are eligible for BIA 
Social Services funding, which can support child welfare services, but 
the list of tribes that are eligible for this discretionary program 
excludes over 200 tribes.. The funds are also not available to support 
administration or training costs associated with foster care or 
adoption services, unlike those reimbursed under Title IV-E.
    While the amounts and number of federal funding sources available 
to tribes has increased some since 1978 tribes still are considerably 
behind states in their ability to address child abuse and neglect. 
Parity for tribes regarding the amounts and types of federal funding 
sources available to states has still not been achieved. While more 
tribes are eligible for federal funding sources, such as Title IV-B, no 
tribes are eligible for the larger federal child welfare related 
funding sources such as Title IV-E Foster Care and Adoption Assistance 
and Title XX Social Services Block Grant. The small number of tribes 
that have been able to access some of these federal child welfare 
program funds have only been able to do so because the state they 
reside in has passed through a portion of these funds, which is not a 
mandatory requirement for states.
    What tribes do not have access to is a stable source of non-
discretionary funding to support the vulnerable children that need 
foster care or adoption assistance services, such as in the Title IV-E 
program. Without this funding, tribes are forced to place children in 
unsubsidized homes, which can lead to instability and failure of the 
placement, or turn them over to state agencies whenever possible, which 
burdens state governments and reduces the chance that tribal children 
and families will have access to services that are specifically geared 
to their needs. Arlene Templer, Director of Human Resource Development 
for the Salish and Kootenai Tribes, in testifying before the Senate 
Finance Committee last year, said that without direct funding her tribe 
cannot be guaranteed they will be able to provide every child that 
needs foster care a safe and stable home. Even with a Title IV-E 
agreement with the State of Montana, she noted that the Salish and 
Kootenai Tribes are unable to obtain IV-E reimbursement for tribal 
children that come home from out of state to be cared for by relatives 
because of restrictions the state has included in its agreement with 
the tribe.
    When tribes have stable funding like Title IV-E they can achieve 
great things. Three Affiliated Tribes in North Dakota, which has a IV-E 
agreement with North Dakota, has been able significantly reduce their 
foster care caseload in the last few years. Having stable funding for 
foster care, one of the most expensive of child welfare services, 
promotes the ability of tribes to channel other funds into child abuse 
prevention and family preservation keeping children out of the foster 
care system. Unfortunately IV-E agreements are not available to the 
majority of tribes, and any of the exiting agreements provide only a 
portion of the IV-E program to tribes.
Title IV-E Foster Care and Adoption Assistance Access for Tribes
    Former representative Bill Frenzel, in his role as chair of the Pew 
Commission on Children in Foster Care, said in his introductory remarks 
in releasing the 2004 Pew Commission report that ``in the name of 
justice'' we need to provide Title IV-E services to Indian children. 
The Pew Commission recommended, as do we, that tribes be authorized to 
directly administer this $7 billion federal entitlement program which 
is designed to protect and provide permanent loving and safe homes for 
abused children.
    We are appreciative of the support we have had from Members in both 
Houses of Congress to amend the Title IV-E statute to put this program 
on a government-to-government basis with regard to tribes. Over the 
course of the last few Congresses, Representative Camp and Senators 
Daschle and Smith introduced legislation to accomplish this goal. Last 
Congress provisions to authorize tribal administration of the Title IV-
E program were included in Representative McDermott's Leave No Abused 
Or Neglected Child Behind Act (HR 3576). At the March 22, 2007 Senate 
Finance Committee hearing, ``Keeping America's Promise: Health Care and 
Child Welfare for Native Americans'', Chairman Baucus and Ranking 
Member Grassley each expressed support in their opening statements for 
direct tribal administration of the Title IV-E Foster Care and Adoption 
Assistance programs.
    Tribal governments, certainly no less than state governments, have 
the legal and moral responsibility to provide protection and permanency 
for the children under their jurisdiction who have been subjected to 
abuse and neglect. But the Title IV-E law extends only to state 
governments and to entities with which states have agreements. There 
are some 70 tribal-state Title IV-E agreements, many of which do not 
afford the full range of services to children in tribal custody that 
children in state custody receive. Many such agreements provide only 
the maintenance payment for the foster home, but not the training, 
administrative and other court-related work, and data collection that 
states receive. And most tribes have no access to the Title IV-E 
program at all. States remain the grantee under tribal-state Title IV-E 
agreements and thus are liable for all expenditures. In some cases 
states will not allow Title IV-E funding to be used for foster homes 
that are tribally, rather than state, licensed.
    Marilyn Olson, Port Gamble S'Klallam Tribe's Director of Children 
and Family Programs in Washington State, on conversations with the 
National Indian Child Welfare Association, said they feel fortunate to 
have a Title IV-E agreement with the state of Washington. Before they 
developed the agreement, which is only 18 months old, they had to 
divert large sums of funding from the tribe's Bureau of Indian Affairs 
Self-Governance funds, TANF grant and tribal general revenue funds to 
operate their foster care program. ``We were diverting significant 
amounts of funding that could have been used to provide child abuse 
prevention, treatment and substance abuse treatment for the families. 
We also had to use over half of our tribal TANF funds in order to avoid 
our children from being placed with families outside our community. 
Having access to Title IV-E funding gave us hope and resources to keep 
many more of our children in the community with their extended 
families.'' Port Gamble S'Klallam's experience illustrates what is 
possible when Title IV-E funds are available to tribes, but they are 
one of the relatively small numbers of tribes, in Washington and 
elsewhere, that have been able to gain access to this crucial federal 
program.
    Direct access to the Title IV-E program for tribes would provide 
those governments with much needed funding for their child welfare 
systems, would improve tribes' ability to recruit and retain Indian 
foster and adoptive homes, would provide improved and greater 
permanency services for tribal children, and would provide better 
support for training and subsidies to tribal foster care and adoptive 
families. We also support continued authority to continue existing 
tribal-state IV-E agreements and to establish such agreements in the 
future.
Relatives as Caregivers for Native American Children
    In addition to providing direct funding to tribes under the Title 
IV-E program, we urge Congress to make available resources to relatives 
who are primary caregivers for members of their family. Some states 
have child welfare waivers to provide funding for subsidized 
guardianship, such as Illinois and Washington. This needs to be made 
available to all states and tribes. Traditionally and today the 
extended family system is the core of a natural helping system in 
tribal communities that protected children and participated in their 
upbringing. Even though this system was under attack by intrusive 
federal policies and forced placement of Native American children in 
boarding schools into the 1900's, the extended family still plays a 
critical role in tribal communities everywhere in helping care for 
Native American children. Indian grandparents comprise the largest 
percentage of any racial/ethnic group with regard to being primary 
caregivers for their grandchildren. The 2000 Census revealed that 8% of 
Indian people over the age of 30 have grandchildren living in their 
homes and 56% of those have primary responsibility for those 
grandchildren compared to the national average of 40%.
    Marilyn Olson, Director of the Port Gamble S'Klallam Tribe's 
Children and Family Program, in conversation with the National Indian 
Child Welfare Association, noted that they rely heavily on the use of 
relatives to place tribal member children who need to be removed from 
their home. ``Our culture and traditions require us to look to 
relatives first when placing our children. Extended families are the 
foundation of our approach to healing and caring for our tribal 
children, In most cases, our relative families are the most appropriate 
permanent family for our children who can not return home, but we have 
sometimes struggled to find ways to support these placements.'' Ms. 
Olson also stated that going outside the child's extended family system 
is uncommon and risks alienating the child, their family, and other 
community members in the healing process.
    While Title IV-E and other federal policies encourage the use of 
relatives, many times the only permanent placement option provided to 
relatives is adoption. This can cause negative feelings between family 
members and often results in deteriorating family relationships, many 
of which are important to the child's well-being. This has a profound 
affect upon the children in most cases. If family members will not 
adopt and there is no subsidized guardianship program available to 
them, the placement agency will most likely move the child to a non-
relative home that will adopt. This severs the child's important family 
connections and leaves the family extremely distressed.
    Where subsidized guardianship placements have been available, such 
as Washington and Illinois, tribal children have benefited greatly. 
Relatives that could not afford to care for additional children in 
their home were supported and Native American children were given the 
opportunity to retain and nurture those important family and cultural 
connections.
    Some state subsidized guardianship programs rely upon a federal 
child welfare waiver to operate. Tribal children have benefited from 
these waiver programs in many cases when in state care, but tribal 
children under their tribe's care may have more limited access due to 
federal requirements for the waivers and the temporary nature of the 
waiver. Arlene Templer, Director of Human Resource Development for the 
Salish and Kootenai Tribes, described to the National Indian Child 
Welfare Association a situation where a tribal member aunt was caring 
for a niece and nephew in her home. She wanted to provide a permanent 
placement for the relative children and was excited about the 
possibility of the guardianship program in Montana. However, when 
Arlene applied for her to be a part of the program they were told that 
this aunt would be in the ``control group'' and therefore would not 
receive any subsidy and limited support services if they chose a 
guardianship placement. The aunt said she could not continue the 
placement without a subsidy and support services, so she had to return 
the children to a foster care placement where Arlene says they will 
likely stay until they age out of foster care because they are not good 
candidates for adoption.
Conclusion
    In tribal communities, family relationships are the most important 
relationships people will ever have. The sense of responsibility to 
those family members and their children within the community is 
enormous. Tribal governments have waited for the day when they will be 
able to fulfill their responsibility to their children too, and all 
they need are the resources and opportunities to exercise this 
responsibility and ensure that all the tribal children and families 
under their care are provided the supports they need. By providing 
greater opportunities for tribes to be able to utilize their network of 
extended family members and providing direct funding from this nation's 
most prominent child welfare funding source, that promise can be kept. 
Please join us in bridging that divide. Thank you.
References
    ``Indian Child Welfare Act of 1978'', Hearings on S. 1214 before 
the Select Committee on Indian Affairs, United States Senate, 95th 
Congress, First Session (August 4, 1977), pages 537-603.
    National Data Analysis System, Child Welfare League of America 
(2004 data). Obtained at http://ndas.cwla.org/.
    Substance Abuse and Mental Health Services Administration (2003). 
Treatment Episode Data Set Analysis Performed March, 2006 by Children 
and Families Futures, Inc.
    U. S. Department of Commerce, Census Bureau (2006). We the People: 
American Indians and Alaskan Natives in the United States. Publication 
CENSR-28.
    U.S. Department of Commerce, Census Bureau (2003), March Current 
Population Survey (CPS), 1994 to 2003.
The National Indian Child Welfare Association
    The National Indian Child Welfare Association (NICWA) is a 
national, private non-profit organization dedicated to the well-being 
of American Indian children and families. We are the most comprehensive 
source of information on American Indian child welfare and work on 
behalf of Indian children and families. NICWA services include (1) 
professional training for tribal and urban Indian child welfare and 
mental health professionals; (2) consultation on child welfare and 
mental health program development; (3) facilitation of child abuse 
prevention efforts in tribal communities; (4) analysis and 
dissemination of public policy information that impacts Indian children 
and families; (5) development and dissemination of contemporary 
research specific to Native populations; and (6) assisting state, 
federal, and private agencies to improve the effectiveness of their 
services to Indian children and families.
    In order to provide the best services possible to Indian children 
and families, NICWA has established mutually beneficial partnerships 
with agencies that promote effective child welfare and mental health 
services for children (e.g., Substance Abuse and Mental Health Services 
Administration; Indian Health Services; Administration for Children, 
Youth and Families; National Congress of American Indians; Federation 
of Families for Children's Mental Health; and the Child Welfare League 
of America).
    If you have questions regarding this testimony or other public 
policy issues impacting Indian children and families, please contact 
David Simmons, Director of Advocacy and Government Relations.

                                 <F-dash>
                   Statement of Public Justice Center
    Thank you for the opportunity to submit this statement on behalf of 
the approximately 6,600 children currently in foster care in Baltimore 
City and those who will enter the foster care system in the future. 
Significant improvements must be made to the foster care system both in 
Maryland and nationally to prevent yet another generation of foster 
youth spending their childhoods being moved from temporary placement to 
temporary placement with less than adequate health care and education 
and, as a result, entering adulthood woefully unprepared to be 
productive, healthy and happy citizens. Solutions are available--a 
number of proposed reforms are set forth in this statement; 
implementation of those and other solutions requires increased funding, 
creative and thoughtful programming and a commitment to listening and 
responding to children and their families.
    Unfortunately, by Maryland's Department of Human Resource's 
(``DHR'') own data assessment, the care of Baltimore City's foster 
children has deteriorated to some of the worst levels in the 18 years 
since the United States District Court entered a Consent Decree \1\ 
ordering comprehensive improvements in Baltimore City's child welfare 
program. Some of the alarming statistics \2\ for 2006 include:
---------------------------------------------------------------------------
    \1\ L.J. v. Massinga, Civ. A. No. 84-4409, was filed in 1984 in the 
United States District Court for the District of Maryland on behalf of 
children who had been abused and neglected while under the care and 
custody of the Baltimore City Department of Social Services. Because, 
in Maryland, the local departments of social services are controlled by 
the state Department of Human Resources (``DHR''), DHR is a key 
defendant in the case. In 1987, Judge Joseph C. Howard issued a 
preliminary injunction governing several aspects of the children's 
care. In approving a comprehensive Consent Decree the next year, Judge 
Howard noted that ``[t]he court found overwhelming evidence of serious 
systematic deficiencies in Baltimore's foster care program such that 
foster children would suffer irreparable harm if immediate injunctive 
relief were not granted.'' 699 F. Supp. 508, 510 (1988). In 1991, 
Defendants agreed to a nearly identical decree governing the care of 
children in the custody of BCDSS but living with unlicensed relative 
caregivers. 778 F. Supp. 253 (1991).
    \2\ Unless otherwise stated, the data in this statement are from 
the most recent semi-annual compliance report that DHR is required to 
file with the federal court (the most recent report was filed February 
5, 2007), clarifying documents disclosed by the Office of the Attorney 
General of Maryland, audits done by Maryland's Department of 
Legislative Services (DLS), and so-called ``CAPS'' reports, a statewide 
annual sampling and reporting program abolished by DHR in 2005; there 
is currently no statewide system for collecting and analyzing data 
about the child welfare system. The sampling system used in Baltimore 
City to generate data for the semi-annual compliance reports was found 
to be unreliable by DLS in a report issued in December 2005, available 
online at http://www.ola.state.md.us/reports/Performance/
Foster%20Care%20Report%201-6-06.pdf.

    <bullet>  Baltimore City Department of Social Services (``BCDSS''), 
responsible for providing homes and services to the children, continues 
to lose foster homes at an alarming rate--more than half of its homes 
during the last five years, dropping from a high of more than 3,000 
homes in August 2001 to only 1,366 at the end of 2006. Largely as a 
result, the number of children in group homes and residential 
placements rose from 834 as of Aug, 31, 2001 to 1,536 as of May 30, 
2006, a nearly 85% increase. The cost of group placements averages 
$60,000 per year, close to eight times the basic foster care subsidy 
rate of $635 per month ($7,620 per year).
    <bullet>  Caseworkers failed to make mandatory monthly visits of 
children in 33% of continuing foster care cases.
    <bullet>  For children entering foster care, 21% of children 
entering foster care did not have initial health screens and 56% did 
not have timely comprehensive health assessments. 64% of children in 
continuing care did not receive periodic medical and dental care as 
required by federal and state law.
    <bullet>  One quarter of children in continuing care were not 
placed in school within one week after placement; 75% of children in 
relative placements needing special education referrals did not receive 
them; and 34% of children in unlicensed placements with relatives did 
not have their education monitored by BCDSS.
    <bullet>  45% of children in continuing foster care had no 
documentation of any visits with their parents, even though their 
permanency plans were reunification.
    <bullet>  Service agreements for families with a permanency plan of 
reunification were not completed in 25% of continuing foster care and 
34% of continuing kinship care cases.
    <bullet>  Funds to prevent foster care placement have fallen to 
their lowest levels in more than a decade and are serving less than 60% 
of the families served in 1999.

    Despite numerous plans, proposals and promises, Maryland has failed 
to improve the most basic services--health, access to education, a 
family--to the children in its care. It continues to shortchange the 
children of Baltimore City who, in FY2005, made up 65% of the foster 
care population while receiving only 40% of the state's child welfare 
funding.
    These failures are not attributable to one particular governor's 
administration nor to one particular political party. As with many 
state programs, attempts at reform are often disrupted by changes of 
administration which result in changes of leadership and direction at 
DHR. This problem underscores the importance of enforceable federal 
laws mandating that states provide basic decent care to the children 
they remove from parental custody. Current federal laws, while 
increasingly helpful, still remain insufficiently specific and 
unenforceable. In addition, many of the problems set forth herein 
reflect inadequate federal funding under both Title IV-E maintenance 
and administrative payments and IV-B program grants as well as in the 
Medicaid program.
    Although Maryland has spent countless hours and money in creating 
multiple plans for improvement over the past ten years, including 
Maryland's Program Improvement Plan submitted in response to its dismal 
results in its Child and Family Services Review, there is little to 
show for it. An infusion of funding for meaningful prevention and 
family preservation programs, recruitment and support for foster and 
adoptive parents and support for kinship caregivers and subsidized 
guardianships would result in significant savings over time.
    However, money is far from the only need in Maryland. Proper 
administration of the child welfare system would bring significant 
savings to Maryland while a status quo approach will continue to result 
in skyrocketing budget overruns. In just the last three years alone, 
Maryland has squandered hundreds of millions of dollars by failing to 
have proper placements for children. The number of children in foster 
care has continually decreased over the past five years, and yet 
Maryland's foster care maintenance costs have increased by 75% (from 
$204.1 million to $353.1 million) from FY2005 to FY2008 alone, 
reflecting the massive shift from foster home to congregate care 
placements. This is a staggering waste of money that has been caused by 
Maryland's degradation of foster homes and the placement of children in 
expensive, unnecessary, and inappropriate high-end congregate care 
settings--even though the children do not need these placements and do 
not want them--they want families. Yet the damage to the children far 
outweighs the travesty of wasted dollars. A truly comprehensive plan is 
needed to reduce Maryland's dependence on congregate care that has 
caused this staggering increase in cost.
    These are abused and neglected children, most of whom have 
experienced harm or deprivations that are difficult to imagine. They 
are the State's responsibility. One would have hoped that the many 
reports and audits showing how badly the system is broken would have 
compelled Maryland to make the investments necessary to fix the system 
but, to date, that is not so.

                        Key Areas Needing Reform

Placements
    The placement ``system'' is in fact an ad hoc patchwork of programs 
that developed locally without any planning as to needs, priorities, 
service gaps, etc. Monitoring has been poor, and providers have been 
allowed extremely broad deference in programming, selection of 
children, and rejection of children. Group homes now are a dominant 
form of placement, and their quality is mixed. Maryland has not 
performed nor commissioned a comprehensive needs assessment for 
placements since 1989 \3\ Children are moved from placement to 
placement without much regard for their needs or whether more focused 
intervention could prevent removal.
---------------------------------------------------------------------------
    \3\ Although, as required by the General Assembly, the Governor's 
Office for Children issued two reports on placement needs during 2005 
and 2006, neither were based on anything resembling a true needs 
assessment. The first, the Joint Chairmen's Report on Out-of-Home 
Placement and Family Preservation Services (Dec. 2005), provided only a 
snapshot of the type of placement for each child in state custody on 
June 30, 2005. The second, the State Resource Plan, issued in August 
2006, based its calculation of placement needs solely on a ``survey of 
local departments of social services conducted by the DHR Office for 
Planning in January 2006. There was no attempt to examine a sample of 
children in care, determine their needs, and extrapolate to the 
population of foster children in placement or in need of placement. 
Both reports can be found at http://www.ocyf.state.md.us/.
---------------------------------------------------------------------------
    One example of the depth to which the system has fallen was 
revealed in June 2005 when BCDSS admitted using a rented unlicensed 
office building as an overnight shelter for children in its care.\4\ 
The facility had only four thin floor mattresses available only in the 
girls' room (none were available in the boys' area); there were 
insufficient blankets and pillows (again only enough for four 
children); there were no shower or bath facilities; no toiletries; no 
first aid or other health care provisions; and no arrangements for 
adequate meals. The boys had to stay in a small waiting room area, 
where there was no room to sleep--they could only sit in hard chairs 
with armrests that made it impossible to lie down. Moreover, these were 
not just short-term stays. One girl stayed for twenty-three consecutive 
nights; one boy had to sit up in the chairs for seven consecutive 
nights. These children were not in school, and their activities during 
the day were minimal if they did not find placements. Many just 
followed their caseworker and spent the day sitting in another BCDSS 
office, only to return that evening.
---------------------------------------------------------------------------
    \4\ The Baltimore Sun, June 15, 2005.
---------------------------------------------------------------------------
    All told, 150 children stayed at Gay Street in 2005, most for 
multiple nights with another 50 staying there in 2006. Mixed together 
were children who had been in foster care nearly their whole lives and 
children whose first night in foster care was being spent one the floor 
of an office in the same filthy clothing in which they had been removed 
from their parents' home. The mix of population was extremely 
inappropriate. Younger preteen girls were mixed with much older late 
adolescents, some of whom had severe mental illnesses and posed 
definite risks to the younger children. Even a two-year old with a 
feeding tube ended up in Gay Street.
    Even after the disclosure, BCDSS was shockingly slow in remediating 
conditions and still has not created any long-term solutions. While 
conditions have been approved, air mattresses and toiletries are now 
available, it remains an office building--with no shower or bath 
facilities, no licensed supervision other than on-duty Child Protective 
Services Workers during the night and on weekends, and no hot food 
other than microwaveable oatmeal and McDonald's. Furthermore, to avoid 
use of the facility in late 2005 and in 2006, BCDSS turned to housing 
children overnight in motels. These youths were not accompanied at the 
motels by BCDSS employees nor employees of licensed placement agencies; 
instead, BCDSS used local ``mentoring'' programs to transport and 
supervise the children. These unlicensed providers had no legal 
requirement compelling them to ensure that their employees had passed 
criminal background checks, yet those employees transported and spent 
nights (and days) alone with children awaiting placement in hotels or 
motels.
    Needed reforms to the placement system must address:

    <bullet>  Increase in the foster care reimbursement rate. Even 
though foster home reimbursement rates were frozen for fourteen years 
between 1992 and the end of 2005, DHR opposed in 2006 and 2007 a bill 
supported by advocates statewide to raise stipends over three years to 
the amount documented by the USDA as the cost of rearing a child. While 
Maryland has increased the subsidy significantly in the past two years, 
it is still far from adequate and there is no legal requirement that 
increases continue (or even be maintained).
    <bullet>  Restoration of child care subsidies. Maryland continues 
to refuse to restore child care grants to foster parents and kinship 
care providers, even though DHR has acknowledged that the loss of child 
care assistance in 2002 was reported by foster parents as the principal 
reason why so many had left the system.
    <bullet>  Need for a wide variety of placements. BCDSS does not 
maintain a meaningful supply of emergency foster homes, even though the 
lack of such placements explains in large part the use of the illegal 
and unlicensed Gay Street facility and of motels. BCDSS has not 
targeted the two most pressing areas of foster home shortages: homes 
for infants and for adolescents, including homes (as well as other 
programs) that will care for teen parents with their children. There 
are inadequate diagnostic shelter facilities and insufficient supply of 
therapeutic foster homes. As a result of the lack of sufficient long-
term placements, there are often overstays in short-term shelter and 
diagnostic shelter facilities.
    <bullet>  Maryland's plans for foster home recruitment and 
retention aim low and achieve less. In January 2006, Maryland issued a 
recruitment and retention plan that called for only a 4% increase in 
foster homes statewide (only 154 homes) over an eighteen month period 
ending December 2006. Yet during the first two-thirds of the 
implementation period, Maryland lost nearly that number of homes in 
Baltimore City alone.
    <bullet>  Maryland has squandered available resources, such as up 
to $1 million for supports to foster parent and relative caregivers 
that was returned to the federal government after a lack of use in FY 
04 and a similar refund in FY 05 (the exact amount is not known).
    <bullet>  Lack of responsiveness to caregivers' concerns and 
complaints. The abusive and disdainful manner in which many caseworkers 
and supervisors treat foster parents and kinship care providers is 
shameful. DHR cancelled contracts for support centers several years ago 
and has not restored them. While there are new foster parent 
associations (after the former ones were defunded by DHR), they are not 
sufficiently independent to act as an advocacy body for caregivers. 
Caregivers still have minimal access to court proceedings. As a result, 
disastrous decisions may be made to remove children with limited input 
from the caregivers. No ombudsman exists to investigate complaints or 
redress legitimate grievances. The cumulative effect of this is that 
word-of-mouth has made it very difficult to recruit and retain foster 
parents.
    <bullet>  Long delays in processing of foster home applications and 
general deterrence of restricted foster care applications by relatives. 
Even though state regulation requires applications to be processed 
within four months, delays of a year or more are common. Caseworkers 
historically have discouraged relative caregivers from applying to be 
foster parents, sometimes complying with a requirement that they advise 
caregivers about foster home licensure in only 60% of the appropriate 
cases (according to Defendants' data).
    <bullet>  Failure to provide foster parents and kinship caregivers 
with information about the children.
    <bullet>  Lack of automated and efficient system for finding 
placements. There is no comprehensive list of placement options, no 
automated system to determine vacancies, and no meaningful system to 
link providers and BCDSS in problem-solving (such efforts have been 
short-lived).
    <bullet>  No comprehensive needs assessment.
    <bullet>  Group homes are overused and under-monitored. Their 
programming often is poor. They have low tolerance for typical teen 
behaviors, and DHR has long condoned precipitous and unjustified 
removals. Simple and inexpensive steps to reduce their use, such as 
sitting down with teens in foster care to talk about relatives and 
others who might be placement resources, are not taken.
    <bullet>  Limited utilization of new treatment modalities. 
Caseworkers leave treatment issues to the providers. As a result, best 
practices and improvements noted elsewhere in dealing with mental 
health, adolescence and other issues have lagged in Maryland.
    <bullet>  Lack of placements for siblings.
    <bullet>  Slow interstate compact referral processing.
    <bullet>  Criminal background checks; CPS history checks; and fire, 
sanitation, and safety inspections for caregivers. According to 2004 
CAPS data, the most recent available, far too many foster home and 
kinship placements have not had required criminal background checks 
(more than 25% of foster homes and nearly 50% of relative placements) 
or fire, health and safety assessments (35% of foster homes lacked 
annual safety inspections).
    <bullet>  Overall lack of coordination between the responsibility 
for finding placements for children (which falls upon BCDSS) and the 
responsibility for creating, funding, monitoring, and maintaining 
placements (a DHR duty).
Health
    Provision of comprehensive health services to children in foster 
care should not be difficult in Baltimore City, the home of the Johns 
Hopkins and University of Maryland medical schools and hospital systems 
as well as numerous other highly regarded hospitals and medical care 
institutions. Moreover, all children in foster care are automatically 
eligible for Medical Assistance. Yet Maryland has failed to provide 
even the most basic appropriate care to the children in foster care in 
Baltimore City, reflecting what Maryland's Secretary of DHR has 
acknowledged to be a broken system. Not only do Baltimore City and 
Maryland have the resources to provide excellent, let alone, decent 
health care, there are numerous models around the country from which 
they can draw in designing and implementing such a system. Until 
recently Maryland has refused to consider much less implement these 
models which have been evaluated with recommendations for basic 
components of any successful system by the American Association of 
Pediatrics (``AAP'') \5\ and the Georgetown University Child 
Development Center \6\ Some progress may be in the workings; this 
month, DHR, with the assistance of the Annie E. Casey Foundation, 
finally convened a workgroup to look at alternatives to the current 
system.
---------------------------------------------------------------------------
    \5\ Fostering Health: Health Care for Children and Adolescents in 
Foster Care, 2nd
    \6\ McCarthy, Jan, ``Meeting the Health Care Needs of Children in 
the Foster Care System'' (2002) available on line at http://
gucchd.georgetown.edu/files/products_publications/fcsummary.pdf.
---------------------------------------------------------------------------
    Some of the basic features of such a system which BCDSS currently 
lacks include:

    <bullet>  Initial screening and separate comprehensive assessments. 
In the early 1990s, Maryland had a contract through the University of 
Maryland Medical System to provide comprehensive assessments of 
children entering foster care. That contract was cancelled after only 
two years. The high quality of the UMMS assessments gradually has 
fallen to a poor patchwork of decentralized community-based physical 
examinations and unconnected mental health assessments. Several years 
ago, DHR adopted a policy to obtain the physical examinations 
immediately or shortly after entry into care, so health histories 
typically are not included or reviewed in many if not most cases. Even 
vaccination information may be missing. The ``assessments'' typically 
are a short handwritten EPSDT medical form that, to a layman, often is 
illegible, and in any event is ill-suited for a comprehensive 
assessment. Lab reports are reviewed subsequently and are not 
incorporated into the document. The mental health/developmental reports 
are done by any provider available, ranging from excellent (if the 
child is in a diagnostic placement and already receiving mental health) 
to poor (a counselor at a group home may be required to write the 
report). They are not coordinated with the somatic assessments, and 
they typically are not distributed to the attorneys, the Court, or the 
parties. As a result, they may be buried in the file and ignored.
    <bullet>  Timely access to and provision of health care services 
and treatment. BCDSS caseworkers and supervisors chronically fail to 
ensure compliance with needed mental health therapy, specialized 
medical treatment, referral follow-up, etc. According to DLS audits, in 
2002, 28% of children did not receive recommended treatment; in 2004, 
48% lacked recommended mental health treatment. For 2004, DHR's own 
data showed that 20% of foster care cases and 33% of adoptions cases 
did not receive recommended mental health treatment. Specialized care, 
ranging from orthodontia to surgery, often is not provided as well, 
despite obvious and sometimes urgent need.
    <bullet>  Prompt collection of health histories for children 
entering care.
    <bullet>  Management of health care data and information, and 
careful monitoring of ongoing health care needs of children in OHP and 
health services provided to them. The unit in place only monitors 
intake cases--ignoring 95% of the children who are in longer-term care.
    <bullet>  Coordination of care, including alerts to workers and 
caregivers of health needs of children in OHP and follow-up of unmet 
needs. Maryland has taken the position that Managed Care Organization 
(``MCO'') in which each child must be enrolled serves as the ``medical 
home'' because it retains historical knowledge about the child. This is 
not acceptable under the AAP standards, and for obvious reasons. The 
MCOs are not care providers, and their only purpose is to fund or not 
fund medical services. If they do not serve the functions of a 
``medical home,'' their centralized nature is utterly immaterial. 
Moreover, children who change placements, particularly between group 
homes, may be required to change doctors and MCOs.
    <bullet>  Collaboration among all public health and social services 
systems serving children in OHP.
    <bullet>  Family participation (both caregiver and, where possible, 
parents)
    <bullet>  Resolution and coordination of transportation 
responsibilities for health care.
    <bullet>  Immediate and continuous Medical Assistance coverage.
    <bullet>  Attention to cultural issues.
    <bullet>  Monitoring and evaluation of effectiveness of 
comprehensive health care system; and
    <bullet>  Training and education of caseworkers, youth, parents and 
caregivers.
Permanency Planning
    In the recent CFSR assessment, BCDSS fared among the worst in the 
country on issues relating to permanency, reaching federal standards in 
only 8% of its cases. Unfortunately, these results surprised no one. 
While some positive efforts are underway (such as a program based upon 
the Family to Family model, a new private-public drug treatment 
initiative, and a model court program for accelerated hearings in 
certain drug cases), much more remains to be done.

    <bullet>  Reunification services. BCDSS never has performed a needs 
assessment of the services needed for prompt reunification: housing 
assistance, drug treatment programs, education assistance, etc. As a 
result, reunification is slow and inconsistent. The lack of housing 
assistance is a huge problem, but no efforts have been made to obtain 
assistance from housing agencies for priority status and other help. 
Several intensive drug treatment initiatives have been attempted, but 
most failed due to various bureaucratic problems. The number of 
transportation aides has declined sharply.
    <bullet>  Flex funds. The funding for reunification assistance is 
not dedicated and instead is drawn from the general ``flex fund'' pool. 
As a result, during budget shortfalls, these funds may dwindle to a 
trickle, if not disappear, and those needing assistance in the latter 
half of a fiscal year may well be denied.
    <bullet>  Parent visitation. The lack of regular weekly visitation 
has been a chronic problem. Nevertheless, DHR has failed to take any 
measures to enforce a clear and critical requirement that is vital to 
prompt and timely reunification.
    <bullet>  Case plans and service agreements. Besides the documented 
failure to produce case plans timely, they also typically are rote, 
formulaic and canned, while service agreements have virtually no 
substantive content regarding the agency's commitments and timelines. 
As a result, the ``planning'' process in permanency planning is 
inherently flawed--little real planning occurs.
    <bullet>  In-patient, family-oriented drug treatment programs. 
These need to be greatly expanded. Again, no needs assessment of how 
much capacity is needed has been conducted to our knowledge.
    <bullet>  New community initiative. BCDSS is just beginning its 
first pilot effort in a new community-based reunification effort based 
on the Family to Family model. Obviously, such programs have 
significant potential, but this was tried before in Baltimore, without 
success, and the current design has significant flaws that need to be 
corrected if the effort is to achieve the breakthroughs that BCDSS 
anticipates.
    <bullet>  Adoptions. After making significant gains in the late 
1990s, BCDSS's trendlines for termination of parental rights and 
subsequent adoptions have plummeted. Based on annualized statistics 
derived from the first half of FY 2007, BCDSS will have obtained 248 
TPR decrees, which represents a 66% reduction from FY 1999 (720 
petitions granted), and 318 adoptions, which represents a 64% reduction 
from the number of adoptions in FY 2003 (877 adoptions granted). TPR 
petitions get filed, but cases often are not ready to proceed to trial, 
resulting in requests by BCDSS to dismiss the petition or grant large 
continuances. Adoptions homestudies are infamously slow.
    <bullet>  Subsidized guardianship. Maryland took an early lead on 
pursuing waivers with HHS for subsidized guardianships but then failed 
to expand the program further. This year, it finally has invested some 
new funds into the program, but far too little to meet the need. Given 
the goal of reducing the number of children in State custody, and the 
high number of children in long-term kinship care placements (whether 
licensed as restricted foster parents or not), subsidized guardianship 
makes sense and should be available to meet the demand, at subsidy 
rates commensurate with restricted foster care rates. Congress needs to 
expand IV-E reimbursement from just foster care or subsidized adoption 
to include subsidized guardianships.
    <bullet>  Locating and working with absent parents and relatives. 
This chronic problem remains unaddressed. Fathers and/or available 
relatives often are ignored in permanency planning, or delays occur in 
identifying and locating them. When they do appear in the case sometime 
later, significant delays arise as BCDSS is required to make efforts to 
determine whether paternal reunification or placement with a relative 
is feasible and then to work with the fathers or relatives toward that 
end.
Personnel and Case Management
    <bullet>  Even though reported caseloads have declined in recent 
years, they are still far from those recommended by the Child Welfare 
League of America (``CWLA'') and mandated by the Maryland legislature. 
Instead of 1:12 ratios for caseworkers serving foster children, the 
average caseload for BCDSS caseworkers is 1:20, nearly twice as high, 
and its impact on the care of the children and families under their 
supervision is reflected in the dismal statistics set out in this 
statement, including: 25% of all foster homes (321 out of 1,552) did 
not receive required training in the past year.
    <bullet>  During 2006, caseworkers did not make reasonable efforts 
to provide weekly visits between parents and their children in 37% of 
continuing foster care cases with permanency plans of reunification.
    <bullet>  BCDSS admits that it did not comply with its own 
guidelines for changing permanency plans in 33% of its cases.
    <bullet>  Teens are not provided with timely and complete 
independent living services. Critical delays are not uncommon in 
securing basic benefits and services (such as financial assistance for 
college, help with applications, etc.) Some workers are openly hostile 
to the children. Teens are told they are not eligible for independent 
living services because they are not in the ``teen unit'' or are placed 
with relatives. Runaways are not pursued, and rescission remains a 
frequent option for recalcitrant youths that turn eighteen and often is 
the ``plan'' for 17 or even 16-year-olds.
    <bullet>  BCDSS reports a substantial loss in the number of 
supervisors even though the latest data demonstrate that caseworkers 
need more, not less, supervision. One of the foremost reasons for poor 
casework over the years is the failure of many BCDSS supervisors to 
identify and remedy the deficiencies. Far too often, the supervisors 
condone or contribute to the casework problems.

    Recently, BCDSS administration has focused on workplace 
infrastructure and workforce improvements, and some progress may have 
been made in those areas. Any such advances, however, have yet to 
translate into visibly improved delivery of services. Caseloads came 
down when a 2003 hiring freeze finally was lifted, but turnover remains 
high and cases are distributed very unevenly. Despite heavy investments 
in computers and new telephone systems, assigned caseworkers remain 
difficult to reach and, often, difficult even to identify. Uncovered 
cases persist, cases are not timely transferred, and ``coverage'' 
workers continue to appear in court as unacceptable proxies for absent 
workers. Even worse, often no worker appears at all, causing 
postponements and further delays of permanency. Good child welfare 
casework is demanding and requires highly-skilled and dedicated 
individuals. They need to be supported with increased wages and 
advanced training. Congress should be increasing, not reducing as was 
done in the last Deficit Reduction Act, Title IV-E support for 
administration and training.
Education
    As reflected in the statistics set out above, the basic steps--
getting children enrolled in and attending school after changes in 
placement, securing appropriate special education, and addressing 
discipline problems constructively--still are not being taken.
Prevention
    As of 2003, children are twice as likely to be in care in Baltimore 
than in comparable cities. This disparity stems in large part from the 
lack of appropriate prevention services. The need for adequate 
preventive services is particularly critical at this point, for, in 
Baltimore City, the number of continuing child protective service open 
cases has doubled during the past two years, rising from 409 cases at 
the end of 2003 to 828 case in January 2006.
    The easiest and cheapest way to reduce the number of children in 
foster care is to provide programs and services to families that can 
prevent the need for foster care in the first place. Nevertheless, 
funding for programs proven to succeed in maintaining families and 
preventing foster care placement has shrunk dramatically.

    <bullet>  Intensive family services (``IFS''), i.e., those services 
proven most effective in preventing removal of children from their 
families serve only 50% of the families and children they served in 
1999. The number dropped by 30% in 2005 and 2006 alone.
    <bullet>  The number of families and children receiving other less-
intensive family preservation programs dropped by approximately 60% 
since 1999 and down by 30% between 2003 and 2006.
    <bullet>  The total funds spent on these services in FY06 fell to 
less than $94,000 from more than $170,000 in FY05 and $310,024 in FY99.

    Other basic prevention programs (family service centers, 
neighborhood outreach, housing assistance, expanded drug and alcohol 
treatment, in-home aides, etc.) are inadequate, but, because there has 
not been a needs assessment, it is impossible to determine the 
magnitude of the need. Funding for family service centers was cut 
dramatically in 2003, and it has not been restored. Moreover, those 
programs, while excellent, served parents with young children only and, 
therefore, do not serve all families in need.
    Those groups that have been provided access to child protective 
services (``CPS'') files, such as the various fatality review boards 
and CPS review commissions, have raised significant concerns about CPS 
that need to be addressed.
Planning
    Finally, strategic planning for reform has been abysmal. Over the 
years, Maryland has focused on forms, standard policies, and 
procedures, not on substantive outcomes and programs that improve the 
system or the lives of the children. Congress must provide adequate 
funding and then demand that states meet the standards set in federal 
law and the Child and Family Services Review so that a system truly 
responsive to children's welfare is created and sustained.

                                 <F-dash>
                     Statement of Robert Littlejohn
    Three years ago, the Congressman and legislators from Arizona, New 
Mexico and California sat and listened as parents, lawyers, a 
physician, child welfare experts and a foster parent shared horror 
stories of CPS malpractice. They spoke from a giant horseshoe table 
(normally used by the City Council) and the lawmakers sat facing them 
in staff table in front of the stage. Throughout the day, groups of 7 
speakers at a time were led up to the horseshoe table and each took 
their turn speaking for 10 minutes. They worked straight through lunch 
and the lawmakers were very attentive. The hall was packed with an 
audience--standing room only--and four video cameras from assorted 
media taped the entire thing.
    All speakers were harshly negative about CPS. Some of the speeches 
were very emotional (one played an audio tape into the microphone of a 
child screaming as police ripped him away from his mother). As part of 
their presentation, each speaker offered possible solutions (reforms) 
to the problems many had documented so well. Here are some of the most 
common themes:

     1)  Almost all the speakers said that CPS needed to be dismantled 
and rebuilt. (A view shared by many social work researchers and other 
published experts).
     2)  That police assume the role of investigating child abuse. (One 
lawyer suggested that the social work roles of ``helping'' and 
``investigating'' should at least be divided and separate--the same 
worker should not do both jobs)
     3)  Funding be changed--especially Title IV-E funds. The 
congressman agreed that it needed to be capped and be used by the 
states for services other than foster care.
     4)  That parents receive effective legal representation. (Speaker 
after speaker explained the dismal, sell-out work done by public 
defenders. Juvenile court judges were called to task.)
     5)  Almost all speakers wanted all child welfare hearings opened 
to the public. There were two excellent reports on what had happened in 
those states that had opened up their courtrooms (none of the CPS, 
chicken little predictions have proven true.) It was the general 
feeling that if courtrooms were opened, the public would learn how 
unjust and abusive the system is to children. It was accurately 
reported that states who have opened up their juvenile and family 
courtrooms are experiencing more just, family-friendly procedure and 
decisions.
     6)  That anonymous reporting be stopped.
     7)  Repeal of mandated reporting laws.
     8)  Removing the qualified immunity protection given CPS 
caseworkers and imposition of criminal sanctions for perjury, false 
reporting, holding back favorable information, etc.
     9)  Rewriting state statutes to clearly define child abuse and 
child neglect.
    10)  An investigation into therapist's practice of pseudo-science.
    11)  Court orders (from an actual judge, not officers of the court) 
for all removals and the requirement that such ``pick up orders'' be 
issued only after a showing of probable cause that actual abuse or 
neglect has occurred.
    12)  That the cloak of secrecy be lifted from child protective 
services (only the child's name and other identifying information 
should be withheld from the public).
    13)  That state laws make malicious false reporting a felony 
punishable by prison time.
    14)  That CPS workers give a full and complete disclosure of rights 
and responsibilities to parents at the onset of an assessment or 
investigation.

    One parent was a former Navy Seal. He gave a moving testimony of 
how all of the rights he thought he once fought for were denied him as 
a father of a child who was abused by CPS. The man drove out to the 
conference from the East Coast.
    The governor in California has taken seriously the complaints 
reaching his office from parents across the state. He is committed to 
using Title IV-E funds to keep families together rather than to fund 
foster care. The imposition of a totally new family meeting plan 
piloted with help from a foundation will be funded with Title IV-E, for 
instance.
    He has appointed an ad-hoc commission to develop concrete, action 
steps to accomplish the mission of reducing foster care incarceration 
by 60%. The funding change alone should reduce the foster care 
population by more than that. The commission's position is that 
patchwork reforms will not work--that a total revamping of the system 
is required.
    While this is referring to discussions of three years ago, the 
suggestions are still the same. The same revamping of the entire CPS 
system is long overdue and is warranted now. The same suggestions have 
been made time and time again, and yet there is no change!
    I would further add that the CPS in each state be put under the 
direct supervision of the States' Attorneys, thus forcing the state CPS 
agencies to come to their office with hard corroborating evidence that 
child abuse or neglect has occurred, and that further abuse or neglect 
will put the child in harm's way, thus necessitating the child's 
removal from the home. If the children have been removed and they have 
not brought the state's attorney the 75% credible evidence proof to 
him, they must--upon orders of the state's attorney--return the 
children at once or face stiff penalties from the state's attorney's 
office.
    If the 75% credible evidence has been met, the state's attorney 
will recommend to the judge that a pick up order be issued to remove 
the children from the abusive home. The accused must then stand in a 
trial-by-jury and have them decide whether or not there any abuse had 
occurred; and if the evidence if flimsy, the jury will return a verdict 
of not guilty, and the children must be returned home at once, with 
apologies made to the parents by the court, with the further 
stipulation to the Child Protective Service agency that they will no 
longer become involved with the interruption in the lives of the 
innocent parents, thus not only returning physical custody of the 
children to their parents, but also legal custody of the children--
under the threat by the court of a heavy stiff fine if they refuse to 
obey the decision of the jury and of the court!
    The suggestions above will be a start in making the Child 
Protective Services a more efficiently run organization. Thank you for 
your time.

            Sincerely,
                                                  Robert Littlejohn
 Still father of Diane Carol and Charles William Littlejohn by the 
    will of God, though taken away by the Commonwealth of Kentucky.

                                 <F-dash>
               Statement of Roma O. Amor, Tucson, Arizona
    IN THE SUPREME COURT OF THE STATE OF ARIZONA
    Roma O. Amor, petitioner appearing as herself
    ARIZONA DEPARTMENT OF ECONOMIC SECURITY (ADES) & ITS DIVISION OF 
CHILDREN YOUTH AND FAMILIES (DCYF)--CHILD PROTECTION SERVICES (CPS), 
Parties in Interest
    MOTION FOR DECLARATORY RELIEF AND COMPLIANCE
    Now comes Roma O. Amor seeking Declaratory Relief for Positive 
Enforcement to address the issues of the greater public interest of the 
Constitutional, federal statutory, and Federally-Protected Rights of 
families and their children who reside in the State of Arizona. 
Petitioner seeks relief against unconstitutional policies of ADES and 
CPS that violate Federal Child Welfare Funding Law (Federal Contracts). 
CPS has adopted an increasingly unbridled pattern of disregard for the 
law and its methods of intrusion into the private and family affairs 
resulting in unnecessary child fatalities and abuse while in ADES 
custody or under investigation by CPS Agents.
    1. Jurisdiction is conferred by AZ Rule of Civil Proc. 57, AZ Rule 
of the Supreme Court 28(G), Arizona Constitution Article 6 Section 5
    2. Venue is found in this court for State of Arizona policies and 
actions under color of state law of its CPS agency, its Office of the 
Attorney General, and the Juvenile Courts of its subdivisions.
    3. Questions Raised:
    a) Whether current child welfare laws of The State of Arizona are 
unlawful, illegal, and unconstitutional under Federal Statutory Child 
Welfare Funding Law (Federal Contract Law) and the First, Fourth, 
Fifth, Eighth, Thirteenth, and Fourteenth Amendments to the United 
States Constitution.
    Arizona child welfare laws violate Federal Contract Law under the 
United States Constitution Article I Sec. 8 cl. 1 Spending Clause which 
gives the U.S. Congress power to place conditions on federal funding 
grants. Spending Clause legislation is a contract; in return for 
federal funds, the recipients (State of Arizona) agree to comply with 
federally imposed conditions.
    See: Davis v. Monroe County Bd. of Ed. 526 U. S. 629, 640 (1999), 
Pennhurst State School and Hospital v. Halderman 451 U. S. 1, 17 
(1981); see also Davis, supra, at 640; Gebser v. Lago Vista Independent 
School Dist. 524 U. S. 274, 286 (1998); Guardians Assn. v. Civil Serv. 
Community of New York City 463 U. S. 582, 599 (1983) (opinion of White, 
J.); id., at 632-633 (Marshall, J., dissenting); Lau v. Nichols 414 U. 
S. 563, 568-569 (1974).
    4. Supporting Statements and Standards of Law Incorporated Herein:
    a) ARS 41-1962 ``Federal law shall control.''
    b) Detention/Removal Hearings, Federal Statutory Law, examples
    --CFR Sec 1356.21(d) Documentation of Judicial Determinations (2) 
Neither affidavits nor nunc pro tunc orders will be accepted as 
verification documentation in support of reasonable efforts and 
contrary to the welfare judicial determinations. (3) Court orders that 
reference State law to substantiate judicial determinations are NOT 
acceptable, even if State law provides that a removal must be based on 
a judicial determination that remaining in the home would be contrary 
to the child's welfare or that removal can only be ordered after 
reasonable efforts have been made.
    If finding is not explicitly documented, Title IV-E funding is 
severed under federal law. 45 CFR 1356.21(c)
    --42 USC 672(a)(1) Court must make the finding that ``continuance 
in the home of the parent or legal guardian would be contrary to the 
child's welfare.'' and ``removal from the home was the result of a 
explicit judicial determination and that reasonable efforts have been 
made''.
    This finding must be made at the time of the first court ruling 
authorizing removal of the child from the home or lose all Title IV-E 
federal funding. 45 CFR 1356.21(c)
    --42 USC 672(a)(2) Court must make finding that ``placement and 
care are the responsibility of the State agency or any other public 
agency with whom the responsible state agency has an agreement.''
    No federal funding until findings are made 45 CFR 
1356.71(d)(1)(iii)
    --42 USC 671(a)(15), 42 USC 672(a)(1), and 45 CFR 1356.21(b)(1) 
Court must make the finding that `` reasonable efforts have been made 
to prevent or eliminate need for removal.'' Mandates Prevention to 
Prevent Removal
    If explicit finding are not documented Title IV-E funding will be 
withdrawn. 45 CFR 1356.21(b)(1)(ii)
    --PL 96-272 Judicial determinations are required to be explicit and 
so stated in the court order. The Senate Report on the bill that became 
Public Law 96-272 characterized the required judicial determinations as 
``important safeguard(s) against inappropriate agency action and made 
clear that such requirements were not to become ``a mere pro forma 
exercise in paper shuffling to obtain Federal Funding.'' (S. Rept. No. 
336, 96th Congress, 2d Session. 16, 1980 ``We concluded, based on our 
review of States' documentation of judicial determinations over the 
past years that, in many instances, these important safeguards had 
become precisely what congress was concerned that they not become.''
    c) State statutes and regulations cannot be construed to displace 
the protections of the United States Constitution, even when the state 
acts to protect the welfare of children. Cf. Lorillard Tobacco Co v. 
Reilly 533 U.S. 525, 540-41, 121 S.Ct. 2404, 2414 (2001)
    d) ``State courts can decide definitively only questions of state 
law that are not subject to overriding federal law.'' Leiter Minerals 
Inc. v. United States 352 U.S. 220 (CERT No 26, 1957)
    e) ``Public policy is better served by imposing a duty in such 
circumstances to help prevent future harm.'' Gibson v. Kasey (AZ 
Supreme Court, No CV-06-0100-PR, 2006; AZ Ct App Div 1 No 1 CA-CV 05-
0119) (En banc)
    f) ARS 25-408(H)(I) Judicial acts and the court must adhere to 
previous agreed custody agreements
    g) ARS 25-403 and 25-403.03 domestic violence and family law
    h) Child abuse proceedings involve the government acting in an 
adversarial role toward the custodial parent, an entirely different 
circumstance and procedure than divorce proceedings where there is no 
governmental accusation of fault. ``Persons faced with possible forced 
dissolution of their custodial rights have a more critical need for 
procedural protections than do those in ongoing family affairs.'' 
Santosky 455 U.S. at 753
    In Brittain v. Hansen, the 9th Cir. Court discussed the greater 
custodial liberty interest and procedural differences of child abuse 
and custody cases, and concluded that ``by failing to recognize the 
lesser liberty interest in visitation Id. at 992 the court applied the 
erroneous legal standard ``best interests of the child,'' quoting Reno 
v. Flores, 507 U.S. 292, 303-04 (1993) and held the ``best interest of 
the child'' legal standard applies to custody law not child abuse 
proceedings''
    ``Custodial parents have a greater liberty interest than those with 
visitation rights.'' Brittain v Hansen, 451 F.3d 982, 991, 992 (9th 
Cir. 2006), quoting Weller v Dept of Social Svcs, 901 f2d 387, 394 (4th 
Cir. 1990), Zakrzewski v Fox, 87 F.3d 1011, 1013-14 (8th Cir. 1996), 
Wise v. Bravo, 666 F.2d 1328, 1332-33 (10th Cir. 1981); ``A non-
custodial parent lacks prudential standing to bring Establishment 
Clause challenge based on his relationship with his child.'' Brittain, 
quoting Elk Grove Unified School Dist v. Newdow, 542 U.S. 1, 13-18 
(2004); ``Liberty interests of parents with only visitation rights does 
not give rise to a constitutional violation'' Brittain, (9th Cir.) 
quoting Wise (10th Cir. 1981)
    i) ``Substantive Due Process rights are those which involve greater 
liberties, as those guaranteed by the First Amendment''. Glucksburg 512 
U.S. at 721-22
    Anthony v. City of New York 339 F.3d 129, 139 (2nd Cir 2003) ``(1) 
whether any policy makers of the municipality knew that it's employees 
will confront or encounter a given situation,; (2) that the situation 
either presents the employees with a difficult choices of this sort and 
that training or supervision will make less difficult or that there is 
a history of the employees mishandling the situation; and (3) that the 
wrong choice by employees will frequently cause the deprivation of a 
Person's Constitutional rights.'' See also: King v Atiyeh, Monell v New 
York City Dept of Social Services
    Planned Parenthood of Southeastern Pa. v. Casey, 505 U.S. 833, 901 
(1992), quoting Miller v. Johnson, 515 U.S.--(1995) ``Legislative 
purpose to accomplish a constitutionally forbidden result may be found 
when that purpose was the predominant factor motivating the 
legislature's decision.'', Shaw v. Hunt 517 U.S.--(1996), Joseph P. 
Mazurek, AG of Montana v. James H. Armstrong et al (Cert. 9th Cir Ct 
App, No 96-1104, 1997)
    5. ARS 8-821 standard of proof for temporary custody is 
unconstitutional under the USSC ``Matthews Test '' addressed by the AZ 
Supreme Court in Kent K. and Sherry K. ARS 8-821 provides for taking 
into temporary custody under the ``reasonable grounds'' standard, 
similarly vague to suspicion or probable cause. A parent's interests at 
this stage are paramount; the interest of the government is to reunite 
the child with the custodial parent. This error of lowered standard of 
proof, ``reasonable grounds,'' at the early stage of proceedings stacks 
the deck against custodial parents' greater interest in their child and 
familial association. Matthews v. Eldridge and Kent K and Sherry K set 
the minimum standard at ``preponderance of evidence''. The goals at 
this stage are prevention and reunification not termination which does 
not enter the equation until 12-18 months later. Until the first 18 
months pass, a real reunification effort with the custodial parent is 
mandated by federal statutory law (contract law). By giving the adverse 
party the greater interest and lowering the standard of proof thus 
increasing the risk of error, a parent's case will be lost at the first 
stage of proceedings, a deprivation of substantive due process to 
protect the greater interests of the parent. There must be a concrete 
offer of due process afforded to the parent with the greater liberty 
interest in adversarial proceedings, not the current level of rubber-
stamping and paper-shuffling to meet federal funding guidelines. These 
are families. Santosky 455 U.S. at 753 (holding child abuse proceedings 
involve the government acting in an adversarial role toward the 
custodial parent, and such ``persons faced with possible forced 
dissolution of their custodial rights have a more critical need for 
procedural protections.'')
    In Re KG, SG, and TG (9th Cir. 2004), reaffirming the decision of 
the U.S.S.C., ``This court has noted that the permanent termination of 
parental rights has been described as the family law equivalent of the 
death penalty. Consequently, parents must be afforded every procedural 
and substantive protection the law allows.''
    6. ARS 8-824(F) is unconstitutional; the Standard of Proof is 
limited to ``probable cause to believe that continued temporary custody 
is clearly necessary.'' In applying this standard of proof, the court 
will make an erroneous determination of unfitness without offer of 
proof (common in juvenile court) and substantive and procedural due 
process of law which will lead to loss of the parent's right to 
familial association, and in affect, terminated rights to custody. Kent 
K and Sherry K, quoting Santosky (holding erroneous determination of 
unfitness at this stage could lead to permanently extinguishing the 
relationship between a fit parent and her child).
    7. The State of Arizona encouraged and instituted into state law a 
vague and easily misconstrued policy of mental illness as reason for 
removal of a child as well as for termination of parental rights. ARS 
8-533(B)(3) and ARS 8-846(1)(b) ``A State shall not be immune under the 
Eleventh Amendment to the Constitution of the United States for 
violation of a federally protected right . . . remedies (both at law 
and in equity) are available.'' Title 42 Chap. 126 Sec 12202 and Title 
42 Chap. 21 Subchapter V 2000d-7, and Title 28 CFR, PART 35 
Nondiscrimination on Basis of Disability, State and Local Government 
Services
    Title II of the ADA, ``No qualified individual with a disability 
shall, by reason of such disability, be excluded from participation in 
or be denied the benefits of the services or programs of a public 
entity [reasonable efforts to prevent removal and reunification 
programs of CPS], or be subjected to discrimination by any such 
entity.''42 USC 12132 A ``public entity'' is defined as ``(A) any State 
or local government; or (B) any department, agency, special purpose 
district, or other instrumentality of a State or States or local 
government.'' 42 USC 12131
    ``Where a statute authorizes conduct that is `patently violative of 
fundamental constitutional principles,' reliance on the statute does 
not immunize the official's conduct''. Grossman 33 F3d at 1209 See 
also: Meyers v. Contra Costa County Dept. Soc Svcs 812 F2d 1154, 1157, 
1158 (9th Cir. 1987) and Miller v Gammie (No 01-1549, DC No CV-99-
00275-HDM PHA, 9th CirCtApp. 2003)
    8. Another usage of the wrong standard of law that needing 
addressed, is the ``best interests of the child'' standard in 
adversarial child abuse cases which invoke greater liberties and 
constitutional protections for familial association. ``Best interests 
of the child'' standard is erroneous in child abuse proceedings. Only 
when proceedings reach the permanency stage, specifically the 
disposition stage, does the balance of interests shift away from the 
custodial parent. Matthews
    9. Much of A.R.S. Title 8 is unconstitutional and in violation of 
overriding federal law; for brevity petitioner provided examples. Vague 
policies, statutes, laws, or the encouragement thereof that violate 
federal Child Welfare Funding Laws, constitutionally and federally-
protected rights must be examined. Families have the right to be free 
from unbridled State intrusion into their private family life without 
afforded substantive and procedural due process of law. When a case of 
state custody is necessary, children and others in the custody of the 
state must be afforded the duty of care owed by the state and its 
agencies under the Fourteenth Amendment.
    10. Federal laws of foster care and adoption, legislated by 
Congress with good intention, are routinely violated by the state. 
Rather than adhere to statutory preventative measures to provide 
assistance to keep families together, they many times remove children 
from their parents when less extreme measures should have been taken 
violating federal statutory law and the First, Fourth, and Fourteenth 
Amendments of the United States Constitution. Arizona ADES-DCYF-CPS 
often places children with abusive noncustodial parents or in abusive 
foster/shelter care. (State Created Danger)
    11. State law and policies announced by Governor Napolitano 
encourage unlawful practices of use of these federal funds resulting in 
need for more monies as the number of children removed from their 
parents rise. Funds should be used to provide families assistance with 
food, shelter, furnishings, education, location to domestic violence 
shelters, state training of its agencies in recognizing common 
consequences of domestic violence on victims and their children, and 
other preventative measures to stabilize the family and prevent 
removal.
    12. The most critical issue in The State is the additional large 
expenditures of monies to hire additional caseworkers, reportedly to 
handle the overflow of children, but the reality is that additional 
caseworkers coupled with current ``take the child and run'' policies 
encourage improper practices, erroneous and non-explicit findings of 
abuse, and has the beginnings of an enterprise whose practice is to 
break up the family. Hiring additional caseworkers creates more crisis 
and more child fatalities; more children are removed rather than focus 
on current cases; the state is not the parent and not able to provide 
the proper standard of care as is its duty, nor can it provide 
nurturing. If more monies need be spent, it should be appropriated to 
training current caseworkers in integrity and ethics characteristic to 
the social services Code of Ethics. Higher standards of care and duty 
to assist those in need are standards to which social workers should be 
held. It is time that the State of Arizona brings those ethics back 
into its ADES-DCYF Child Protection Services agency, perhaps with more 
experienced workers with families of their own who understand the value 
of the family.
    13. AZDES CPS removes children on suspicion (substantive due 
process violations). Many children are then abused in state custody 
(six to ten times higher in state custody per NCCAA). Reasonable 
efforts must be made to preserve the First Amendment protection of 
familial association in Arizona. It is obvious that this petitioner, 
the Mays family, the Hill family, the Payne family and other families 
undisclosed to the public, the Governor's office, the State of Arizona 
and its CPS agency, the Pima County Juvenile Court in the State of 
Arizona, the City of Tucson Police Department, and The People are aware 
that there are serious Constitutional policy/procedural deficiencies 
regarding the safety, care, and protection of children and their 
families in the State of Arizona under current CPS policies and 
procedure s.
    14.   The announced policy statement by Governor Napolitano coupled 
with the seemingly endless supply of federal monies encourages wrongful 
state intrusion into the lives of families in Arizona and violates 
constitutional and federally-protected rights and federal law.
    15. Pattern and Practice of State Created Danger
    *Payne children, deceased 2007 (CPS--Domestic Violence)
    *Emily Mays, deceased August 2005, (CPS)
    *Dwight Hill, deceased November 2005, (CPS)
    *D.R.A., Abused, October-November 2005 (CPS)
    *Others unnamed to protect the families.
    The State-Created Danger Doctrine See Penilla v. City of Huntington 
Park, 115 F.3d 707, 710 (9th Cir. 1997) ``If affirmative conduct on the 
part of a state actor places a plaintiff in danger, and the officer 
acts in deliberate indifference to that plaintiff's safety, a claim 
arises under Sec.  1983.''. Second, the official's act did more than 
simply expose the plaintiff to a danger that already existed. See L.W. 
v. Grubbs, 974 F.2d 119, 121 (9th Cir. 1992); see also Dwares v. City 
of New York, 985 F.2d 94, 99 (2d Cir. 1993); Freeman v. Ferguson, 911 
F.2d 52, 55 (8th Cir. 1990). Finally, the official acted with 
deliberate indifference to known or obvious dangers. See L.W. v. 
Grubbs, 92 F.3d 894, 900 (9th Cir. 1996) ``The plaintiff must show that 
the state official participated in creating a dangerous condition, and 
acted with deliberate indifference to the known or obvious danger in 
subjecting the plaintiff to it.''
    18 U.S.C 4 Misprision of Felony--parents report abuse of their 
innocent children in CPS custody and judicial, state, county, and other 
actors, with deliberate indifference to the constitutional rights of 
families and their children to a duty of care in state proceedings and 
custody (Fourteenth Amendment), do not act to interfere or stop the 
abuse, and even retaliate on the reporting parent by termination of 
rights, terminating visitation, or relinquishing custody of the child 
to prevent further reports of abuse at the hands of state agency 
policies and procedures upon these children. This is appalling and an 
outrage.
    16. Petitioner's case parallels the Mays and Hill cases in the 
period of time of injuries, the nature of the injuries, and deliberate 
indifference of the court, CPS, state-appointed attorneys, GALs, and 
assistant attorney generals acting as counsel for ADES to step up to 
the plate to provide the owed duty of care to protect children in state 
custody from further harm (death in the Mays, Payne, and Hill, other 
cases). The Payne case, this petitioners, and others demonstrate the 
deliberate indifference of CPS and juvenile courts toward domestic 
violence victims and their children and the need for change of the 
improper standard of ``best interests of the child'' in child abuse 
cases to protect the greater liberty interests of the custodial parent. 
It also demonstrates the complete unlawful disregard for ``previous 
custody agreements''. ARS 25-408(H)(I)
    17. This petitioner and other parents have contacted (2003-2007) 
Arizona Office of The Governor, Arizona House and Senate Members, and 
other public officials (State, City, AZBAR, AZ and Pima County Courts, 
and the like) who have the ability to make changes to inadequate or 
dangerous policy both before and after herein stated violations. They 
are all aware there is a problem with their own policies regarding the 
constitutional right of familial association and the Doctrine of State 
Created Danger and the duty of care afforded by the Fourteenth 
Amendment involving child protection and related policies.
    Instead of positive changes to policies or even investigation into 
violations, policies were changed to further deny the Constitutional 
Right to due process and to strengthen policies that violate 
Constitutional rights in adversarial CPS cases.
    18. Bill SB1430, initiated by Senator Johnson would have 
strengthened due process protections for First Amendment rights for CPS 
TPR cases, Arizona State Senate Committee on Family Services Minutes, 
dated February 13, 2006. Petitioner spoke at this Senate committee 
hearing. In June 2006 it was voted down due to Napolitano's threat of 
veto. Napolitano has at the same time publicly stated that caseworkers 
are to ``err on the side of the child'', affecting increased removals 
and TPR and creating policy at CPS that violates due process to 
families under the First and Fourteenth Amendments. ``It seems like a 
lot of trouble for something that's going to get vetoed.'' Rep. Pete 
Hershberger, R-Tucson, said before the bill died on the House floor.
    Napolitano's threatened veto and changes to policy removed jury 
trials for CPS TPR cases is in violation of the 1st, 6th, 7th, and 14th 
Amendments guaranteeing the right to trial by jury and the right of 
confrontation in any criminal or government adversarial trial where the 
value in controversy exceeds 20 dollars (a child's life and the right 
of familial association is invaluable).
    The excuse was that ``most jury trials resulted in TPR anyway''. 
This statement illustrates by admission the lack of procedural and 
substantive due process in Arizona juvenile courts, demonstrating the 
need for reform policies that implement the Constitutional Due Process 
of Law protections of the First, Fourth, Fifth, and Fourteenth 
Amendments of the United States Constitution, Arizona Constitution, 
Federal and Statutory law. See: Cf. Lorillard Tobacco Co v. Reilly 533 
U.S. 525, 540-41, 121 S.Ct. 2404, 2414 (2001)
    AZ State Representative Laura Knaperek, as well as child advocacy 
expert Richard Wexler, spoke out strongly condemning Governor 
Napolitano's policy saying it will deeply hurt Arizona's families, and 
it has.
    19. The Governor's policy implementation (threat of veto, lowered 
standards of proof, and removal of jury trials) is a deliberate and 
knowing error as ruled by the Arizona Supreme Court decision in Kent K. 
and Sherry K. v. Bobby M. and Leeh M. where the Court, applying 
Matthews and Santosky, held that, ``The private interest affected is 
commanding; the risk of error from using a preponderance standard is 
substantial; and the countervailing governmental interest favoring that 
standard is comparatively slight. Because the preponderance of the 
evidence standard essentially allocates the risk of error equally 
between the parents and the state, due process requires a higher 
standard of proof than ``preponderance of the evidence''.
    20. This petitioner spoke at Governor Napolitano's CPS Reform 
conference in 2003 on domestic violence and the need for CPS to protect 
Mothers and their children. The recent horrific cases of Tyler and 
Ariana Payne and another unnamed father who dated a CPS supervisor 
parallels this case and the problem of Domestic Violence and CPS 
policies of separating Mother her child in favor of the noncustodial 
batterer, thus inflicting the sins of the batterer on the children, as 
addressed in an injunction against NY Child Protection in Nicholson et 
al v Scoppetta et al and Williams et al where the Court concluded:
    ``The City may not penalize a mother by separating her from her 
children; nor may children be separated from the mother, in effect 
visiting upon them the sins of their mother's batterer'' (In re 
Nicholson, 181 F supp 2d 182, 188 [ED NY Jan. 20, 2002], Nicholson v 
Williams, 203 F Supp 2d 153 [ED NY Mar 18, 2002] [108-pg elaboration 
grounds injunction]). The Court found that ACS unnecessarily, routinely 
charged mothers with neglect and removed their children where the 
mothers were the victims of domestic violence; that ACS did so without 
ensuring that the mother had access to the services she needed, without 
a court order, and without returning these children promptly; that ACS 
caseworkers and managers lacked adequate training about domestic 
violence, and their practice was to separate mother and child when less 
extreme measures should have been taken. The District court cited the 
testimony of a manager that it was common practice in domestic violence 
cases for ACS to wait a few days before going to court after removing 
the child because ``after a few days of the children being in foster 
care, the mother will agree to ACS's conditions without the matter even 
going to court'' 203 F Supp 2d at 170.
    See also: Pathologizing the Victim, a common tactic used in family 
court to applaud the actions of the abuser while labeling the victim 
unstable.
    21. Common sense and civil law state that when government or agency 
policies are in violation of Constitutional Rights or of Federal Law or 
Federally protected rights, state and local governments and their 
agencies that institute or encourage policies are directly liable for 
wrongs and injuries that result. Governor Napolitano and the State of 
Arizona's policies and deliberate indifference has assumed 
responsibility for injuries instilled upon families such as those of my 
child and of Emily Mays and Dwight Hill (infants) and further cases 
such as the Payne case (involving prior domestic violence and CPS 
change of custody) which show the sufferings and irreparable injury of 
parents and their children as a result. Children are no safer in state 
custody than with parents, nor are they any safer with CPS involvement. 
Child abuse is an issue for the police, not a social agency.
    22. The federal law on child abuse and neglect is found primarily 
in Title IV-B&E of the Social Security Act transfers monies from the 
Social Security Fund to The State. Approximately seventy-five percent 
of the funds in Arizona is federal money which is available only if the 
state meets eligibility requirements; these funds can be withdrawn if 
requirements are not met.
    The history and sources of the Child Welfare funding are primarily 
found in: Federal Payments for Foster Care and Adoption Assistance 42 
USC 670-679b; the 1974 Walter Mondale Child Abuse Prevention and 
Treatment Act, PL 93-247, 88 Stat. 4, 42 USC 5101-5107; and the 
Adoption Assistance and Child Welfare Act, PL 96-272, 94 Stat. 500, 42 
USC 670-676 (and amending 620-628); 42 USC 107(b), 5106a(b)(1) Grants 
to States for child abuse and neglect prevention and treatment 
programs, as well as other sources such as the Interstate Compact on 
the Placement of Children (ICPC), a contract which provides financial 
incentives for interstate placement of foster children, reportedly to 
find permanence.
    23. The State of Arizona is the governing body of AZDES-DCYF-CPS. 
The State collects Federal Funding, (42 USC 670-679b) (17 Trillion in 
2004, U.S. total) from the United States Government in the form of 
Title IV (Parts B & E) funding, mandated to be used primarily for 
prevention and reunification purposes (42 USC 671). Title 42 Chapter 
67: Child Abuse Prevention and Treatment and Adoption Reform also 
offers federal funding grants to CPS agencies through various 
eligibility programs such as fostering, adoptions, interstate 
placements, etc., as do other additional grants/receipts.
    24. ADES receives federal funding through the state which then 
provides funding to domestic violence shelters and programs through its 
Community Services Administration (CSA) and collects information such 
as Name, Address, Age, Phone Number, Children's Names and Ages, Income, 
Disability Status, and other personal information. ADES maintains its 
own private database on Mothers and children who receive domestic 
violence services. Recent events in the Payne case as well as this 
petitioner and others show a pattern of disregard for Mothers and their 
children who are victims of domestic violence.
    25. The Supreme Court of the State of Arizona has power to issue 
declaratory relief in the form of Arizona State Congressional 
investigation into state records of specific practices of this agency 
such as the use of federal funding to meet federal eligibility 
requirements regarding prevention, inconsistencies in individual case 
documentation, nonexplicit rubber-stamped judicial findings, paper-
shuffling to meet federal statutory law, foster provider licensing, 
state-contractor conflict-of-interests (fishing expeditions to build a 
case through forced services to justify unlawful removals post facto), 
and for examination or positive enforcement of federal law that 
overrides state law matter of child welfare.
    26. This petitioner prays this AZ Supreme Court will honor 
Declaratory Positive Relief to address the problems in the Child 
``Protection'' Services of the State of Arizona, such as amending state 
statutes and state policy to properly comply with overriding federal 
funding contract law.

Dated this 17th day of May, 2007
Signed in ink for the court
Roma O. Amor, Appearing as herself
SUBMISSION OF TESTIMONY FOR THE RECORD
ABOLISH CPS. Let police handle it!
COMMITTEE ON WAYS AND MEANS
SUBCOMMITTEE ON INCOME SECURITY AND FAMILY SUPPORT
CHILD WELFARE HEARING 5-15-07

Submitted for:
Roma O. Amor and Dante R. Amor (Rafe)
All Arizona families and for those children that suffer.

                                 <F-dash>
                    Statement of Voice for Adoption
    Voice for Adoption (VFA) is pleased to submit testimony to the 
Subcommittee on Income Security and Family Support on the challenges 
facing the child welfare system. We look forward to continuing to work 
with the Subcommittee as you examine ways to improve the outcomes for 
children and families involved with the child welfare system.
    As everyone who is involved with the child welfare system knows, 
the system faces a wide range of challenges as it attempts to achieve 
safety, permanency, and well-being for all of the children it serves. 
One issue that I want to highlight for this committee is the growing 
need for high-quality post-adoption services as a way to ensure that 
adoption can truly provide the stability and permanence that vulnerable 
children need.
The Needs of Children in Foster Care
    Children in foster care have experienced great traumas in their 
lives. Many of them struggle with physical and mental health problems, 
developmental delays, educational challenges, and psychological 
difficulties.\1\ As a result of being in foster care, all of them have 
experienced loss and multiple transitions, which can make it more 
difficult for them to adjust to new family settings. Achieving 
permanence for these children is a critical goal, but permanence itself 
cannot ensure a child's well-being. Children and their adoptive 
families need additional support to help them heal and enable them to 
thrive.
---------------------------------------------------------------------------
    \1\ Casey Family Services, The Casey Center for Effective Child 
Welfare Practice. (2002) Strengthening Families and Communities: An 
Approach to Post-Adoption Services--A White Paper.
---------------------------------------------------------------------------
    One of the great resources available to the child welfare system is 
the large number of families that are dedicated to caring for children 
who have experienced abuse and neglect. These foster and adoptive 
parents face extraordinary challenges as they try to help their 
children heal from their past traumas and learn to manage their special 
needs. The child welfare system recognizes the need to provide services 
and support to foster families to help them meet their foster 
children's needs; foster parents can receive additional subsidies or 
financial assistance to pay for the child's food and clothing costs, 
respite care, special camps, child care, and other expenses involved in 
caring for the child.\2\ For many prospective adoptive parents, they 
are considering adopting a child from foster care, a child who may 
receive, through the foster care system, medical, educational, mental 
health, and crisis intervention services to address their special 
needs. Many of these supports and services end as soon as a child is 
adopted. Prospective adoptive parents of children with special needs 
shouldn't be faced with the added challenge of deciding between making 
a child a permanent part of their family and ensuring that their child 
can continue to receive the services and support they need in order to 
overcome the challenges they experienced early in life.
---------------------------------------------------------------------------
    \2\ U.S. Government Accountability Office. (2005) Better Data and 
Evaluation Could Improve Processes and Programs for Adopting Children 
with Special Needs.
---------------------------------------------------------------------------
The Role of Post-Adoption Services
    Post-adoption services play a critical role in helping stabilize 
families that adopt children with special needs. Programs that provide 
post-adoption services have been shown to contribute to improved child 
functioning, improved parenting skills, prevention of adoption 
disruption and dissolution, and increased numbers of adoption.\3\ 
Thanks in part to major investments in adoption promotion and 
recruitment activities over the past decade, nearly 400,000 children in 
foster care have been adopted.\4\ This has created a growing need for 
adoption-competent services for the families that have adopted children 
with histories of abuse and neglect. Unfortunately, the intense efforts 
and investments that have contributed to this dramatic increase in the 
number of adoptions have not been matched by a corresponding commitment 
to providing support for the families that have responded to the calls 
to adopt children in foster care.
---------------------------------------------------------------------------
    \3\ U.S. Department of Health and Human Services. (2005). Post-
Legal Adoption Services for Children with Special Needs and Their 
Families: Challenges and Lessons Learned.
    \4\ U.S. Department of Health and Human Services. Adoption and 
Foster Care Analysis and Reporting System: Trends in Adoption and 
Foster Care and Adoptions of Children with Public Child Welfare Agency 
Involvement By State FY 1995-FY 2005.
---------------------------------------------------------------------------
    A paper from the Casey Family Services' Center for Effective Child 
Welfare Practice provides a succinct description of critical role that 
post-adoption services play in achieving permanence for waiting 
children: ``The growing population of special needs children in foster 
care who are waiting to be adopted highlights the critical need to 
recruit, prepare and then support a larger number of adoptive families. 
We have found that the recruitment of prospective adoptive parents and 
the provision of post-adoption services and supports are integrally 
related. As the population of children in foster care waiting to be 
adopted has grown and become more complex, ever-increasing numbers of 
adoptive families who can meet these special needs must be recruited, 
an effort that is likely to be negatively affected if post-adoption 
services and supports are lacking or do not continue once a child is 
adopted from foster care. Assurance of the availability of services and 
supports following adoption has been found to play a critical role in 
many prospective adoptive parents' decisions to go forward with the 
adoption of children in foster care--whether children are adopted by 
their current foster families or new families recruited for them.'' \5\
---------------------------------------------------------------------------
    \5\ Casey Family Services, The Casey Center for Effective Child 
Welfare Practice. (2002) Strengthening Families and Communities: An 
Approach to Post-Adoption Services--A White Paper.
---------------------------------------------------------------------------
    Child welfare professionals and adoption advocates have long 
acknowledged that adoption saves the government money compared to the 
costs of keeping a child in foster care. Based on new research from 
2006, we have strong confirmation of the range of cost-savings that 
adoption offers.\6\ With an estimated annual savings to government of 
$1 billion, there is a highly compelling government interest in moving 
children out of long-term foster care into adoptive families. Providing 
permanent families for waiting children not only brings better outcomes 
for children; it is a sound way of saving money. These savings are 
realized in the short-term, with the federal and state governments 
seeing a reduction in administrative costs for each child that moves 
out of foster care and into adoption. The financial benefits to 
government of moving children out of foster care and into adoption 
depend on those adoptions remaining intact, however. Post-adoption 
services play a key role in keeping adoptive families together and 
healthy, which helps keep children from re-entering the foster care 
system.
---------------------------------------------------------------------------
    \6\ Barth, R., Lee, C., Wildfire, J., & Guo, S. (2006). ``A 
comparison of the governmental costs of long-term foster care and 
adoption.'' Social Service Review, 80(1). 127-15.
---------------------------------------------------------------------------
    Despite the strong evidence of the importance of post-adoption 
services in recruiting and sustaining adoptive families, states 
struggle to provide the services and support that adoptive families 
need. One of the most significant challenges that the child welfare 
system faces as it seeks to support adoptive families is the structure 
of funding sources that can be used to pay for post-adoption services. 
Even when funding is available for states to provide post-adoption 
services, states still face the challenge of patching together 
disconnected funding streams that have varying eligibility criteria and 
allowable activities. The primary federal funding streams available for 
post-adoption services are Titles IV-E and IV-B of the Social Security 
Act, Adoption Incentive program payments, and discretionary grants 
through the Adoption Opportunities program. Despite the existence of 
multiple funding streams that can pay for post-adoption services, none 
of these programs provide dedicated post-adoption funding; states are 
forced to choose between using the money to fund post-adoption services 
or other critical social service needs. For example, the Promoting Safe 
and Stable Families program (Title IV-B, subpart 2 of the Social 
Security Act) provides for 20 percent of each state's program funding 
to be directed toward ``adoption promotion and support'' activities. 
Even with this funding category being dedicated to the area of 
adoption, states still must choose whether to direct the money toward 
adoptive parent recruitment and other adoption promotion activities or 
toward post-adoption support. With the Adoption Incentive program 
rewarding states for increasing their number of adoptions, but no 
consideration of the stability of those placements, there is a strong 
financial incentive for states to invest in recruitment instead of 
post-adoption services. Even within the Adoption Opportunities 
program--a program designed to focus specifically to promote and 
support special needs adoption--the grants in recent years have been 
diverted away from core program activities. The program used to focus 
on three main areas: recruitment of families for minority children in 
foster care; post-adoption services; and field initiative grants. 
Recent grant categories have directed funding instead toward marriage 
education and non-resident fathers initiatives.
    The reality of the current state of post-adoption services is that 
they are provided by disparate agencies and government entities, with 
varying eligibility requirements, limited and fragmented access, and 
inconsistencies in the adoption competency of the service providers. A 
report from U.S. Department of Health and Human Services describes the 
fragmented status of post-adoption services around the country: 
``Although the field has proposed an optimal continuum of care for 
adoptive families, the provision of post-adoption services can best be 
described as patchy rather than comprehensive. Services offered range 
from information and referral networks to support for residential 
treatment. Yet there is little uniformity in provision of services 
across, and sometimes within, states.'' \7\ This lack of uniformity 
creates great inequalities in the amount of support that adoptive 
families receive depending on which state or county a family resides.
---------------------------------------------------------------------------
    \7\ U.S. Department of Health and Human Services. (2002) Assessing 
the Field of Post-Adoption Services: Family Needs, Program Models, and 
Evaluation Issues.
---------------------------------------------------------------------------
Conclusion
    The child welfare system faces great challenges in achieving its 
goals of safety, permanence, and well-being for children. Although we 
have seen great progress in the number of children in foster care who 
have achieved permanence through adoption in the past decade, the 
families who provide this permanence experience extraordinary 
challenges trying to provide true stability for their children. A 
dedication to providing permanence for vulnerable of children requires 
acknowledging that the work does not end once a child's adoption is 
finalized; true permanence requires a strong commitment to both 
achieving permanence for children and sustaining permanent families so 
that they can experience stability, security, and well-being. In order 
for a child to truly experience the benefits of permanency, the family 
must have the support it needs to manage the challenges the come from 
raising a child with special needs. Without dedicated funding for post-
adoption services, states will continue to struggle to patch together 
disconnected funding streams with wide variations in the availability 
of services across the country.

                                 <all>

</pre></body></html>
